<html>
<title> - ARIA (ASIA REASSURANCE INITIATIVE ACT) IN ACTION Part 1: Human Rights, Democracy, and the Rule of Law Part 2: The Benefits of Economic Diplomacy Part 3: Implementation and the Indo-Pacific Strategy</title>
<body><pre>[Senate Hearing 116-212]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-212
 
         ARIA (ASIA REASSURANCE INITIATIVE ACT) IN ACTION
                 Part 1: Human Rights, Democracy, and 
                            the Rule of Law

               Part 2: The Benefits of Economic Diplomacy

                     Part 3: Implementation and the
                         Indo-Pacific Strategy

=======================================================================

                                HEARINGS


                               BEFORE THE


                     SUBCOMMITTEE ON EAST ASIA, THE
                       PACIFIC, AND INTERNATIONAL
                         CYBER SECURITY POLICY


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

      INSERT DATE HERE deg.APRIL 9, MAY 23, AND OCTOBER 16, 2019

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-536 PDF           WASHINGTON : 2020                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
TED CRUZ, Texas
                  Christopher M. Socha, Staff Director        
               Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

                CORY GARDNER, Colorado, Chairman        
MARCO RUBIO, Florida                 EDWARD J. MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CHRISTOPHER A. COONS, Delaware
JOHNNY ISAKSON, Georgia              JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  TOM UDALL, New Mexico


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

            ARIA (ASIA REASSURANCE INITIATIVE ACT) IN ACTION
          Part 1: Human Rights, Democracy, and the Rule of Law
                         Tuesday, April 9, 2019

Gardner, Hon. Cory, U.S. Senator from Colorado...................     1


Markey, Hon. Edward J., U.S. Senator from Massachusetts..........     3


Abbas, Rushan, Director, Campaign for Uyghurs, Herndon, VA.......     4

    Prepared statement...........................................     6


Tsering, Bhuchung K. Vice President, International Campaign for 
  Tibet, Washington, DC..........................................    11

    Prepared statement...........................................    13


Khin, Tun, President, Burmese Rohingya Organisation UK, London, 
  United Kingdom.................................................    18

    Prepared statement...........................................    19



Additional Material Submitted for the Record


Letter Submitted for the Record by Amnesty International.........    36


    Attachments to the prepared statement of Bhuchung Tsering

    Attachment 1: Foreign Correspondents' Club of China (FCCC) 
      Position Paper,``Foreign Journalist Access to Tibet,'' 
      March 2019 ................................................    42

    Attachment 2: Euractiv, ``Time to Rebalance EU-China 
      Relations and Demand Unfettered Access to Tibet,'' March 
      14, 2019 ..................................................    52

    Attachment 3: Statement of His Holiness the Fourteenth Dalai 
      Lama, Tenzin Gyatso, on the Issue of His Reincarnation, 
      September 24, 2011 ........................................    55


Letter to Secretaries Pompeo and Munchin Regarding the 
  Administration's Policy on Sanctions on the Perpretrators of 
  Atrocities Against the Rohingya People, March 19, 2019 ........    63


American Jewish World Service Statement on the Genocide of the 
  Rohinya, December 12, 2018 ....................................    67


Jewish Rohingya Justice Network Statement on the Genocide of the 
  Rohingya, February 26, 2019 ...................................    70

                                 (iii)

               Part 2: The Benefits of Economic Diplomacy
                         Thursday, May 23, 2019

Gardner, Hon. Cory, U.S. Senator from Colorado...................    73


Markey, Hon. Edward J., U.S. Senator from Massachusetts..........    74


Currier, Carlyle, Vice President, Colorado Farm Bureau, 
  Centennial, CO.................................................    76

    Prepared statement...........................................    77


Goodman, Matthew P., Senior Vice President and Simon Chair in 
  Political Economy, Center for Strategic and International 
  Studies (CSIS), Washington, DC.................................    78

    Prepared statement...........................................    80


Lewis, Dr. Joanna, Professor, Edmund A. Walsh School of Foreign 
  Service, Georgetown University, Washington, DC.................    86

    Prepared statement...........................................    88

          Part 3: Implementation and the Indo-Pacific Strategy
                      Wednesday, October 16, 2019

Gardner, Hon. Cory, U.S. Senator from Colorado...................   109


Markey, Hon. Edward J., U.S. Senator from Massachusetts..........   110


Stilwell, Hon. David R., Assistant Secretary of State for East 
  Asian And Pacific Affairs, U.S. Department of State, 
  Washington, DC.................................................   112

    Prepared statement...........................................   114


Schriver, Hon. Randall G., Assistant Secretary of Defense for 
  Indo-Pacific Security Affairs, U.S. Department Of Defense, 
  Washington, DC.................................................   121

    Prepared statement...........................................   123


Steele, Hon. Gloria D., Acting Assistant Administrator for Asia, 
  U.S. Agency for International Development, Washington, DC......   126

    Prepared statement...........................................   128



Additional Material Submitted for the Record


Responses of Hon. David R. Stilwell to Questions Submitted by 
  Senator Edward J. Markey.......................................   151


Response of Hon. Randall G. Schriver to a Question Submitted by 
  Senator Todd Young.............................................   151


Responses of Hon. Randall G. Schriver to Questions Submitted by 
  Senator Edward J. Markey.......................................   152


Responses of Hon. Gloria D. Steele to Questions Submitted by 
  Senator Edward J. Markey.......................................   153


       ARIA (ASIA REASSURANCE INITIATIVE ACT) IN ACTION, PART 1:



                       Human Rights, Democracy, 
                          and the Rule of Law

                              ----------                              


                         TUESDAY, APRIL 9, 2019

                               U.S. Senate,
                         Subcommittee on East Asia,
                      The Pacific and International
                              Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner [presiding], Young, Markey, and 
Coons.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to the second hearing of the Senate 
Foreign Relations Committee on East Asia, The Pacific, and 
International Cybersecurity Policy in the 116th Congress.
    This hearing will be the first hearing in a three-part 
series to examine the implementation of the Asia Reassurance 
Initiative Act, or ARIA, which Senator Markey and I led in the 
115th Congress and which was signed into law on December 31st, 
2018.
    Today's hearing is focused on human rights, democracy, and 
the rule of law in the Indo-Pacific region, an essential 
component, building block component of ARIA and an urgent 
priority for U.S. policy in the region.
    As stated in section 401 of ARIA, the promotion of human 
rights and respect for democratic values in the Indo-Pacific 
region is in the United States' national security interests. 
Continued support for human rights, democratic values, and good 
governance is critical to a successful United States diplomatic 
strategy in the Indo-Pacific.
    In section 409 of ARIA, Congress authorized over $1 billion 
in new funding to promote democracy, strengthen civil society, 
human rights, rule of law, transparency, and accountability in 
the Indo-Pacific region, including for universities, civil 
society, and multilateral institutions that are focusing on 
education awareness, training, and capacity building.
    What makes today's hearing especially timely and unique is 
that all three of our witnesses are distinguished human rights 
and religious freedom advocates themselves with firsthand 
experience in dealing with human rights abuses with regard to 
their communities inside China and Burma. Some of their family 
members and friends are detained and persecuted to this day.
    So I would like to thank our witnesses. Thank you for your 
courage in speaking to us today. Thank you for your words 
today. And I look forward to hearing their recommendation on 
how the United States can better prioritize human rights, 
democracy, and the rule of law in the Indo-Pacific region and 
certainly beyond as this eternal value of the United States.
    With that, I will turn it over to Senator Markey when he 
arrives. But we will go ahead and start with the witnesses 
today, and I will just turn it over to you and introduce you 
and maybe have your comments and hear from Senator Markey 
shortly.
    Before I begin, though, with witness introduction, I would 
like to ask unanimous consent to enter into the record a 
statement by Amnesty International prepared for today's 
hearing. We will wait for Senator Markey to make sure we get 
that consent.
    And then to all witnesses today, we kindly ask you to limit 
your verbal remarks to no more than 5 minutes, and your full 
written statements will be made part of the record. I am going 
to introduce all three witnesses.
    Our first witness is Ms. Rushan Abbas, who is the Director 
of the Campaign for Uyghurs. Ms. Abbas is a former student 
activist of the pro-democracy demonstrations at Xinjiang 
University in 1985 and 1988. She left Xinjiang in 1989 and came 
to the United States to study at the Washington State 
University.
    Since her arrival in the United States in 1989, Ms. Abbas 
has been an ardent campaigner for the human rights of the 
Uyghur people. When the U.S. Congress funded Uyghur language 
service at the Radio Free Asia in 1998, Ms. Abbas was the first 
Uyghur reporter and news anchor broadcasting daily to the 
Uyghur region.
    As she describes in her testimony, Ms. Abbas has close 
family members that are currently imprisoned in Chinese 
concentration camps in Xinjiang. Ms. Abbas, we look forward to 
hearing from you.
    Today we are also joined by Mr. Bhuchung Tsering, who is 
Vice President of the International Campaign for Tibet. Mr. 
Tsering was born in Tibet. His family fled to India in 1960 in 
the wake of the Chinese Communist invasion. He studied in India 
and worked as a journalist in New Delhi before joining the 
Central Tibetan Administration in Dharamsala in 1984.
    He joined the International Campaign for Tibet in 
Washington, D.C. in 1995. He is a member of the task force set 
up by the CTA to work on issues relating to the dialogue 
process with the Chinese and was a member of the team led by 
the envoys of His Holiness the Dalai Lama in the discussions 
that they had with the Chinese leadership between 2002 and 
2010.
    Welcome, Mr. Tsering. We look forward to your testimony.
    Finally, joined by Mr. Tun Khin, who is President of the 
Burmese Rohingya Organisation based in London, United Kingdom. 
Mr. Khin was born and raised in Burma and is a member of the 
Rohingya Muslim minority. He has resided in the United Kingdom 
since 2004 where he founded the Burmese Rohingya Organisation 
and in his capacity has addressed the British Parliament, the 
U.S. Congress, the European Parliament to the United Nations 
Human Rights Council.
    In April 2015, he received a leadership award from Refugees 
International for his advocacy work, and we welcome you, Mr. 
Khin, and we look forward to hearing your testimony today.
    Before I do that and turn to you, though, I would turn to 
Senator Markey for his opening comments.

              STATEMENT OF HON. EDWARD J. MARKEY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much, and we 
thank you for this very important hearing that we are having 
today and for your continued partnership on all of these 
issues.
    We applaud your courage to speak out in defense of your 
rights and are humbled by the personal sacrifices that each of 
our witnesses are willing to do on a daily basis. Thank you for 
the sacrifices of your families as well.
    Mr. Chairman, we are able to accomplish a great deal this 
year because of the Gardner-Markey Asia Reassurance Initiative 
Act, or ARIA as it is called. It was a statement of American 
commitment to our friends and partners throughout the Indo-
Pacific.
    ARIA covers a wide range of issues. It is no coincidence 
that this subcommittee's first hearing on this legislation in 
this Congress is addressing human rights, democracy, and the 
rule of law. These principles are not just integral to 
advancing U.S. interests abroad; these principles define us. 
For some, it is easy to question the importance of human rights 
in our foreign policy. The current administration's policies 
often highlight these doubts.
    Is there a tradeoff between promoting human rights and 
protecting the political, economic, and military security of 
the United States? I believe history clearly demonstrates that 
the answer is no. When governments deny the fundamental rights 
of their people, they take their countries down paths that 
result all too often in mass atrocities, humanitarian crises, 
and civil war. These tragedies transcend borders, destabilizing 
entire regions, and impact the interests of the United States, 
our allies, and our partners.
    And when America stays silent in the face of these abuses, 
we cede our position as the last bastion of hope everywhere 
fighting for the rights and dignities each of us deserves. And 
to whom do we cede this moral authority and leadership? 
Authoritarian governments, strongmen who are proliferating 
throughout the region are becoming increasingly emboldened, not 
just in how they repress their own people, but also in how they 
export their inhumanity to others.
    So, Mr. Chairman, I believe it is in part our 
responsibility to shine a light on some of the most pressing 
human rights concerns. Today's hearing is an opportunity to 
give a voice to the voiceless and to discuss what America can, 
should, and must do to defend those being persecuted.
    After all, we are nearing the 2-year anniversary of the 
mass atrocities committed by the Burmese military against the 
Rohingya people. And while the United Nations and others have 
used the terms, quote, genocide and crimes against humanity 
when referring to what happened to nearly 800,000 Rohingya, the 
Trump administration's lack of any such assessment is glaringly 
conspicuous.
    And the Chinese Government has established a virtual prison 
state under the pretext of counterterrorism. Security 
checkpoints, police, intelligence operatives, and facial 
recognition technology are just some of the tools Chinese 
authorities use to carry out a massive surveillance operation 
against the Uyghur and Central Asian minorities. Over 1 million 
people are still in internment camps, and the Chinese are 
threatening anyone trying to highlight these abuses, even 
activists residing in the United States.
    And 60 years after the exile of the Dalai Lama, the Chinese 
Government continues to apply the same heavy-handed tactics of 
repression against the Tibetan people that it has carried out 
for decades.
    But we should be clear. These are not the only human rights 
crises in the Indo-Pacific. Last week with four other Senators, 
I introduced a bipartisan resolution condemning the Duterte 
Government in the Philippines for committing extrajudicial 
killings, falsely imprisoning human rights defenders, and 
independent journalists.
    In Brunei, the government recently enacted brutal new 
criminal laws that include death by stoning for sex between men 
or for adultery and amputation of limbs for theft. This is 
nothing short of barbaric.
    And in Cambodia, the Hun Sen regime continues its campaign 
to dismantle the country's democratic institutions, holding a 
major opposition leader under house arrest and jailing 
journalists.
    These developments are extremely troubling, but I hope that 
calling attention to them will help reduce their prevalence. 
And I hope that today's hearing will demonstrate that promoting 
human rights and defending our national interests are not 
mutually exclusive, but rather mutually reinforcing.
    So, again, we thank each of our witnesses for all of the 
work which they do on human rights.
    And I thank you, Mr. Chairman, for this very important 
hearing.
    Senator Gardner. Thank you, Senator Markey.
    And I would like to submit for the record a letter from 
Amnesty International regarding today's hearing.
    Senator Markey. Beautiful.
    Senator Gardner. Thank you. Without objection, that will be 
entered into the record.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Gardner. Ms. Abbas, if you would like to proceed 
with your testimony. Thank you.

             STATEMENT OF RUSHAN ABBAS, DIRECTOR, 
               CAMPAIGN FOR UYGHURS, HERNDON, VA

    Ms. Abbas. Thank you, Senator Gardner and the members of 
the subcommittee.
    Since September 11, 2018, my sister has been detained in 
China's Orwellian political education camps. We call it 
concentration camps. She is detained in retaliation for my 
public advocacy. On September 5th, 2018, I spoke at one of the 
think tanks in Washington about the conditions of the camps 
outlining the fate of my in-laws. Six days later, my sister, 
Dr. Gulshan Abbas, and my aunt were abducted.
    I have been a proud citizen of the United States for 25 
years. Yet, the long arm of the Chinese Communist regime has 
extended its reach across the borders to ravage my heart by 
jailing the only close family I have back home.
    My sister was a retired medical doctor. The only reason for 
her abduction is guilt by association with me, an American who 
dared to exercise her freedom of speech in the U.S. I am 
extremely worried for my sister. I am not sure if she is able 
to tolerate the harsh conditions of the camps for long and to 
survive when she has been facing food and sleep deprivation, 
dehydration, forced medications, and the physical and the 
mental torture for over 7 months now. Please help us get 
information about my sister to secure release.
    My sister has only two daughters, and they both live in the 
U.S. My niece, Ziba, a U.S. citizen came from Florida to be 
with us today where she lives with her husband and her 9-month-
old baby. She is here now behind me. She wants to know if her 
mother is alive. Her husband and I both served this great 
country as DOD contractors.
    My brother, Dr. Rashad Abbas, is also among us. He is a 
U.S. citizen contributing both as a senior scientist and a 
human rights advocate.
    This is a targeted attack on American citizens.
    Ms. Zeynep Ablajan is here with us too. She is the wife of 
a prominent Uyghur scholar, Yalqun Rozi. Yalqun Rozi worked on 
compiling Uyghur textbooks with the Chinese Government's 
request. With the current crisis, he was sentenced to 15 years 
in jail.
    Like so many other Uyghurs in the U.S. and around the 
world, our stories are not unique. Almost every Uyghur in the 
U.S. has friends and family who are currently detained. 
Sometimes dozens and dozens of family members are missing.
    The only crime of my sister, Ms. Ablajan's husband, and the 
other millions of Uyghurs suffering is being Uyghur Muslims. 
What the Chinese Government is doing is evil, a crime against 
humanity, and at this point, it has become about the right to 
live and the means to survive as human beings. It challenges 
basic integrity, and the world cannot be silent when over a 
million Uyghurs and the other Muslims are being detained, 
stripped of their culture, and forced to swear blind loyalty to 
the Communist Chinese regime and to Xi Jinping.
    China should be held accountable for its actions. We 
appreciate the strong words coming from the State Department 
and Vice President Pence. But at some point, words are not 
enough. Action is needed to hold China's officials and 
businesses accountable, push back against the Chinese 
Government's narrative and actually demand China close the 
camps.
    We truly appreciate the leadership of Senator Rubio and 
Congressman Smith on the CCEC as they started raising these 
issues over a year ago and continue to press the administration 
to act. The letters sent to the administration last week by 
Senator Rubio and more than 40 Members of the Congress is 
important. The Senate should stay on top of the administration 
to use Global Magnitsky sanctions to target the Chinese 
officials who are responsible for these crimes against 
humanity.
    Please pass the Uyghur Human Rights Policy Act sponsored by 
Senator Rubio and Senator Menendez. Over 25 percent of the 
Senate have sponsored. We hope the bill will be passed quickly.
    Instruct the FBI and the State Department to work to 
protect Uyghurs, Tibetans, and the other activists from threats 
or coercion from the Chinese affiliated agents.
    Authorize doubling the broadcast time for Radio Free Asia 
Uyghur service. RFA reporters have provided the best 
information about what is happening on the ground in the Uyghur 
region. RFA reporters have families detained for retaliation 
for their work.
    Of the money authorized in the Asia Reassurance Initiative 
Act for the promotion of democracy, human rights defenders, and 
young leaders, section 409, 410, and 411, we ask that money can 
be designated to assist Uyghur, Kazakh, and the other groups to 
document the atrocities, to document the Chinese Government's 
propaganda globally, and to support activities to preserve 
cultural traditions.
    Point out to the administration that if China is 
successfully keeping it from acting to deter the targeting of 
American citizens and to hold China accountable for the 
concentration camps, China has already won in linking anything, 
whether money from trade or fear of retaliation, to America's 
ability to stand up independently against evident evil. If the 
administration waits to act until after the trade talks end, 
will it ever act when it has conceded such linkage and granted 
China such leverage over U.S. actions?
    Thank you for allowing me to testify today.
    [The prepared statement of Ms. Abbas follows:]


                   Prepared Statement of Rushan Abbas

    Dr. Michael Pillsbury points out in his book The Hundred-Year 
Marathon that Chinese Communist Party leaders are aiming to challenge 
American leadership in the world. In their minds, ``every place could 
be a battlefield in the future.'' Chinese leaders are indeed currently 
treating every single country in the world as their own battlefield now 
as they take extraordinary measures to target individuals and whole 
governments to keep them quiet and passive to the world's largest mass 
incarceration of an ethnic minority since the 1940s.
    This re-emergence on Earth of concentration camps is happening in 
my homeland of East Turkestan, home to more than 11 million Uyghurs, in 
what the Chinese government refers to as its ``New Frontier''--
Xinjiang. Formally, China calls it the Xinjiang Uyghur Autonomous 
Region, but in reality, there is no autonomy--just an Orwellian mass 
surveillance state where Uyghurs are treated as an ``other'' and 
subjected to forced Sinification as Chinese Han rapidly settle there, 
and more than one million Uyghurs are arbitrarily detained outside the 
legal system in concentration camps.
    Since early 2017, the Chinese government has conducted a policy of 
mass disappearance, internment, and imprisonment of Uyghur people. 
Experts have estimated the number of Uyghurs interned in the 
concentration camps at between 800,000 to 1.5 million, in addition to 
approximately 1.5 million imprisoned formally, making this campaign 
targeting an ethnic minority--in this case Uyghurs and ethnic Kazakhs--
the most extensive since the Second World War. In March 2019, 
researcher Adrian Zenz estimated the number of Uyghurs and Turkic 
people interned outside of the formal prison system at 1.5 million. The 
few survivors' reports emerging from the camps describe an alarming 
catalog of crimes against humanity, including torture and deaths in 
custody. Incessant political indoctrination, enforced silence, inhuman 
conditions, and denial of Uyghur ethnic identity is part of the daily 
routine in these facilities.
    The camps are the result of decades of repressive and assimilatory 
policies by the Chinese government that aim to totally assimilate and 
socially reengineer the Uyghur people. Due to the Chinese government's 
information blockade, many people in the world do not even know about 
the plight of the Uyghur people. The tragedy unfolding today is beyond 
comprehension and only comparable to some of the worst human rights 
atrocities the world has ever seen. Everything that makes the Uyghur 
people unique has been treated as an abnormality and targeted: 
language, culture, history, religion, and ethnic identity. According to 
the Chinese ambassador to the US, Beijing is trying to turn Uyghurs 
into ``normal persons''. Today, all normal religious activities are 
banned for the Uyghurs as though they constituted a form of religious 
extremism that must be eradicated under a ``War on Terror'' pretext. 
Utilizing this anti-terrorism pretext, China has developed a mass 
surveillance police state, complete with DNA collection, ubiquitous 
cameras, facial recognition software, and GPS tracking devices on 
vehicles. There are QR codes on Uyghur homes and even utensils. The 
entire region is marked. Punishment is collective, aimed at Uyghur 
culture. This is the testing ground for China's vision for using 
technology and artificial intelligence to subject all individuals to an 
unimaginably invasive authoritarian state. What China tries out in 
Xinjiang against Uyghurs will surely be deployed against other 
minorities in Tibet and against China's more than 300 million Han 
Christians and even against the Han population generally in order to 
keep the ever-diminishing Communist Party, that actually rules as an 
authoritarian kleptocracy siphoning the country's wealth into 
officials' pockets, in power.
    Today, the entire Uyghur population faces persecution and arbitrary 
detention. Every family is affected. Fear is intentionally instilled by 
the authoritarian regime. Famous Uyghurs and those well known for 
having a voice, have been silenced to completely eliminate anyone who 
might cultivate or defend Uyghur ideas and values. Uyghur elites, 
philanthropists, shop-owners, intellectuals, professors, writers, 
journalists, doctors, academics, actors, and entertainers are primary 
targets. At least 386 identified Uyghur intellectuals imprisoned or 
forcibly disappeared since April 2017 clearly reveal the falsity of the 
Chinese government's continuously repeated claim that those camps are 
somehow for ``vocational training'' in addition to targeting 
``religious extremists''.
    According to numerous testimonies, detainees in those camps are 
subjected to food and sleep deprivation, forced medication, and torture 
leading to brutal deaths; and the dead are cremated to leave no 
evidence. Radio Free Asia reports the government is constructing 
massive crematoria throughout the region nearby the concentration camps 
for a culture that does not believe in cremation. Is this not a potent 
warning sign to the whole world? Conditions in the camps are so 
intolerable that a brother of my high school classmate, Qeyser Qeyyum, 
who was the chief editor of a literature magazine, committed suicide in 
September 2018 by jumping from an 8th-floor window when he received the 
order for his arrest and detention.
    I am a vocal human rights activist for my people. I decided to help 
expose the atrocities perpetrated by the Chinese government in 
Xinjiang, the fate of my in-laws, and the conditions inside the camps 
as one of the panelists at the Hudson Institute on September 5, 2018. 
Six days later, my sister, Dr. Gulshan Abbas, and my aunt were abducted 
as Beijing's tactic to silence me and stop my lawful activism inside 
the United States, which is my Constitutional right. Since September 
11, 2018, my sister is detained in Xinjiang's Orwellian political re-
education camps in retaliation for my public advocacy here in my own 
country. Both my sister and my aunt are unusual targets. They are not 
famous; they are not educators, writers or scholars. Neither has 
traveled to any foreign Muslim country, and they both speak Mandarin 
Chinese fluently. I say this because Uyghurs are often targeted when 
they travel abroad (under the suspicion of ``collusion'' with 
``terrorism'' or ``foreign powers'') or if they cannot speak Mandarin 
(which is seen by the Chinese central government as a sign either of 
ignorant backwardness or nationalist rebellion).
    My sister worked in a government-run hospital as a medical doctor 
before she retired early for medical reasons. Neither she nor my aunt 
fit any of the usual criteria for so-called ``vocational training 
centers.'' The only reason for their abduction is ``guilt by 
association'' with me--an American who dared to exercise her freedom of 
speech inside the U.S. They became victims of reprisal by the Chinese 
Communist Party (CCP) for my free speech in the United States. I have 
been a proud citizen of the United States for 25 years, yet the long 
arm of the Chinese communist regime has extended its reach across 
borders to ravage my heart by jailing the only close family it could. 
China's targeting of Americans to take away their Constitutional right 
to free speech must be deterred by the United States as it is otherwise 
a highly effective attack on individual Americans. And China is 
repeating these attacks regularly against Uyghurs in every country to 
silence them. Physical attacks are far less troubling psychologically 
than China's current unanswered tactics. Knowing my sister's health 
conditions, I am extremely worried for her. I am not sure if she is 
able to tolerate the intentionally harsh conditions of the camps this 
long and survive when she is facing food and sleep deprivation, 
dehydration, forced medication of unknown chemicals, and physical and 
mental abuse for over 7 months now.
    My niece is here with us today. She came from Florida, where she 
lives with her husband and 9-month-old baby. She wants to know if her 
mother is alive. Her husband and I both served this country as DOD 
contractors supporting Operation Enduring Freedom in Guantanamo, Cuba, 
as U.S. citizens. Please help us get information about my sister. We do 
not have any information on her since her unlawful detention. This is a 
specific attack on American citizens that needs an answer by our 
government. It is too much for individual Americans to have to bear 
alone while our government takes no meaningful action to deter China 
from targeting Americans intentionally via their family members. We 
worry for my sister's health conditions. It is devastating not knowing 
what has happened to my sister. We feel stranded, isolated.
    Do we have a government that would defend its citizens from such 
targeted attacks against them? Or is the lure of a trade deal 
sufficient to buy off yet another country's silence when the whole 
world should be saying ``Never Again!'' right now to China via 
sanctioning the perpetrators and their enablers? If China can keep the 
U.S. silent in action before a trade deal, it has already won in 
linking the two issues together. We must reject such linkage and assure 
the authoritarians of this world that they hold no power over us either 
as individuals or as governments to silence us. I will not be silenced. 
Will you stand by as our country remains silent when U.S. law--the 
Global Magnitsky Act's targeted sanctions on gross human rights 
violators--has yet to be meaningfully applied against China for its 
concentration camps?
    Ms. Zeynep Ablajan here with us today is the wife of a famous 
Uyghur scholar Yalqun Rozi. Yalqun Rozi worked on compiling Uyghur 
textbooks with the Chinese government's request. However, Beijing 
changed its laws later and eliminated the Uyghur language. 
Consequently, Yalqun Rozi's work became his crime and he was sentenced 
15 years in jail.
    Like so many other Uyghurs in the U.S. and around the world, my 
family's and Ms. Ablajan's stories are not unique. Almost every Uyghur 
in the U.S. has friends and family detained--sometimes dozens and 
dozens of family members detained.
    Beijing's human rights abuses do not stop in East Turkestan; they 
terrorize psychologically the entire Uyghur Diaspora. Uyghurs living 
abroad are in despair. They cannot communicate with their families. 
They cannot get any information on where their missing relatives are 
located or even if they are alive or dead. The harsh situation in East 
Turkestan is affecting their work, schooling, daily activities, 
emotional states, and health. Helplessness, obscurity, pessimism and 
depression are growing, and they are suffering from intensely traumatic 
chronic fear and anxiety. Many young students abroad no longer receive 
the funds sent by their parents back in East Turkistan for their 
schooling because the Chinese Government has stopped all money 
transfers abroad, frozen financial accounts, or simply detained their 
families. They are facing hardships in their lives and are often unable 
to continue their education. While the U.S. government has yet to 
demand with actions that China empty its concentration camps, it has 
also failed to even address the follow-on effects happening within its 
borders. Surely there could be some program to assist Uyghur students 
whose parents are taken into the concentration camps. If that is too 
financially burdensome for the U.S. government, please start charging 
the Chinese officials responsible for the concentration camps whose 
relatives enjoy ease of access to western education here in the U.S.
    I personally know several young Uyghur girls in NY and Boston who 
came to the U.S. as international students and who have one or both 
parents who have disappeared into the vast system of concentration 
camps. Their relatives back home have told them not to go back and not 
to call them. Since they no longer receive financial support from home, 
suddenly their lives in this new environment are turned upside down. 
Instead of focusing on their college studies for future career success, 
these young women in their early 20's are worried about their school 
tuition, daily living expenses, and their younger siblings left behind 
at home alone or sent to orphanages in mainland China. Financial 
hardship and emotional distress have taken a toll on their emotional, 
mental, and physical health. Certainly the U.S. Congress can 
effectively address this particular hardship caused by China's 
concentration camps but experienced within our own borders.
    Miss Adila Sadir, a young Uyghur lady living in Boston is an 
American citizen. More than thirty of her relatives are in the 
concentration camps, with ages ranging from a 20-year-old to a 
grandfather who is 90 years old. Why would the U.S. government not ask 
by name for the freedom of Americans' relatives when they are 
intentionally targeted for being Americans' relatives? Please start 
asking by name for their freedom. And if that list grows to record 
every individual of the more than one million victims inside China's 
concentration camps, please deliver a hardcopy to President Xi 
personally with the request that they be freed.
    To combat the backlash China is receiving from some of the western 
countries pertaining to the Uyghur crisis, the Chinese government is 
pressuring countries that they have influence over to make public 
statements showing support of the camps to justify what they are doing 
and ultimately weaken the opposition of western countries. This is 
unsurprising when you look at how countries influenced by China act 
within the United Nations. China is the second largest donor to the 
U.N. and economically dependent countries turn a blind eye to China's 
actions. China has been granting loans and paying for infrastructure 
projects in poor countries around the globe, knowing that those 
countries cannot pay them back, as a means to buy their silence in the 
United Nations and bully them on other political matters. China claims 
it is ``anti-terrorism and de-extremization work protecting its 
national security.'' The only ``crime'' of my sister and the other 
million Uyghurs in China's Gulag is being ethnic Uyghurs.
    What the Chinese government is doing is evil. It is a crime against 
humanity. It threatens life and liberty. Collective punishment of an 
entire ethnic group with atrocities not seen since Fascism should not 
be allowed in 2019. Most of the world remains silent while over a 
million Uyghurs are detained, stripped of their culture and language, 
and forced to swear fealty to the Chinese Communist Party and Xi 
Jinping. The U.S. began speaking up a year ago in response to China's 
actions, but it has yet to take even the slightest action to separate 
itself from the perpetrators and enablers. Indeed, while existing U.S. 
law remains unimplemented by the Treasury, U.S. companies, researchers, 
technologies, and even CA and NY teachers are being found to be 
complicit in providing services, funding, and high tech used inside the 
concentration camps.
    Secretary of Education DeVos' own brother, Erik Prince, even had a 
company that announced its intention to build a training center for 
China's security personnel in Xinjiang.
    Thousands of Uyghur children have been forcibly separated from 
their families and put into state run orphanages as a means to 
assimilate them into Chinese culture. Dilnur Enver, a mother of three, 
went to Istanbul in 2016 to study for a master's degree. Her two young 
children (ages 5 and 7) were left with their grandparents in Qashqar. 
In April 2017, the local police in Qashqar contacted her and requested 
her immediate return; otherwise she would be punished. Dilnur knew the 
returnees from Egypt and Turkey were arrested and died or disappeared 
with no trace. So she did not return. Her children were then taken from 
their own grandparents. As of today, she does not know their 
whereabouts. While China takes such extraordinary measures to pressure 
Uyghur exiles to return to be sent to the concentration camps, very few 
countries have even turned off deportations of Uyghurs and ethnic 
Kazakhs to China, let alone asked or taken actions to deter China from 
such now routine methods to pressure people within their borders to 
comply with whatever China asks, even turning some into spying agents 
for China.
    Many male Uyghur detainees were moved from the ``New Frontier'' to 
mainland China last year. As predominantly Uyghur men are locked away 
in concentration camps, Uyghur women are being forced to marry Chinese 
men with government gratifications such as money, housing, and jobs for 
such inter-ethnic marriages. Neither the girls nor their families may 
reject such marriages for fear of repercussions.
    The Associated Press reported recently that according to the 
Communist Party's official newspaper, 1.1 million Chinese cadres 
deployed to live inside Uyghurs' living rooms, dining areas, and even 
their bedrooms, and asked their children to spy on them. Yet, the world 
is silent. Worse, the OIC recently ``commended'' China, not condemned 
it, for its treatment of Uyghur Muslims.
    As reported recently, in the last several years China invested 
billions of dollars in what is coined ``debt-trap'' diplomacy with 
foreign countries. This includes projects in Kenya, Malaysia, Ethiopia, 
Pakistan, and the list goes on and on. These deals translate to much 
more than just money when it comes to foreign diplomacy. China is able 
to use economic pressure that it has on these countries in order to 
manipulate them politically. This manifests itself in many ways, but 
one of the most alarming is influence over the effectiveness of the 
United Nations. The United Nations was created in 1945 as a means of 
keeping international peace and security. But with China's overwhelming 
influence over key U.N. members through economic pressure, and the fact 
that China is the second largest donor to the United Nations, it has 
been able to halt criticism of its human rights abuses to barely above 
a whisper. What concentration camps? Where?
    International inspections--we'll handle that by offering carefully 
guided tours and keeping them well away from the razor-wire-topped 
walls and heavily guarded ``vocational training centers'' where instead 
of textbooks and pencils, officials procured batons, torture devices, 
and riot gear for them.
    China is getting away with genocide while advancing its economic 
power. The Uyghurs have become human collateral. Unfortunately for the 
Uyghurs, their heartland lies in the strategic center of Xi Jinping's 
Belt and Road Initiative, and the land resides on top of the richest 
oil reserve in China. China is evidently resolved to eliminate Uyghurs 
through genocidal measures, but of course to be consistent with so many 
past genocides, countries are not even close to using that word lest 
they be required to act to stop it. With over 2 million people thrown 
into concentration camps and prisons arbitrarily, and millions more 
displaced, China is getting away with atrocities in front of the entire 
world. You would think all other countries would speak out against 
China's massive human rights abuses, especially Muslim countries, but 
China counts on their silence and believes it can uniquely get away 
with it at this time when the U.S. is evidently not prepared even to 
ask the rest of the world to stop deporting Uyghurs and ethnic Kazakhs 
to China since they are effectively sending them directly into the 
concentration camps.
    It is no secret that China created militarized islands on top of 
coral reef reserves in the South China Sea. This land grab effectively 
extended their sea territory and increased tensions over disputed 
waters in the South China Sea. Keep that in mind when looking at the 
Belt and Road Initiative (BRI)'s projected path so you are not 
surprised. Taking over the land is not enough for China, there is also 
a projected sea path for the BRI which will drastically affect 
neighboring countries and threaten the security of the democratically 
independent Taiwan. Control over key sea passages will choke out 
economic competition in the area and enhance China's authority in the 
Indo-Pacific region. From North to South, and East to West, China's 
growth and thirst for power is ceaseless. Bullying and manipulation of 
the United Nations should not go unchallenged. The model and the 
technology underpinning mass repression in Xinjiang is already being 
rolled out to other parts of China. East Turkestan has been a 
laboratory of repression, and the results are already being felt in 
Ningxia and elsewhere. Incredibly, the Hong Kong government announced 
that it was sending a delegation to Xinjiang to study China's model 
there, of all places. This should set our hair on fire. Instead there 
is nothing more than talk to this day. No actions. Yet there is even 
more. Not only is Beijing seeking to export its surveillance systems 
around the globe, it has openly stated that its model of ``social 
stability'' should be emulated within Europe and the Middle East, and 
it is actively exporting it to countries in Africa.
    China should be held accountable for its actions. If we fail to 
challenge Communist China on this terrible atrocity with the 
determination to stop it, it would be the beginning of darkness for 
accountable democracies as authoritarian governments effectively 
utilize mass surveillance and repression to instill fear at home and 
abroad, depressing actions even within the free world that we enjoy 
today. If we do not act soon, China's debt trap tactics, expansion of 
its BRI, and provision of 5G technology to the West will position China 
to treat the entire world's population according to its vision for 
Xinjiang, utilizing the West's technology for mass surveillance and 
individualized threats for far more than even ignoring the re-emergence 
of concentration camps. Just look at what the people of East Turkestan 
are facing right now and imagine the life and world that you are 
leaving behind for your children and grandchildren if you do not act to 
stop it now.
    We appreciate the strong words coming from the State Department and 
Vice President Pence, but at some point, words are not enough--action 
is needed to hold Chinese officials and businesses accountable and to 
push back against the Chinese government's narrative, and to actually 
demand China close the camps.
    We truly appreciate the leadership of Senator Rubio and Congressman 
Smith on the CECC--they started raising warnings over a year ago--and 
have kept this issue in the public eye and pressed the administration 
to act.
    The letter sent to the administration last week by Mr. Rubio and 50 
Members of Congress is important--and the Senate should stay on top of 
the administration to use Global Magnitsky sanctions to target the 
Chinese officials complicit in crimes against humanity and employ 
enhanced export controls so that U.S. businesses are not assisting the 
Xinjiang government or Chinese businesses profiting from the mass 
internment and surveillance of the Uyghurs. I ask that this letter be 
added to the transcript of this hearing.
    Please:


   Pass the Uyghur Human Rights Policy Act sponsored by Senators Rubio 
        and Menendez. Over 25 percent of the Senate have cosponsored. 
        We hope the bill can be passed quickly.

   Direct Secretary Mnuchin and Secretary Pompeo to impose sanctions 
        on Chinese officials under the Global Magnitsky Act. It is U.S. 
        law that is inexplicably unimplemented meaningfully against 
        China in particular.

   Press for an urgent fact-finding visit to the Uyghur region, and to 
        other cities where Uyghur detainees are being transported. 
        Announce the request publicly. Urge every Member who visits 
        China to request access to the Uyghur region, and specifically 
        to the detention centers.

   Instruct the FBI and State Department to work to protect Uyghur, 
        Tibetan, and other Chinese communities from threats or coercion 
        from Chinese affiliated agents-this should include information 
        to Uyghur and Chinese students that they can report on efforts 
        to intimidate and censor them while they are on U.S. and 
        international campuses. This is part of the Uyghur Human Rights 
        Policy Act and a priority of Senator Rubio and Representative 
        Smith, but I wanted to highlight that here for you. The FBI 
        must urgently act to protect Uyghur-Americans from Chinese 
        government ``influence operations'' here in America as they 
        occur regularly. Chinese officials have openly stated, ``The 
        current target is the Uyghur `separatists' and organizations 
        abroad.'' Beijing is extending its oppression to Uyghurs who 
        are American citizens, including me and probably every other 
        person who speaks up.

   Authorize the doubling of broadcast time for RFA Uyghur language 
        service--RFA reporters have provided the best information about 
        what is happening on the ground in Xinjiang and RFA reporters 
        have family detained in retaliation for their activities.

   Direct Secretary Betsy DeVos to work with American colleges to 
        waive tuition for Uyghur students who are stranded in the U.S., 
        unable to return home, and unable to pay fees due to their 
        parents' detention in China.

   Of the money authorized in the Asia Reassurance Act for the 
        promotion of democracy, human rights defenders, and young 
        leaders (Sec. 409, 410, 411), we ask that money can be 
        designated to assist Uyghur, Kazak, and other groups to 
        document the atrocities happening in Xinjiang, document Chinese 
        government's propaganda globally about their activities in 
        Xinjiang, and support activities to preserve cultural 
        traditions, sustainable development, and education in Uyghur 
        communities in China and elsewhere.

   Direct the DHS Secretary to urgently review the cases of Uyghurs 
        who have fled the repression of the Chinese Communist Party, 
        currently being held up in the United States immigration 
        offices.

   Let China know you are serious by closing its Consulate in San 
        Francisco to protest its use of western technology for mass 
        surveillance until it closes its concentration camps and agrees 
        to reopen one as a U.S. Consulate that will closely monitor the 
        human rights of Uyghurs.

   Point out to the administration that if China is successfully 
        keeping it from acting to deter the targeting of American 
        citizens and to hold China accountable for the concentration 
        camps, China has already won in linking anything, whether money 
        from trade or fear of retaliation, to America's ability to 
        stand up independently against evident evil. If the 
        administration waits to act until after the trade talks end, 
        will it ever act when it has conceded such linkage and granted 
        China such leverage over U.S. actions?


    Senator Gardner. Thank you, Ms. Abbas.
    Mr. Tsering?

       STATEMENT OF BHUCHUNG K. TSERING, VICE PRESIDENT, 
        INTERNATIONAL CAMPAIGN FOR TIBET, WASHINGTON, DC

    Mr. Tsering. Chairman Gardner, Ranking Member Markey, 
Senator Coons, thank you for giving us this opportunity to 
testify about Tibet to the subcommittee. I would like to 
request that my full testimony, including three attachments, 
which are the statement of His Holiness Dalai Lama on his 
succession, a report by the Foreign Correspondents' Club of 
China on access to Tibet, as well as a joint op-ed by 30 
European parliamentarians on the issue of reciprocity with 
China, be included in the record.
    Senator Gardner. Without objection.
    Mr. Tsering. Thank you so much.


    [The information referred to is located at the end of this 
hearing transcript.]


    My testimony will focus on the 60 years of political 
subjugation of Tibetan people by China that includes a 
consistent pattern of violation of their fundamental human 
rights. I will outline China's attempt to isolate Tibet from 
the rest of the world and show why Tibet matters in the context 
of the Indo-Pacific region.
    In 1959, China took over complete political control of 
Tibet. Beginning on March 10, 2019, His Holiness the Dalai Lama 
and the Tibetan people began marking the 60th anniversary of 
the Tibetan national uprising, the escape of the Dalai Lama and 
his eventual crossing into freedom in India, and the 
establishment of a democratic governance system, which is known 
as the Central Tibetan Administration.
    In the past 60 years, the Dalai Lama had the farsighted 
vision to undertake initiatives and establish institutions in 
exile that have empowered the Tibetan people to preserve and 
practice their religion, tradition, and way of life. At the 
same time, the Dalai Lama has continued to work for a peaceful 
resolution of the Tibetan problem. In this regard, his 
steadfast commitment to keeping the Tibetan struggle nonviolent 
in the face of tremendous challenges remain an inspiration to 
nonviolent movements throughout the world.
    In Tibet, the Tibetan people have endured 60 years of 
political subjugation. Chinese leaders say they seek stability 
in Tibet, but they strive to achieve it through an iron fist 
rather than understanding the grievances of the Tibetan people 
and finding ways to address them. These hardline measures are 
sowing seeds of instability in Tibet, exemplified in acts of 
protest, including self-immolation.
    Access to Tibet is one of the issues that is being faced by 
all concerned. The problems faced by journalists wanting to 
cover Tibet has been clearly outlined in a position paper 
issued by the Foreign Correspondents' Club of China, which I 
mentioned earlier.
    On March 25, as mandated by the Reciprocal Access to Tibet 
Act, the State Department submitted to the Congress a report on 
U.S. access to Tibet. We would like to commend the State 
Department for the report, which finds that China 
systematically impeded Americans' travel to Tibet in 2018.
    But reciprocal access to Tibet is an issue faced not just 
by the United States. On March 14, more than 30 
parliamentarians across Europe published an op-ed saying 
Europeans should also look at the issue of reciprocity and pass 
similar legislation.
    In the past 60 years, the Chinese authorities have adapted 
from a policy of total destruction of Tibetan religion and 
culture to one of controlling them to serve its own political 
objectives. The case of China wanting to appoint the next Dalai 
Lama is a clear example, as they tried to do with the issue of 
the Panchen Lama.
    The Dalai Lama has categorically maintained that only he 
can make a decision on his reincarnation. In 2011, he came out 
with a formal statement explaining the reincarnation system and 
how he intends to go about on the issue of his succession.
    By wanting to select the next Dalai Lama, the Chinese 
Government aims at extending its control on Tibetan Buddhism in 
the Indo-Pacific region with clear geopolitical implications. 
If not challenged vigorously by free countries, this decision 
could affect the religious freedom not just of the Tibetans, 
but of millions of followers of Tibetan Buddhism worldwide, 
which affects the United States' security interests.
    A majority of the several hundred Tibetan political 
prisoners who have been detained have been done solely for 
their assertion of their identity, whether calling for the 
protection of their culture or displaying their reverence to 
the Dalai Lama. The fact that even after 60 years of 
occupation, the historical bond between the Tibetan people and 
the Dalai Lama remains strong is a reminder to the Chinese 
Government that they have failed in their policies and they 
have failed to understand the Tibetan people.
    The Chinese Government knows that there is a problem in 
Tibet, and only during the lifetime of this Dalai Lama can 
there be a possibility of a lasting solution.
    The Asia Reassurance Initiative Act rightly places the 
issue of Tibet within the parameters of U.S. security concerns 
in the Indo-Pacific region. In this context, the issue of water 
in Asia is something that can be taken up by the United States 
Congress. The Tibetan plateau is today the largest repository 
of fresh water, and China's attempt to manage the Tibetan water 
resources has implications on downstream countries. Just the 
other day the Atlantic Council came out with a report on 
Himalayan Asia water that recommended that the United States 
create a coherent Asia policy that includes water as a pivotal 
element.
    I have some recommendations.
    First, highlight Tibet as a key factor in the Indo-Pacific 
region strategy.
    Update and strengthen the Tibetan Policy Act, which is a 
comprehensive expression of United States support for the 
Tibetan people. The Congress should think of incorporating 
recent developments, including clarifying U.S. policy on the 
issue of reincarnation of the Dalai Lama.
    And the administration should ask to pursue the United 
States' longstanding goal of establishing a consulate in Lhasa.
    And finally, the United States should incorporate water 
security into the National Security Strategy and explore using 
platforms like the Quadrilateral Security Dialogue and the 
Lower Mekong Initiative to create awareness about China's usage 
of Tibetan water and its impact on the Indo-Pacific region.
    Thank you so much.
    [The prepared statement of Mr. Tsering follows:]


               Prepared Statement of Bhuchung K. Tsering,

    Chairman Gardner, Ranking Member Markey, and Members of the 
subcommittee. I thank you for this opportunity to testify on the 
situation in Tibet and its impact on the Indo-Pacific region before 
your subcommittee. I would like to submit the full text of my report, 
including three attachments mentioned in my testimony, for the record.
    The International Campaign for Tibet is a non-profit organization 
that has been advocating for over three decades for the democratic 
freedoms and human rights of the Tibetan people.
    My testimony will focus on the 60 years of political subjugation of 
the Tibetan people by the Chinese Communist Party that includes a 
consistent pattern of violation of their fundamental human rights. I 
will outline China's attempt to isolate Tibet from the rest of the 
world and show why Tibet matters to the Indo-Pacific region. Finally, I 
will have some recommendations to the United States that will include 
consideration of Tibet's water resources within the discussion of U.S. 
security interests in the Indo-Pacific region.60 Years of Political 
subjugation
    In 1959, China took over complete political control of Tibet. 
Beginning on March 10, 2019, His Holiness the Dalai Lama and the 
Tibetan people began marking the 60th anniversary of the Tibetan 
National Uprising, the escape of the Dalai Lama and his eventual 
crossing over into freedom in India, and the establishment of a 
democratic governance system in exile, known as the Central Tibetan 
Administration.
    In the past 60 years, the Dalai Lama had the farsighted vision to 
undertake initiatives and establish institutions in exile that have 
empowered the Tibetan people to preserve and practice their religion, 
traditions and way of life. At the same time, the Dalai Lama has 
continued to look for a peaceful resolution of the Tibetan problem. In 
this regard, his steadfast commitment to keeping the Tibetan struggle 
nonviolent in the face of tremendous challenges remains an inspiration 
to nonviolent movements throughout the world. Here I would like to take 
the opportunity to thank the successive American Congress and 
Administration for the policy and programmatic support rendered to the 
Dalai Lama and the Tibetan people. Legislations like the Tibetan Policy 
Act of 2002, Congressional Gold Medal to H.H. the Dalai Lama of 2007, 
the Reciprocal Access to Tibet Act of 2018 as well as the Asia 
Reassurance Initiative Act of 2018 have all contributed in 
institutionalizing support for Tibet in the United States.
    In Tibet, the Tibetan people have endured 60 years of political 
subjugation at the hands of the Chinese Communist Party. Chinese 
leaders say they seek stability in Tibet, but they strive to achieve it 
through an iron fist rather than through an understanding of the 
grievances of the Tibetan people and finding ways to address them. 
These hardline measures are sowing seeds of instability in Tibet, 
exemplified in acts of protest, including self-immolation.
    Since 2008, after the heavy-handed clampdown of the pan-Tibetan 
demonstrations, human rights in Tibet have deteriorated greatly. In 
reality, Tibetans today are second-class citizens in their own 
homeland. Their capacity to engage in religious activities, move and 
associate freely, express concerns, access information, and enjoy due 
process is severely curtailed. Their right to enjoy a healthy 
environment, access resources to achieve an adequate livelihood, and 
access Tibetan medium language education is also restricted. Freedom 
house has ranked Tibet as the second least free region in the world for 
four years in a row, behind only Syria.
    In an indicator of China's focus on total ideological control and 
deepening suppression in Tibet, China announced in January 2019 the 
opening of a new training camp in Tibet under paramilitary supervision 
aiming to ``correct'' and mold the thinking of Party cadres carrying 
out political ``education'' in broader Tibetan society.\1\
---------------------------------------------------------------------------
    \1\ ``New training camp for Party cadres in Tibet demonstrates 
tougher approach and challenges in ensuring loyalty,'' https://
www.savetibet.org/new-training-camp-for-party-cadres-in-tibet-
demonstrates-tougher-approach-and-challenges-in-ensuring-loyalty/
---------------------------------------------------------------------------
    Tibetans seeking recourse to protest by self-immolation is one 
consequence of the deteriorating situation in Tibet. Since 2009, 155 
Tibetans have self-immolated in Tibet and China.\2\ The common messages 
coming from the Tibetan self-immolators are freedom in Tibet and the 
return of the Dalai Lama. It is important to note that the self-
immolators have conducted themselves in a non-violent way, making sure 
that nobody else would be hurt or any other property damaged or 
destroyed in the course of their action. In rest of the world, even one 
political self-immolation would attract media attention. However, in 
the case of Tibet, the Chinese authorities have restricted 
communications, including access to journalists, and the self-
immolations have been under-reported. It is incredible that even after 
155 self-immolated not one independent journalist has been allowed to 
investigate them. This is implementation of the Chinese Government's 
strategy to isolate Tibet from the rest of the world.
---------------------------------------------------------------------------
    \2\ ``Self-Immolations in Tibet,'' https://www.savetibet.org/
resources/fact-sheets/self-immolations-by-tibetans/
---------------------------------------------------------------------------
                       restricted access to tibet
    The problems faced by journalists wanting to cover Tibet has been 
clearly outlined in a position paper issued by The Foreign 
Correspondents' Club of China (FCCC).\3\ Released on March 29, 2019, 
the FCCC paper says, ``obstacles to reporting pose a serious impediment 
to obtaining accurate information about the lives of ethnic Tibetans in 
China.'' It further said, ``Unlike other provinces and regions in the 
country, journalists who seek to report in the Tibet Autonomous Region 
(TAR) are required to first obtain permission from the Government. This 
permission is rarely granted.'' I would like to submit the full text of 
the FCCC report for the record.
---------------------------------------------------------------------------
    \3\ The Foreign Correspondents' Club of China Position Paper: 
Foreign Journalists Access to Tibet, March 2019.
---------------------------------------------------------------------------
    The FCCC paper also corroborates the rationale for the Reciprocal 
Access to Tibet Act (RATA), which drew renewed attention to China's 
isolation of Tibet. It was signed into law in December 2018. See the 
attachments to my prepared statement located at the end of this 
transcript.
    The RATA takes aim at China's double standard of preventing 
American journalists, diplomats and ordinary citizens from traveling to 
Tibet even though Chinese citizens travel unhindered throughout the 
U.S. and Chinese state media operate freely in this country.
    On March 25, 2019 as mandated by RATA, the State Department 
submitted to Congress a first-of-its-kind report on U.S. access to 
Tibet. We would like to commend the State Department for the report, 
which finds that China ``systematically'' impeded Americans' travel to 
the region in 2018. The Chinese authorities should now be getting the 
message: for too long, China has exploited the freedoms provided by 
democratic societies to spread its propaganda around the world even as 
foreign media, diplomats and tourists are prevented from entering 
Tibet.
    Reciprocal access to Tibet is an issue faced not just by the United 
States. Other countries are increasingly citing the concept of 
reciprocity as an instrument for countering China's attempt to assert 
itself internationally while not allowing the international community 
to have access to Tibet. On March 14, 2019, more than 30 
parliamentarians across Europe published an op-ed drawing inspiration 
from RATA \4\ and saying, ``It is now up to us in Europe to consider 
concrete ways to rebalance our relationship with China--not only in 
terms of trade, but also in regard to respect for fundamental rights 
like freedom of movement and of the press.'' I would like to submit the 
full text of this op-ed for the record.
---------------------------------------------------------------------------
    \4\ Time to rebalance EU-China relations and demand unfettered 
access to Tibet, March 14, 2019, https://www.euractiv.com/section/eu-
china/opinion/time-to-rebalance-eu-china-relations-and-demand- 
unfettered-access-to-tibet/
---------------------------------------------------------------------------
            from destruction to control of tibetan buddhism
    In the past 60 years, the Chinese authorities have adapted from a 
policy of total destruction of Tibetan religious institutions and 
system to one of controlling them to serve its own political 
objectives. The most visible aspect of this is China's atheist, 
authoritarian government asserting its right to select the next Dalai 
Lama. They tried doing so with the reincarnation of the Panchen Lama, 
the second most well-known Tibetan Buddhist leader, by kidnapping him 
when he was six years old (the youngest political prisoner ever) and by 
appointing one controlled by the Chinese Communist Party.. Since China 
has not been able to put the present Dalai Lama under its control, it 
wants to see that the next one will be someone that is subservient to 
the Communist Party of China. Not only do the Chinese Government's 
claims completely disregard centuries-old Tibetan religious tradition, 
they also violate the universal principle of religious freedom.
    The Dalai Lama has categorically maintained that only he can make a 
decision on his reincarnation. In 2011, he came out with a formal 
statement explaining the reincarnation system and how he intends to 
handle the issue of his succession.\5\ I am attaching the statement 
here and would like to submit for the record. The Dalai Lama says, ``It 
is particularly inappropriate for Chinese communists, who explicitly 
reject even the idea of past and future lives, let alone the concept of 
reincarnate Tulkus, to meddle in the system of reincarnation and 
especially the reincarnations of the Dalai Lamas and Panchen Lamas. 
Such brazen meddling contradicts their own political ideology and 
reveals their double standards. Should this situation continue in the 
future, it will be impossible for Tibetans and those who follow the 
Tibetan Buddhist tradition to acknowledge or accept it.''
---------------------------------------------------------------------------
    \5\ Statement of H.H. the 14th Dalai Lama Tenzin Gyatso on the 
issue of his reincarnation, September 24, 2011 https://
www.dalailama.com/news/2011/statement-of-his-holiness-the-fourteenth-
dalai-lama-tenzin-gyatso-on- the-issue-of-his-reincarnation
---------------------------------------------------------------------------
    China's plans to control the Dalai Lama's reincarnation under the 
present situation will not be accepted by Tibetan Buddhists inside and 
outside Tibet. It will also not get endorsement from the international 
community. Senator Cory Gardner spoke forcefully on this issue at a 
hearing by this Subcommittee in December 2018. In addition, on March 8, 
2019 the U.S. Ambassador at Large for Religious Freedom Sam Brownback, 
speaking at the Foreign Correspondents Club in Hong Kong, stated: 
``This is the Chinese Government's record, and it indicates that they 
are likely to interfere with the selection of the next Dalai Lama. The 
international community must make clear now that we believe that 
members of the Tibetan communities, like members of all faith 
communities, should be able to select, educate, and venerate their 
religious leaders without government interference.''
    By selecting the next Dalai Lama, the Chinese Government aims also 
at extending its control on Tibetan Buddhism and its many institutions 
in the Indo-Pacific region with clear geopolitical implications. If not 
challenged vigorously by free countries, this decision would affect the 
religious freedom, not only of Tibetans, but also of millions of 
followers of Tibetan Buddhism worldwide as also the national security 
interests of the U.S. and other countries in the region.
    Among those individuals who are responsible for China's misguided 
policies in Tibet is Chen Quanguo, currently heading the Xinjiang 
Uyghur Autonomous Region. He was the Party Secretary in the Tibet 
Autonomous Region in August 2011 and formulated a militarized strategy 
that pushed for accelerated assimilation backed by a sophisticated 
security architecture of surveillance and control. His security 
architecture, which has since been expanded into other Tibetan areas 
and is being implemented on the Uyghurs and Kazakhs, consists of 
numerous `convenience police stations', a neighborhood grid 
surveillance system, cadres stationed in local communities and 
monasteries, and new technologies that enable face-recognition and 
integration with big data analytics.
                   the dalai lama matters to tibetans
    However, the human rights violation in Tibet is symptomatic of a 
bigger political problem. A new generation of Tibetans have grown up in 
Tibet without any experience of life before the Chinese takeover. 
Nevertheless, these Tibetans take pride in their language, culture, 
traditions and spiritualism, including the historical bond between the 
Tibetan people and the Dalai Lama, which are the targets of Chinese 
oppressive policies.
    A majority of the several hundred Tibetan political prisoners have 
been detained solely for their assertion of their Tibetan identity, 
whether calling for the protection of their culture or displaying their 
reverence to the Dalai Lama. The fact that, even after 60 years under 
Chinese occupation, the historical bond between the Tibetan people and 
the Dalai Lama remains strong is a reminder to the Chinese Government 
that they have failed to understand the Tibetan people.
    However, China still attempts to falsify the situation. On March 
27, 2019, it released its latest White Paper on Tibet, ``Democratic 
Reform in Tibet--Sixty Years On,'' in an attempt to justify its 
continued control over Tibet and to seek legitimacy. Ironically, the 
White Paper, in which China's claim about everything being fine in 
Tibet, was released in Beijing even as much of Tibet remained closed to 
foreigners.
    If the situation of the Tibetan people is as good as they claim, 
China should have nothing to fear in providing access to Tibet to 
independent observers, journalists and diplomats. If Beijing seriously 
believes the people of Tibet have benefited greatly under its rule, it 
should allow them freedom of movement and expression so that they can 
travel and make this case themselves.
    The fact is that to the Tibetan people, the Dalai Lama symbolizes 
their identity, religion and culture. The Chinese Government knows that 
the there is a political problem in Tibet and that the Dalai Lama is 
the key to resolving it. The only way for China to have genuine 
stability in Tibet and respect in the international arena is for it to 
engage directly with the representatives of the Dalai Lama and find a 
mutually agreeable solution. During the lifetime of the present Dalai 
Lama, there is the possibility of a lasting solution.
          tibet's water resources and the indo-pacific region
    What should the United States do? The Asia Reassurance Initiative 
Act of 2018 rightly places the issue of Tibet within the parameters of 
U.S. security interests in the Indo-Pacific region. Tibet occupies an 
Asian fault zone of clashing cultures and big power politics. Tibet is 
where Russia, China and British India played the Great Game in the 
past. A stable Tibet would contribute greatly to peace in this 
sensitive region.
    The issue of water in Asia is a fundamental reason why Tibet is 
relevant to the Indo-Pacific region. Water security in many countries 
of the Indo-Pacific region is a matter of daily survival and so has 
geopolitical implications. The United Nations recognizes access to 
water as human rights. The Tibetan plateau is today the third largest 
repository of fresh water after the South and North Pole and around ten 
rivers that originate in Tibet serve over a billion people in the Indo-
Pacific region. China's plan on management of the Tibetan water 
resources, including construction of dams on rivers arising in Tibet, 
has implications to many downstream countries. For example, the Mekong 
River (known to Tibetans as Dzachu) which originates on the Tibetan 
plateau, flows through China, Myanmar, Laos, Thailand, Cambodia, and 
Vietnam. According to observers, China has built ten dams on the Upper 
Mekong mainstream that is directly affecting the lives of 60 million 
people downstream living in Thailand, Laos, Cambodia and Vietnam. The 
Mekong is a source of living to these people and China has the 
capability of its upstream position to dictate on these countries, as 
China has refused to join multilateral regional mechanisms to manage 
water resources.
    Similarly, on the Indian subcontinent, countries like India and 
Bangladesh have expressed concern at China's water diversion projects 
along the Brahmaputra River (known to Tibetans as Yarlung Tsangpo) that 
flows from Tibet to India and Bangladesh.
    In this connection, the Atlantic Council came out with a timely 
report on April 4, 2019 on water security in the Himalayan Asia titled 
``Ecology Meets Geopolitics''. \6\ It says, ``Across much of Himalayan 
Asia, water has become part of a geopolitical chess match, viewed as an 
asset to be protected against encroachment by one's international 
rivals.'' The report defines the term Himalayan Asia as ``referring to 
the Asian countries that depend on river water from the high mountain 
ranges of the Tibetan Plateau.''
---------------------------------------------------------------------------
    \6\ ``Ecology Meets Geopolitics: water security in Himalayan 
Asia,'' The Atlantic Council, April 2019 https://
www.atlanticcouncil.org/publications/reports/ecology-meets-geopolitics
---------------------------------------------------------------------------
    The report recommends that the United States create a coherent 
strategy toward Asia incorporating water as a pivotal element. It 
further calls on the United States to ``support the protection of the 
Himalayan Asia's water tower''. The report suggests that the Arctic 
Council is an appropriate model. Accordingly, the report calls for 
``the inclusion of water security into the National Security Strategy 
(NSS) and other strategy documents at the highest levels of 
governance.''


    In the light of the above, the following are our recommendations:

   Highlight Tibet as a key element in the Indo-Pacific region 
        strategy: The U.S. Government should work multilaterally with 
        like-minded countries, including the EU, in undertaking 
        coordinated initiatives in developing a united Tibet policy, 
        including at the U.N. and other regional and international 
        forums, that puts Tibet as a key element in the Indo-Pacific 
        region.

   Update and strengthen the Tibetan Policy Act: The Tibetan Policy 
        Act is a comprehensive expression of United States support for 
        the Tibetan people, including on resolving the issue through 
        dialogue. Since its enactment in 2002, there have been several 
        developments. Therefore, Congress should explore amending the 
        TPA to reflect these developments, including clarifying U.S. 
        policy on the issue of reincarnation of the Dalai Lama.

   Organize congressional delegations to Tibet and ask American 
        diplomats as well as organizations, including representatives 
        of multilateral organizations, to seek access to Tibet to as 
        part of the implementation of the Reciprocal Access to Tibet 
        Act.

   U.S. should support the findings of the Foreign Correspondents' 
        Club of China position paper on Tibet and ask China to do away 
        with the restrictions on journalists access to Tibet

   US should continue humanitarian assistance to Tibetan refugees in 
        the Indo-Pacific region to preserve and promote their distinct 
        identity and culture;

   The Administration should be asked to pursue the United States' 
        long-stated goal of establishing a consulate in Lhasa.

   China should be urged to release Tibetan political prisoners, 
        including the 11th Panchen Lama, Gedhun Choekyi Nyima.

   Secretary Pompeo should be asked to appoint the Special Coordinator 
        for Tibetan Issues at the earliest.

   Work with like-minded countries, including the EU, to have a 
        coordinated and united Tibet policy

   The United States should incorporate water security into the 
        National Security Strategy and explore using platforms like the 
        Quadrilateral Security Dialogue and the Lower Mekong Initiative 
        to create awareness about China's usage of Tibetan water and 
        its impact on the Indo-Pacific region.


    Senator Gardner. Thank you, Mr. Tsering.
    Mr. Khin?

STATEMENT OF TUN KHIN, PRESIDENT, BURMESE ROHINGYA ORGANISATION 
                   UK, LONDON, UNITED KINGDOM

    Mr. Khin. Chairman Gardner, Ranking Member Markey, and 
distinguished members of the committee, thank you for the 
opportunity to appear before this committee to testify on the 
ongoing genocide of the Rohingya people in Burma.
    I speak as a survivor of decades-long persecution by the 
government of Burma, which is now carrying out a genocide that 
has long been in the making. My family experienced firsthand 
waves of government-orchestrated military attacks and mass 
violence against unarmed and peaceful communities throughout 
Rakhine region.
    In fact, Burma, despite continued promises to the 
international community to improve the lives of the Rohingya 
people, to listen to recommendations from the Kofi Annan 
commission, to set up its own investigation into abuses, 
continues to fail the Rohingya community. There is absolutely 
no political will or desire by the Burmese authorities to 
improve the lives of the Rohingya people.
    There is a government and a military that have actively 
tried to wipe us out as a people for several decades. They 
continue to deny my community as an ethnic group integral to 
the Union of Burma, depriving our children any meaningful 
access to education, denying us access to essential health and 
other social services, and worse, maintaining conditions that 
are designed to bring about the eventual destruction of our 
entire community.
    Mr. Chairman, it is genocide, the intentional destruction 
of an ethnic community, our Rohingya community, that Burma has 
commissioned.
    Recently at the Free Rohingya Coalition Conference, I heard 
with my own ears one of the distinguished members of the U.N. 
International Fact-Finding Mission, Professor Radhika 
Coomaraswamy, asked the question: is what happened to the 
Rohingya genocide? What else could it be?
    Legal, humanitarian, and religious organizations, including 
a coalition of American Jewish groups, have also issued 
statements calling this a genocide. This is welcome support, 
but we need to move beyond what civil society globally has 
widely recognized as Rohingya genocide. We need action from 
governments and the international community.
    That is why the hearing today is so important. We must 
stand together and push for change. The international community 
must do more. ``Never again'' is a meaningless phrase unless it 
is backed up with action.
    A powerful action that the United States can take is to 
reintroduce the Burma Human Rights and Freedom Act and pass it 
and sign it into law. It authorizes critical humanitarian 
assistance for Rohingya refugees in Bangladesh. It calls for a 
safe, dignified, and voluntary repatriation process of Rohingya 
refugees to Burma and for any repatriation process to be 
developed with significant input from the Rohingya community. 
It further calls for the restoration of full citizenship rights 
for the Rohingya people.
    The repatriation process and citizenship is important, as 
China helped to draw up a plan where no single Rohingya is 
prepared to return to Burma voluntarily. This is not 
acceptable. For 40 years, we have been promised safety by the 
Burmese Government, only to be slaughtered and violently 
deported subsequent to our return. As in the cases of Tibet and 
Uyghurs, China has been an evil force in our oppression. China 
protects Burmese perpetrators instead of standing up for the 
Rohingya people.
    It is important to remember that the United Nations Fact-
Finding Mission has stressed that the NLD civilian government 
is also complicit in genocide due to their crimes of commission 
and other acts of dismissal of genocide finding.
    Burma's nonexistent democratic process must not be pursued 
or supported at the expense of several million Rohingya people, 
whether they are in Burma, in refugee camps in Bangladesh, or 
in the diaspora.
    Mr. Chairman, the U.S. Government and the international 
community must act now. I call on the U.S. Congress to 
recalibrate its policies towards Burma as exemplified by last 
year's Burma Human Rights and Freedom Act. I urge you to 
reintroduce it and pass it to walk with the Rohingya diaspora 
and the survivors in the camps to ensure the protection of the 
Rohingya people.
    Thank you very much for your time.
    [The prepared statement of Mr. Khin follows:]


                     Prepared Statement of Tun Khin

    Chairman Gardner, Ranking Member Markey, and distinguished members 
of the committee, thank you for the opportunity to appear before this 
committee to testify on the ongoing genocide of the Rohingya people in 
Burma.
    I speak as a survivor of decades-long persecution by the Government 
of Burma, which is now carrying out a genocide that has long been in 
the making. My own personal history reflects this story. My extended 
family experienced first-hand waves of government-orchestrated military 
attacks and mass violence against unarmed and peaceful communities 
throughout Rakhine region.
    In 1978, my parents, then in their twenties, fled their homeland of 
Northern Rakhine into Bangladesh during the very first wave of violent 
mass deportation of the Rohingya community.
    In response to this humanitarian crisis, the late Senator Edward 
Kennedy travelled to Bangladesh and bore witness to the devastating 
impact of the Burmese military's policies of targeted persecution 
against the Rohingya. He helped secure vital humanitarian aid for 
Bangladesh to support the refugee population.
    More than a generation has passed and though my father and Senator 
Kennedy are no longer with us, we continue to live with the policies 
that have enabled the vicious persecution of the Rohingya people.
    In fact, Burma--despite continued promises to the international 
community to improve the lives of the Rohingya people, to listen to 
recommendations from the Kofi Annan Commission, to set up its own 
investigation into abuses--continues to fail the Rohingya community. 
There is absolutely no political will or desire by the Burmese 
authorities to improve the lives of Rohingya.
    This is a government and a military that have actively tried to 
wipe us out as a people for several decades. They continue to deny my 
community as an ethnic group integral to the Union of Burma, depriving 
our children any meaningful access to education, denying us access to 
essential health and other social services, and worse, maintaining 
conditions that are designed to bring about the eventual destruction of 
our entire community.
    Today, there are far greater numbers of Rohingya people outside of 
their ancestral homeland of Rakhine State than inside of it. After a 
widespread, deliberate campaign of egregious violence, there are 
approximately one million displaced Rohingya people who now live in 
sub-human conditions in camps in Bangladesh where they are recognized 
neither as ``refugees'' nor by their very group identity as 
``Rohingyas.'' They have left behind nearly 400 villages, most of which 
have been burned and bulldozed and are being primed for commercial 
development by Daw Aung San Suu Kyi's NLD Government.
    With all of the evidence of the last year and a half, the world has 
caught up with what we have been saying for many years--the only word 
to describe what is going on is genocide. Mr. Chairman, it is 
genocide--the intentional destruction of an ethnic community, our 
Rohingya community--that Burma has commissioned.
    Recently at the Free Rohingya Coalition Conference one of the 
distinguished members of the U.N. International Fact-Finding Mission 
and a Yale-trained legal scholar, Professor Radhika Coomaraswamy, asked 
the question: ``Is what happened to the Rohingya genocide? What else 
could it be?''
    An array of organizations--legal, humanitarian, and religious 
organizations, including a coalition of American Jewish groups--have 
issued statements calling this a genocide. This is welcome support, but 
we need to move beyond what civil society globally has widely 
recognized as Rohingya genocide. We need action from governments and 
the international community.
    That is why the hearing today is so important. We must stand 
together and push for change. The international community must do more. 
``Never again'' is a meaningless phrase unless it is backed up with 
action. The world of conscience must now use all legal tools to address 
this heinous situation by pursuing international justice mechanisms 
that will hold the perpetrators of this atrocity accountable.
    A powerful action that the United States Senate can take is to re-
introduce the Burma Human Rights and Freedom Act and pass it and sign 
it into law. The legislation addresses the Rohingya refugee crisis from 
a few different angles. It authorizes humanitarian assistance for 
Rohingya refugees in Bangladesh. It calls for a safe, dignified, and 
voluntary repatriation process of Rohingya refugees to Burma and for 
any repatriation process to be developed with significant input from 
the Rohingya community. It further calls for the restoration of full 
citizenship for the Rohingya people.
    The legislation also calls for targeted sanctions and visa denials 
against military officials implicated in human rights abuses, which is 
very much welcome and needed. While the Treasury Department has 
sanctioned five military officials and two units, it is yet to sanction 
the most senior Burmese military officials, including General Min Aung 
Hlaing and his Deputy, Vice Senior-General Soe Win, who are considered 
most responsible for the violence. Even though they do not hold assets 
in your country, the United States' leadership in sanctioning these two 
individuals would help stop ongoing atrocities taking place in Burma 
and may well have a ``domino effect'' on the actions of countries in 
holding Burma accountable. It is also no coincidence that at least four 
of the five military officials sanctioned thus far have been quietly 
retired from the Burmese military. The Burmese military has also 
started hiding their patches that identify their battalion command for 
fear of international condemnation. It demonstrates that the Burmese 
military is taking notice of U.S. action and underscores that 
accountability starts at the top of the military command. It is also 
important that the United States targets military-linked companies and 
entities as the European Union is already considering doing.
    But, Mr. Chairman, both civilian ministries and the security 
ministries have for decades been engaged in policies of genocidal 
persecution. Therefore, we must address larger issues of justice and 
accountability. For example, the United Nations Fact-Finding Mission 
(FFM) stressed that NLD Government is complicit in the genocide due to 
their crimes of omission and other acts of dismissal of genocide 
findings. The appointment of Nicholas Koumjian as head of the 
Independent Investigative Mechanism for Myanmar is a positive step and 
the United States should continue to support and fund the mechanism. 
The United States should also support international justice mechanisms 
that are impartial, credible, and independent including the 
establishment of a new ad-hoc international criminal tribunal in 
whatever way possible.
    The international community should be fully conscious that since 
2012, the Burmese military and Daw Aung San Suu Kyi have established 
eight inquiry commissions with the clear objective of bleaching the 
crimes of the Burmese state against the Rohingya people and to 
exonerate the Burmese state. None of the commissions have been proven 
credible. Burma's judicial system does not have the will or the 
capacity for trying war crimes, crimes against humanity and genocide, 
the three gravest crimes which the U.N. FFM has officially said are 
being committed in Burma in Rakhine, Shan and Kachin states. Criminal 
accountability is only one tool for justice, and it cannot wholly 
reverse the damage done, but it can make break the entrenched cycle of 
violations.
    The international community must also address citizenship and 
repatriation with full rights. At present, China has helped to draw up 
a plan where no single Rohingya is prepared to return to Burma 
voluntarily. This is not acceptable. For forty years, we have been 
promised safety by the Burmese Government, only to be slaughtered and 
violently deported subsequent to our return. As in the cases of Tibet 
and Uyghurs, China has been an evil force in our oppression. China 
protects Burmese perpetrators instead of standing up for the Rohingya 
people.
    I also understand that there is a genuine interest throughout the 
U.S. Government to protect Burma's fragile democratic transition. But 
there is no such thing as a democratic transition under the current 
conditions. The U.N. Special Rapporteur on the human rights situation 
in Myanmar, Professor Yanghee Lee, has reiterated a widely shared 
observation: that no democracy can emerge under the Constitution of 
2008, which was drawn up by the military to keep itself in power. The 
Burmese military has never relinquished levers of state power: they 
have only allowed the civilian facade of Daw Aung San Suu Kyi and NLD 
to emerge.
    Burma's non-existent democratic progress must not be pursued or 
supported at the expense of several million Rohingya people, whether 
they are in Burma, in refugee camps in Bangladesh, or in the diaspora.
    Mr. Chairman, I call on the U.S. Congress to recalibrate its 
policies towards Burma by focusing on finding ways to address the root 
cause of our decades-long suffering. It is important that Rohingya 
voices are included in finding effective pathways to end the ongoing 
genocide of our people. This also includes the crimes the Burmese 
military is committing in Shan and Kachin states against other ethnic 
brethren there.
    Finally, the U.S. Government should use its influence to prevent 
its humanitarian and strategic partners of India and Bangladesh to 
treat Rohingyas as survivors of atrocity crimes. India must stop all 
attempts to deport Rohingya refugees back to Northern Rakhine State. 
Bangladesh should also be requested to halt its plan to relocate 
100,000 Rohingya survivors to the remote island of Bhasan Char, which 
the U.N. and other experts have widely considered unfit and unsafe for 
human life.
    In closing, the U.S. Government and the international community 
must act now. We are grateful for the efforts of U.S. lawmakers, as 
exemplified by last year's Burma Human Rights and Freedom Act. I urge 
you to reintroduce it and pass it and to work with the Rohingya 
diaspora and the survivors in the camps to ensure the protection of the 
Rohingya people.
    Thank you for your time.


    Senator Gardner. Thank you, Mr. Khin.
    Thank you all again for your testimony and words today.
    I want to ask a question to all three of you. We have had 
considerable testimony here today about what more the United 
States can be doing when it comes to the genocide in Burma 
taking place against the Rohingya people. We talked about the 
Uyghurs and the concentration camps and the conditions in these 
camps, the work conditions, civil liberties, the religious 
freedom concerns. We have talked about the Chinese declaration 
of the next Dalai Lama. And let me be very clear. The United 
States Congress will never recognize a Dalai Lama that is 
selected by the Chinese. This is something, as His Holiness has 
laid out, a succession--only then will the U.S. follow that 
succession, as laid out in your testimony.
    To all of you, the United States has condemned the 
concentration camps in China, condemned genocide. I want to 
drill a little bit further into that question of what the U.S. 
has done and clearly the concerns in Tibet.
    Ms. Abbas, to you I would ask this. What have you seen from 
other countries around the world when it comes the condemnation 
or actions taken against the Chinese for the imprisonment of 
the Uyghur people?
    Ms. Abbas. The United States is really leading this action. 
They are doing something by condemning. The Turkish Government 
is the only government saying the concentration camps are not 
right and they should be closed, condemning.
    But, unfortunately, because of the Chinese influence with 
the Chinese market, trade, and the debt trap that they are 
doing around the developing countries, they are buying out the 
silence of other countries. Currently OIC, the Organization of 
Islamic Cooperation, passed a resolution approving the 
treatment of the Uyghur Muslims.
    Senator Gardner. Did you say approving?
    Ms. Abbas. Approving, unfortunately. It is all because of 
the Chinese influence, Chinese money. It is really 
disappointing for 57 member states of the Islamic countries 
doing such a shameful act.
    Canada, Australia, UK, and New Zealand are having fact-
finding hearings and the representatives, the lawmakers, are 
condemning the Chinese concentration camps.
    That is about what is happening, but we really need to see 
some actions.
    Senator Gardner. Mr. Khin, to you on the genocide taking 
place, we have heard various words used to describe what is 
taking place by this administration in Burma. What is your 
belief of the U.S. position as it relates to the current 
genocide in Burma?
    Mr. Khin. Mr. Chairman, thank you very much for your 
question.
    It is important that we are a people, as I mentioned, as I 
read in my statement. More than 40 years, we have been facing 
this persecution that is systematically destroying our 
community. This is a time now where 80 percent of the Rohingya 
population has already fled from Burma because of the 
systematic policy to wipe out our community.
    And finally, the U.N. fact-finding mission mentioned what 
is happening is a genocide.
    So when I visited the camps, I heard from the victims. They 
have a kind of high expectation from the United States, the 
United States being a champion for human rights and democracy 
for Burma. So when the United States is supporting human rights 
and democracy for the reform in Burma, we need to look at the 
Rohingya community facing genocide, and we need to look at how 
it is possible to end this genocide, firstly to bring 
perpetrators to the justice mechanism, all need to be used.
    And we welcome targeted sanctions, but still we have not 
seen the commander in chief who mentioned in the Washington 
Post that unfinished business of 1942. That commander is still 
not on targeted list and other commanders who ordered to 
slaughter, to raid, to kill in masses, to throw children to the 
fire. They are still not on the list. It is very important, I 
believe, to put on the sanctions list those in the military who 
are and also military-related companies there are in Burma even 
though we have seen Daw Aung San Suu Kyi and various military--
2008 constitution granting them power. And the military 
companies related--those need to be sanctioned from the U.S.
    And also, it is important that the United States has to 
call what we victims want to call it, as a genocide.
    Thank you very much.
    Senator Gardner. Thank you.
    Senator Markey?
    Senator Markey. Thank you.
    So, Mr. Khin, what is the impact of the United States 
remaining silent on this issue of whether or not it is a 
genocide, crimes against humanity? What does that mean for the 
world when we do not speak out?
    Mr. Khin. It is very clear, Senator Markey. We have to see 
that as a kind of giving--if not pushing them, pressing them, 
is not taking action, they are encouraged to move forward. And 
we have seen that is not only Rohingyas. Other Kachin, Shan 
minorities, crimes against humanity, and war crimes are going 
on. Even today, Rakhine state, Rakhine army and Burmese central 
armed forces are fighting. Humanitarian aid has been blocked. 
It is because of the international community not pressing 
enough and why genocide is ongoing. We need stronger pressure, 
otherwise these impunity they enjoy.
    Senator Markey. So if the United States was to speak out, 
what would the impact be in terms of additional pressure on the 
Burmese Government?
    Mr. Khin. We have seen in the past long-time pressure from 
the international community. That is why this military came to 
a kind of 2008 constitution coming up and why they held an 
election. They care about international pressure. That is why 
the Burmese military and the government--they care about it. If 
this U.S. Government pushes it, we believe that these human 
rights violations will stop. And we believe that they cannot go 
along with these murders again and again.
    Senator Markey. So thank you for your statements on the 
need for targeted sanctions. I could not agree more.
    I recently wrote a letter to the State Department and the 
Treasury Department asking why the Trump administration had not 
sanctioned additional officials for the August 2017 attacks 
against the Rohingya, to include the country's commander in 
chief and deputy commander in chief. So this is the letter 
which I sent on just March 19th, and I ask unanimous consent 
that this be included in the record.
    Senator Gardner. Without objection.


    [The information referred to is located at the end of this 
hearing transcript.]


    Senator Markey. Thank you, Mr. Chairman.
    And even though the United Nations and others have cited 
these two individuals as ultimately responsible for military 
orders that led to the horrific attacks against the Rohingya, 
the United States has taken no action against them, which is 
unbelievable.
    Let's say the administration does not take your advice and 
decides not to pursue further sanctions against these 
individuals. What do you think the impact of that decision not 
to sanction would be in terms of the attitude of the government 
and military in Burma?
    Mr. Khin. Definitely that will embolden the military to 
move forward, as I mentioned earlier. And the other side, you 
know, the military is moving not only Rohingya, but other 
minorities in Burma. They still believe that there is no one to 
press them. So they can go on with these murders.
    We need to look at--Rohingyas as a community is facing 21st 
century genocide. And you know, when I visited to the camps, 
one thing I heard from them is they want justice. So it is 
important the United States supports all justice mechanisms to 
bring those perpetrators--this is very important.
    Senator Markey. So you mentioned also going against 
military-linked companies, bearing in mind that enterprises 
managed by the military are tied to a number of economic 
sectors that employ ordinary Burmese, and the goal of sanctions 
should not be to target--should be to target military officials 
responsible for human rights abuses and not economically punish 
the Burmese people.
    What are your recommendations for targeting companies that 
would shape the military's behavior but not hurt the Burmese 
people themselves?
    Mr. Khin. As a whole Burma, we have seen since 1962 the 
military coup's power, the military being on top everywhere. 
The military is controlling, you know, there are military 
cronies there and the military is controlling most of the 
business. So we believe that the military is totally in control 
of most business. If this were blocked and this were frozen, 
the military would not be able to move forward, and they will 
feel the pressure. Definitely I can say that. Thank you.
    Senator Markey. You mentioned in your testimony that China 
continues to protect the Burmese military from condemnation at 
the United Nations, and they have continued to discourage 
international efforts to support the plight of the Rohingya.
    In addition, there are disturbing reports that Chinese 
officials have given Burmese officials advice on how to 
effectively repress Rohingya minorities still in the Rakhine 
state.
    What more can you tell us about China's ties with the 
Burmese Government?
    Mr. Khin. China, firstly, is still influential to the 
military. They have a pipeline and port in Rakhine state. And 
Burma as a whole, China is really influencing economically, 
politically, that is what we can see, and even civilian 
government is still under the influence of China as far as what 
we can see.
    Senator Markey. What would your recommendation be to the 
United States to reduce China's negative influence on human 
rights in Burma?
    Mr. Khin. Sorry?
    Senator Markey. What would your recommendation be to us, 
that is, the United States, in terms of actions we could take 
to reduce China's negative influence on human rights in Burma?
    Mr. Khin. This is very important that--you know, China has 
long been influential. And so on that note, on that point, we 
need to look at if China influences much further in Burma, 
whether there will be more human rights violation. And you can 
see that China is blocking when genocide is going on. As a 
whole country, they are blocking coastal and other, and they 
are even influencing Bangladesh to bring back those refugees 
where we do not want to return without our rights and 
protection. So that will be encouraging to China if the U.S. 
will not do anything. So you have to step up geopolitically 
that China's influences should not be there.
    Senator Markey. So are you concerned that the Chinese might 
export the technologies which they are using against the 
Uyghurs to use in Burma against the Rohingya?
    Mr. Khin. That could be.
    Senator Markey. That could be.
    Mr. Khin. Yes.
    Senator Markey. So you are concerned.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    I am going to head to the floor here for a speech on a 
nominee, as well as a vote. I will turn it over to Senator 
Markey, and then I will come back as quickly as I can, if the 
hearing is still continuing, to allow Senator Markey to vote.
    A quick question before I leave, though. The Asia 
Reassurance Initiative, as we have talked about the various 
sections that address human rights, democracy, and rule of law, 
provides significant funding, a billion dollars in 
authorizations from the U.S. Government to address these areas, 
including BBG and Radio Free Asia efforts and programs.
    ARIA is an important platform for us to have this 
discussion as we look at our policy toward Burma, as we look at 
our policy toward China and Uyghurs, as we look at Tibet, as we 
look at Hong Kong and so many other areas where we see growing 
concerns about rights, freedoms, and rule of law.
    One of the challenges we have, of course, is speaking with 
one voice as it relates to Burma. As recently as the Defense 
Authorization Act of last year, there was language initially in 
the legislation that would have given more opportunities for 
the U.S. Government to work with the military in Burma despite 
the ongoing concerns of genocide, the reality of genocide in 
Burma. And we were able to get that language stripped out of 
the Defense Authorization Act. But it shows that the U.S. 
Government is not speaking with one voice and one clear message 
as it relates to the atrocities in Burma.
    So, Ms. Abbas, quickly--and then I am going to step out, 
but I want this for the record. Could you talk a little bit 
about the dollars authorized by ARIA, where you believe they 
could be spent? Radio Free Asia is something you mentioned. How 
could we target dollars, money support from ARIA to more 
effectively counter violations of human rights throughout Asia 
and to help assure voices of freedom are able to secure a 
foothold?
    With that, I will turn it over to Senator Markey.
    Ms. Abbas. The Radio Free Asia Uyghur service has been very 
essential when there is a strong information blockade by the 
Chinese Government. It is really difficult to get the reality 
out about the atrocity. So Radio Free Asia reporters are 
working really hard. So we do need that. That is the most 
essential part.
    And also, we have organizations that need support. We have 
so many activists that are doing this advocacy work like part-
time. For example, myself. I have a full-time job, and I am 
doing advocacy work almost full-time. So the organizations, 
human rights organizations, being funded by this money also 
really supports where Congress needs to have offices in the 
major, like, political hubs in the other countries as well. 
This is really essential to get the Uyghur voice out, Uyghur 
advocacy and activism out internationally.
    And also we have so many Uyghur students here in the United 
States because of their parents being taken to concentration 
camps. And also, the financial assets are being frozen. They 
cannot receive money. So the Uyghur students studying in 
universities are unable to continue their education. So we 
really need to help with that as well.
    Thank you.
    Senator Markey [presiding]. Thank you. That is very helpful 
to us.
    Let me just follow up with you, Ms. Abbas. Given the 
terrible nature of China's repression of the Uyghur and Central 
Asian minority communities in Xinjiang, the clearest question 
that comes to mind is, what should we be doing to hold the 
Chinese officials accountable? One way for the United States to 
try to change Chinese Government behavior would be to place 
Quanguo, the top official administering the repressive policies 
in the region, under U.S. sanctions. However, the 
administration does not appear to be taking any action.
    Do you believe that sanctions against Chinese officials 
will be effective in countering their egregious policies?
    Ms. Abbas. Yes, very much so. At least the United States 
Government is taking action doing something to imposing that 
currently existed Global Magnitsky Act and sanctioning some of 
the Chinese officials who are responsible.
    And also, we have current trade negotiations. This atrocity 
should be included in the trade talks. Human rights must be 
included in the foreign policy of this administration. So it is 
very crucial.
    Senator Markey. Do you have a list of Chinese officials----
    Ms. Abbas. Yes, we do.
    Senator Markey.--who you believe should be sanctioned?
    Ms. Abbas. Yes. Uyghur Human Rights Project and the World 
Labor Congress have given those names to the State Department. 
We do have a list of the names.
    Senator Markey. Is there anyone in particular who you think 
should be at the top of that list?
    Ms. Abbas. Yes. Chen Quanguo, who is the party secretary 
for Xinjiang Autonomous Region. He was the party secretary in 
Tibet. That is where he started actually targeting religious 
figures there, taking them to concentration camps. He came to 
our province in August 2016, and then just 2 months later, he 
started his harsh--the policies against the Uyghurs. He is the 
number one person.
    Senator Markey. Excellent.
    Senator Coons? Senator Coons in his usual bipartisan, 
pluperfect form has indicated nonverbally that he would prefer 
to defer his colleague from Indiana, Senator Young.
    Senator Young. Well, and thank you, Senator Markey, and 
thank you, Senator Coons, for your characteristic comity. I am 
grateful for that.
    Thank you to our witnesses for being here today.
    Mr. Khin, in September of 2018, I along with Senator 
Menendez asked our Department of State to provide a formal 
legal determination regarding the actions of the Burmese 
military to Congress.
    On December 3rd of last year, the United States Holocaust 
Memorial Museum announced it found compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against 
humanity, and genocide against the Rohingya.
    How would a U.S. Government formal legal finding that 
genocide was committed help bring accountability, but also 
further long-term reconciliation in Burma?
    Mr. Khin. Firstly, when we have seen fact-finding mission, 
U.N. Fact-Finding Mission already mentioned, what is--the 
genocide is clear. It is important that the U.S. Government 
call what the legal name is a genocide. The U.S. Holocaust 
Museum already declared what is happening to the Rohingyas is 
genocide. And it is important to bring those perpetrators to 
justice, it is really important to push.
    And also, what is happening now is genocide is still 
ongoing in Rakhine state where recently last week dozens of 
Rohingya have been killed while the Rakhine army and Burmese 
armed forces are fighting. From helicopters the Burmese army 
shot many Rohingyas, and they are saying that this was an 
accident and that they did not aim to do that and the kind of 
the same lame excuse they are trying to do. So while this 
genocide is ongoing it is important that we bring those 
perpetrators to justice mechanism only to be used.
    Senator Young. Well, I think that it's especially important 
as we head into next year's elections because, of course, at 
some point we want to have a functioning government 
representative of all the peoples of Burma. So now, it strikes 
me, is a critical time to diplomatically and programmatically 
drain the enabling environment for violence and support the 
people of Burma so that those 2020 elections are the best they 
can be for the future of the country.
    Are there ways in which the United States, to your mind, 
Mr. Khin, can best invest in conflict prevention programming in 
preparation for next year's elections?
    Mr. Khin. Senator, that is a very good point. But we need 
to look--as a whole Burma is not only military. The civilian 
government is also dismissing this genocide, and acts of 
genocide or findings is not only military, you know, killing 
the Rohingyas. The other side, civilian led government of Daw 
Aung San Suu Kyi party and her government ministers are 
spreading hate speech, and they are not allowing humanitarian 
aid access and others.
    I campaigned for Daw Aung Suu Kyi for many years for her 
release in this Senate and Congress. I campaigned for her 
release and other political prisoners. I was a long-time 
supporter of her. But what we can see here is we had a high 
expectation in the 2015 election, but we have not seen any. And 
she is totally silent. And so we believe that as a whole Burma, 
we need to look at, of course, we should support a 2020 
election, inclusion of Rohingya. At the same time, we need to 
push how to have constitutional change and others, and how to 
effect systematic change in Burma. That is very important.
    Senator Young. Well, all of this is more deeply rooted--is 
it not--in ethnic conflict and some really deep things that 
have ravaged the country and left Rohingya and the Chin 
minority marginalized, poverty-stricken, and living in a 
country in which they are not represented and they do not have 
a meaningful voice.
    We have seen some attempts at addressing these issues at 
the 21st Century Panglong Union Peace Conference, and that did 
not produce the desired outcome, unfortunately.
    How do you envision a peace process progressing, Mr. Khin, 
and what type of democratic reforms can lead to a national 
reconciliation and a true democracy emerging in Burma?
    Mr. Khin. As a whole Burma, we have to see that is a 
constitutional problem. First thing, ethnic people--they are 
demanding a federal union. We have not seen any ethnic groups 
that are enjoying their rights. You can see why still there is 
a 21st century--there is not much of a peace process going on. 
Everything has been stalled. And the military is increasingly 
fighting Kachin, Rakhine, our sister community, and others. On 
the other side, Rohingyas are facing ongoing genocide.
    So as a whole country, we really need to focus on how it 
can be changed, the U.S. Government can place stronger 
pressure. This is very important because, you know, the ethnic 
Kachin--they are in IDPs and Rakhine, more than 30,000 IDPs, 
and Rohingyas are still not allowed basic rights, you know, to 
move from one place to another, education, and others. So we 
have seen that even, you know, the Government has set up a 
commission to investigate. There is no such thing, talk of 
citizenship rights, full citizenship rights, and others. And 
the NLD-led government is pushing--and we see--the national 
verification card, which is legalizing Rohingyas being illegal 
immigrants.
    So we can see, frankly speaking, as a genocide survivor, as 
my grandfather was a member of parliament, as I was born and 
brought up in Rakhine state, I left. My age was 17. I grew up 
there. I have seen how systematically going against Rohingyas 
and other minorities as a whole country. So for me, much needs 
to be done from U.S. Government to put pressure.
    And, of course, we should support democratic reform, but 
the 2020 election--all ethnic minorities must be allowewd to 
vote and allowed to be a member of parliament, particularly the 
Rohingya people. We had a right to vote and a right to be a 
member of parliament since 1936. In 2015, we were not allowed 
to vote. So the 2020 election--it is important Rohingya--
restoration of full citizenship rights before that and they are 
allowed the right to vote and to be a member of parliament. And 
also, ethnic groups all need--have to be given their rights, 
and a recognition of a federal union is important. Otherwise, 
this fighting will not end because we have not seen any 
progressive things even from the NDL-led civilian government.
    Senator Young. Thank you, Mr. Khin. I am out of time. I am 
grateful again for your testimony today.
    Mr. Khin. Thank you.
    Senator Markey. Senator Coons?
    Ms. Coons. Thank you, Chairman Gardner and Ranking Member 
Markey, for convening this important hearing. I apologize. I 
will be brief because we have a vote that is about to be 
called. I am particularly grateful for your leadership on the 
Asia Reassurance Initiative and am eager to work with you to 
ensure full and appropriate implementation of this significant 
legislation.
    As the co-chair of the Human Rights Caucus here in the 
Senate, I want to thank all three of our panelists here today 
and for your important human rights work in Asia. I am 
particularly focused on the atrocities against the Rohingya and 
am hosting a photo exhibit today in the Rotunda of the Russell 
Senate Office Building, and I encourage anyone concerned about 
or interested in better understanding the ongoing genocide 
against the Rohingya to come and visit this disturbing photo 
exhibit.
    I also have concerns about the treatment of Tibetans and 
Uyghur Muslims, but given the press of time, I am going to 
focus my questions, if I could, on following up on Senator 
Young's questions.
    It is clear to me that you support a prompt determination 
by our State Department that the atrocities against the 
Rohingya constitute genocide. Why is that determination 
important? What would be the legal consequences for the Burmese 
Government if we reach that? And I am concerned about the lack 
of accountability for an ongoing genocide by leaders in Burma. 
If you have a concise answer to how that determination would 
affect it, I would appreciate it.
    Mr. Khin. Firstly, we have been facing this for more than 4 
decades. So the U.N. Fact-Finding Mission already mentioned 
what has happened to the Rohingyas is genocide.
    So the Rohingya have high expectations from U.S. 
Government. So whenever I visited the camps, Rohingya victims, 
Rohingya survivors--they ask me to tell our U.S. friends to 
change our situation to stop this genocide. So they want to see 
also what we are facing as the Rohingya. I as a survivor, we 
want to see what we are facing and we want to call it by its 
legal name, genocide.
    Ms. Coons. Do you think that will help prevent other 
countries from forcibly repatriating Rohingya to Burma in a way 
that might increase their danger?
    Mr. Khin. Definitely now that will stop. Now India is 
deporting the Rohingyas. Saudi, also deporting some Rohingyas. 
Even though they have been living there a long time, they have 
no access to education and health care. So it is important that 
these survivors get protection from internationally other 
countries as a diaspora. You can see 80 percent Rohingya 
population are out of the country. So they need proper 
protection from the international community and other 
countries. That is very important.
    Ms. Coons. My last question. Are there other countries in 
the region that are playing a constructive role? I hear what 
you are describing about India's actions. Are there 
constructive regional players on trying to confront and resolve 
this ongoing human rights crisis?
    Mr. Khin. Some countries, yes. Particularly India--they are 
deporting the Rohingya where 35,000 Rohingyas are in India. So 
they need protection. And also, you know, Thailand and, of 
course, on top of that, we need to look at Bangladesh where a 
million Rohingya people live. We can see that in the very near 
future, they will not be able to return because the genocide is 
ongoing on the other side of the country, you know, in Burma.
    So 60 percent are children in refugee camps as survivors. 
What will be their future? How the United States can help to 
get--for the long term, we need to look at how we can integrate 
them. We worry that our young generation will face exploitation 
because the political atmosphere is not as good as other 
countries there in Bangladesh. So there are a lot of--many 
women. Children are 60 percent.
    So we need to look for the longer term how they should be 
recognized also in Bangladesh as a refugee. The Bangladesh 
Government should leave the restrictions, and also the 
Bangladesh Government must stop that to relocating 100,000 
refugees to Bhasan Char island. This is very important.
    So when the U.S. Government recognizes that genocide and 
actions need to become and also other countries--they will 
treat Rohingyas as a genocide survivor. They must treat them as 
genocide survivors, and they will get protection.
    On top of that, we belong to Burma. We are a part of 
Burmese society. We are not demanding a state or anything. We 
want to get our ethnic rights and citizenship rights back. So I 
would like to appeal to the Senate to pressure any way you can 
to restore the rights of our people and, of course, on top of 
that, justice and all mechanisms need to be explored. It is 
very important.
    Also, at our tribunal and other--bringing those 
perpetrators to justice is important. Thank you.
    Ms. Coons. Thank you all for your testimony.
    Thank you.
    Senator Markey. Thank you, Senator Coons.
    There is a real role that social media plays in allowing 
for dangerous speech to be used in Burma in a way that promotes 
violence against the Rohingya, promotes violence against other 
minorities. I think it is quite clear.
    So I wrote a letter to Facebook questioning this policy of 
allowing Facebook to be used for that purpose within Burma. To 
date, I have been very unimpressed with Facebook's efforts to 
consider the views of the Burmese civil society and its 
decisions that have an impact on the country's treatment of its 
minorities and its overall efforts to achieve national 
reconciliation.
    The United Nations officials just last week said that the 
company's efforts to curb hate speech online are, quote, still 
insufficient and that there is still, quote, denigration of the 
Rohingya on Facebook's platform.
    Do you believe that Facebook's efforts to address hate 
speech has been sufficient?
    Mr. Khin. Of course, they have to stop it. They have been a 
part of it when after 2012, 140,000 Rohingya became IDPs in 
Rakhine state. And through Facebook, Ma Ba Thu group--group, 
all particularly, including racist and extremist Buddhist 
monks, Wirathu and others, they spread hate speech through 
Facebook. Facebook has done great damage to our community while 
you are facing genocide as a whole Burma, on not only Rohingya, 
other minorities they face. But we have seen recently that 
Facebook closed down some pages. It is really good. But I do 
not think it is enough, and Facebook should deal with the 
communities who are really suffering.
    Senator Markey. Has Facebook reached out to you?
    Mr. Khin. No, not at all. Thank you.
    Senator Markey. That is not good. I would ask Facebook to 
reach out to you, and we will make that a specific request to 
help you facilitate a conversation.
    Mr. Khin. Please.
    Senator Markey. What do you think that Facebook can and 
should do to better address the nature of speech that targets 
the Rohingya? Do you have any specific recommendations?
    Mr. Khin. It is important Facebook being, you know, used by 
a whole country in Burma mostly, not even Twitter, you know, in 
Burma. So Facebook can integrate many ways how a community 
suffering in Burma, how 80 percent population can get rid of 
systematically by the government, and how important inclusion, 
all need to live in harmony side by side other communities in 
Burma. That is a key role they can play. Also, they can 
integrate many other ways how Burma--you know, human rights 
violation being faced and many different ways they can 
integrate normal, ordinary Burmese people into seeing Rohingyas 
and how other minorities are important internationally. There 
is a lot of things Facebook could do.
    Senator Markey. Excellent.
    Mr. Tsering, we have noted earlier this year is the 60th 
anniversary of the Dalai Lama's exile from Tibet. Clearly the 
persecution of the Tibetan people is one of the longest running 
challenges to the international community's human rights 
record. And I am not sure we have seen much progress in 
promoting human rights in the region.
    Do you think U.S. programs to support human rights in Tibet 
have been effective? And if not, what recommendations would you 
make in order to improve U.S. programs to press for better 
human rights?
    Mr. Tsering. Senator, the United States Government has been 
an important player in terms of encouraging the Chinese 
Government to resolve the issue of Tibet, including altering 
human rights policies and, broadly speaking, in finding a 
political solution of the issue of Tibet. So that position is 
good. And in fact, it is one of the reasons that helped the 
Dalai Lama's envoys in starting a dialogue between the envoys 
and the Chinese Government between 2002 and 2010.
    Since then, there have not been any resumption of the 
dialogue process. And one reason could be that in the past, the 
Chinese Government realized that the United States was serious 
in its effort. Since 1997, all American presidents until 
President Trump have spoken out publicly asking the Chinese 
Government to talk to His Holiness the Dalai Lama and his 
representatives because the United States feels that the Middle 
Way approach of His Holiness the Dalai Lama is the right 
approach. So far, we have not seen President Trump make public 
addresses nor has Secretary Pompeo made public addresses or in 
their summits with the Chinese president.
    Senator Markey. You want President Trump and Secretary 
Pompeo to make public statements.
    Mr. Tsering. We need that because then the Chinese 
authorities realize that the United States is serious.
    Senator Markey. And what impact do you think publicly 
calling out the lack of access given to U.S. visitors and 
officials will have on Chinese Government behavior into that?
    Mr. Tsering. I think the lack of access to Tibet, which is 
again in the Reciprocal Access to Tibet Act, as well as the 
Asia Reassurance Initiative Act--both have a significant 
message to the Chinese Government. Whenever the international 
community raises the issue of Tibet, one of the Chinese defense 
mechanisms is to say that you are interfering in the internal 
affairs of China. But, both the Reciprocal Access to Tibet Act, 
as well as the Asia Reassurance Initiative Act, say that 
national security of the United States and the right of the 
American people are also involved in the matter of Tibet. 
Therefore, China should act. So coming from this perspective, 
the Chinese Government cannot claim that the United States is 
interfering in China's internal affairs when you take up the 
right of access to Tibet for Americans, just as the Chinese 
have free access to the United States. And therefore, it is 
important.
    Senator Markey. In title 4 of the Asia Reassurance 
Initiative Act, it supports additional resources for a human 
rights defenders fund for the Indo-Pacific. Can you speak about 
the challenges and opportunities such a fund could have in 
supporting human rights defenders in Asia?
    Mr. Tsering. Senator, is that addressed to me?
    Senator Markey. Yes, to any of you.
    Mr. Tsering. We see that ARIA has a provision for that, and 
also I think ARIA specifically talks about Tibet in the context 
of sustainable development promotion, promotion of education, 
promotion of environmental conservation. So money could be 
allocated to these as set in ARIA to the Tibetan community both 
in Tibet as well as in exile that can help the Tibetan people 
preserve and promote their identity. That is one way of 
confronting China's effort at destroying Tibetan culture and 
way of life in Tibet.
    Ms. Abbas. We ask that money can be designated to assist 
the Uyghur, Kazakh, and the other groups to document the 
atrocities happening back home and also Chinese Government's 
propaganda globally about their activities and to support the 
activities to preserve the Uyghurs' traditions and the 
sustainable development and education in Uyghur communities in 
China and abroad.
    Senator Markey. Mr. Khin, any recommendations for how a 
human rights fund might be used out of title 4 of the ARIA act?
    Mr. Khin. I think for Burma, it is important to support 
ethnic minorities, civil societies. Particularly it is very 
important. And also, I mean, for the Rohingya people, they are 
800,000, almost a million in camps. It is important that we 
empower our community to build up our young generations there. 
It is very important to support, particularly in Bangladesh, by 
a stronger request to look at how we can develop Rohingya young 
people in the camps and support human rights.
    Senator Markey. Excellent. Well, thank you. And thank each 
and every one of you for your incredible leadership on human 
rights. Thank you for spending your lives helping to shine a 
spotlight on what needs to be known about human rights abuses 
in your own countries of origin, but in countries all around 
the world.
    That is the job of the United States. We are not only the 
political and economic and national security leader of the 
world, but we are also the moral leader. We should be, and when 
we remain silent on human rights issues, we send a signal that 
the United States has gone out of the human rights protection 
business. And that is not who we are. The United States must be 
the moral leader of the planet. That is the expectation. And 
when we speak on these moral issues, the rest of the world has 
to pay attention.
    So I would call upon the Trump administration to step up on 
each one of the countries that we are hearing from today. I 
think it is absolutely imperative that they do so. And you will 
be hearing voices from this committee on an ongoing basis.
    So I just cannot thank you each enough for everything that 
you continue to do.
    And to you, Ms. Abbas, I am going to work with Senator 
Gardner to work to maybe spotlight what the Chinese have done 
to your family members. I think we have to highlight that more. 
When you speak, your own family should not be punished back in 
China. So we are going to try to work together here to make 
sure that we put more of a highlight on what happened in your 
particular instance because it is a perfect example of how the 
Chinese Government does operate with regard to the Uyghurs, but 
it is also a perfect example of what they are doing in Tibet 
and actually the aid and comfort they are giving to the Burmese 
Government as well. So that is a big part of what we are going 
to be trying to work on in the coming weeks and months.
    Senator Gardner is still over on the floor waiting to 
speak. It is just a little bit delayed over there.
    So with that, I will close off this hearing. And I want to 
thank everyone for attending today's hearing and to the 
witnesses for providing us with your testimony and responses.
    And for the information of all members, the record will 
remain open until the close of business Thursday, including for 
members to submit questions for the record. And I would ask the 
witnesses to respond as quickly as possible to the questions 
that will be presented to you in writing.
    So with all of that, we thank you for your leadership, and 
this hearing is adjourned.

    [Whereupon, at 11:18 a.m., the hearing was adjourned.]



                              ----------                              




      

                     ADDITIONAL MATERIAL SUBMITTED
                             FOR THE RECORD

=======================================================================


        Material Placed in the Hearing Record by Members of the 
           Committee, Witnesses, and Interested Organizations

   Letter Submitted for the Record by Amnesty International


   Attachments to the prepared statement of Bhuchung Tsering

   <ctr-circle> Attachment 1: Foreign Correspondents' Club of China 
            (FCCC) Position Paper,``Foreign Journalist Access to 
            Tibet,'' March 2019

   <ctr-circle> Attachment 2: Euractiv, ``Time to Rebalance EU-China 
            Relations and Demand Unfettered Access to Tibet,'' March 
            14, 2019

   <ctr-circle> Attachment 3: Statement of His Holiness the Fourteenth 
            Dalai Lama, Tenzin Gyatso, on the Issue of His 
            Reincarnation, September 24, 2011


   Letter to Secretaries Pompeo and Munchin Regarding the 
        Administration's Policy on Sanctions on the Perpretrators of 
        Atrocities Against the Rohingya People, March 19, 2019


   American Jewish World Service Statement on the Genocide of the 
        Rohinya, December 12, 2018


   Jewish Rohingya Justice Network Statement on the Genocide of the 
        Rohingya, February 26, 2019

=======================================================================

        Letter Submitted for the Record by Amnesty International


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Foreign Corrrespondents' Club of China Position Paper, ``Foreign 
                Journalist Access to Tibet,'' March 2019

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Euractiv, ``Time to Rebalance EU-China Relations and 
Demand Unfettered Access to Tibet,'' March 14, 2019


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Statement of His Holiness the Fourteenth Dalai Lama, Tenzin Gyatso, on 
                     the Issue of His Reincarnation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Letter to Secretaries Pompeo and Munchin Regarding the Administration's 
   Policy on Sanctions on the Perpetrators of Atrocities Against the 
                            Rohingya People


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                American Jewish World Service Statement 
                    on the Genocide of the Rohingya

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               Jewish Rohingya Justice Network Statement 
                    on the Genocide of the Rohingya
                    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>



       ARIA (ASIA REASSURANCE INITIATIVE ACT) IN ACTION, PART 2:



                   The Benefits of Economic Diplomacy

                              ----------                              


                         THURSDAY, MAY 23, 2019

                               U.S. Senate,
       Subcommittee on East Asia, the Pacific, and 
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:50 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Present: Senators Gardner [presiding], Young, and Markey.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me first welcome you all to the third hearing of the 
Senate Foreign Relations Subcommittee on East Asia, The 
Pacific, and International Cybersecurity Policy in the 116th 
Congress. Thank you very much for being here today and 
participating in this hearing.
    This hearing will be the second hearing in a three-part 
series to examine the implementation of the Asia Reassurance 
Initiative Act, or ARIA, which Senator Markey and I led in the 
115th Congress and which was signed into law on December 31st, 
2018. Today's hearing is focused on trade and economic issues, 
an essential component of ARIA and an urgent priority for U.S. 
policy in the Indo-Pacific region.
    As stated in section 301 of ARIA, trade between the United 
States and the nations in the Indo-Pacific region is vitally 
important to the United States economy, the United States 
exports, jobs in the United States. As cited in that section, 
by 2030 it is estimated that 66 percent of the global middle 
class population will be living in Asia and 59 percent of 
middle class consumption will take place in Asia.
    The United States simply cannot miss the opportunity to be 
a key player in these markets. The future success of our 
economy depends on the Indo-Pacific that is free and open to 
American goods and services and, perhaps more importantly, to 
American standards of transparency, accountability, and the 
rule of law.
    This is why, as part of ARIA, Congress has officially 
endorsed multilateral, bilateral, or regional trade agreements 
between the United States and nations of the Indo-Pacific, as 
well as the negotiation of a comprehensive economic engagement 
framework with the Association of Southeast Asian Nations.
    We also specifically authorized funds for the 
administration to produce a robust comprehensive trade capacity 
building and trade facilitation strategy in the Indo-Pacific 
and to produce an Indo-Pacific energy strategy that will help 
to provide access to sufficient, reliable, and affordable power 
in order to reduce poverty, drive economic growth and job 
creation, and to increase energy security in the Indo-Pacific 
region.
    What also makes today's hearing unique is that we have 
witnesses from outside the D.C. beltway to help members provide 
firsthand experience on how to trade with the nations of the 
Indo-Pacific and how trade with the Indo-Pacific impacts the 
livelihoods of American farmers and ranchers and what they 
would like to see from Washington to help them succeed.
    So I would like to thank all of our witnesses for being 
here today and look forward to hearing their recommendations on 
how the United States can better prioritize trade and economic 
tools in the Indo-Pacific region to benefit American companies, 
exporters, and workers.
    And with that, I will turn it over to Senator Markey.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you so much, Mr. Chairman. And thank 
you once again for this comprehensive set of hearings, which we 
have been conducting.
    Mr. Chairman, we were able to accomplish a great deal last 
year when the Gardner-Markey Asia Reassurance Initiative Act, 
or ARIA, became law. It was a statement of American commitment 
to our friends and partners throughout the Indo-Pacific. But it 
was also a statement about the incredible growth and dynamism 
of the region. It recognized that approximately half of the 
world's population lives in the Indo-Pacific. That is the 
fastest growing economic region of the world, with a GDP growth 
rate of more than 5 percent. An estimated 60 percent of global 
maritime trade traverses the sea lanes of the South China Sea. 
60 percent. And it recognized that promoting U.S. economic 
interests in the Indo-Pacific is a critical component of 
American foreign policy.
    So I am pleased that this hearing provides an opportunity 
to discuss some of the most pressing economic issues that the 
United States faces as it engages in the region.
    First, as a region, the Indo-Pacific is America's largest 
trading partner with nearly $1.8 trillion in total trade per 
year. Of American goods and services exports, 30 percent go to 
that region, and 3 million U.S. jobs are supported by exports 
to and investments in the Indo-Pacific.
    Although American companies have a wide array of goods and 
services that can competitively meet the needs of the people 
throughout the region, I would like to draw attention to one 
area where there are particular opportunities: renewable 
energy.
    Right now, Asia is building more new coal power plants than 
any other region, even though overall coal plant construction 
is falling globally. The Chinese Government's Belt and Road 
Initiative, a conglomeration of various infrastructure 
development projects around the world, is a major contributor. 
According to the Natural Resources Defense Council, Chinese 
financial institutions are the world's largest investors of 
overseas coal plants, providing $15 billion through 
international development funds in coal projects from 2013 to 
2016, with an additional $13 billion in proposed funding. The 
combination of the supply with the demand from the region for 
energy creates a major problem. These and other non-climate 
friendly BRI projects could put the region on an unsustainable 
course.
    But we are not resigned to this fate. We are at an 
inflection point, one that presents significant opportunities 
for us to do the right thing for the planet but also for the 
American economy.
    According to the International Finance Corporation, the 
Paris Agreement will help to open up nearly $16 trillion in 
opportunities for climate-smart investments in just four Indo-
Pacific countries: China, Indonesia, Vietnam, and the 
Philippines. Southeast Asia faces a $2.6 trillion energy and 
infrastructure investment gap through 2040. And more than a 
quarter of Indonesia's population is not connected to the 
national grid, leaving approximately 66 million people without 
access to electricity.
    These are opportunities to simultaneously: 1) Reduce 
poverty and improve people's lives; 2) Implement good energy 
policy for the benefit of the planet; 3) Maintain America's 
close economic partnerships with the region; and 4) Create 
economic growth for American companies.
    Right now, according to a Tufts University study, there is, 
quote, danger of U.S. companies being blocked out of emerging 
clean energy technology markets.
    We require a two-pronged approach to take advantage of the 
opportunities before us. The U.S. Government must pave the way 
by setting up fully resourced structures to provide proactive 
solutions to infrastructure and energy challenges in the Indo-
Pacific. Simultaneously, we must address impediments in foreign 
government policies wherever they exist. From government-
encouraged intellectual property theft to the unfair advantages 
enjoyed by state-owned enterprises, abuses of the global 
economic system need to stop. We can settle for nothing less 
than a set of rules that ensures a level playing field for all, 
giving the opportunity for U.S. companies to continue to be the 
gold standard for dynamic, effective, and responsible business 
practices around the world and allowing the ingenuity and 
productivity of American workers to flourish and prosper.
    These challenges are too important and the stakes are too 
high. The United States simply cannot afford to cede leadership 
on this to China or any other country.
    Thank you, Mr. Chairman, and thank you for this hearing.
    Senator Gardner. Thank you, Senator Markey.
    And I know one of our witnesses has to leave a little bit 
early and catch a plane. So I am going to cut our introductions 
of the witnesses just a little bit short so we can get to 
testimony and get to questions as soon as possible.
    So I am going to begin this morning's hearing with Mr. 
Carlyle Currier, Vice President of the Colorado Farm Bureau, 
active in production agriculture, and appreciate your 
willingness to be here today.
    We are joined as well by Mr. Matthew Goodman, the Senior 
Vice President for the Center for Strategic and International 
Studies, as well as Dr. Joanna Lewis, Associate Professor at 
the Edmund A. Walsh School of Foreign Service, Georgetown 
University.
    So I thank all of you for being here, and we will just cut 
those introductions a little bit short so we can begin with Mr. 
Currier's testimony.

  STATEMENT OF CARLYLE CURRIER, VICE PRESIDENT, COLORADO FARM 
                  BUREAU, CENTENNIAL, COLORADO

    Mr. Currier. Thank you and good morning, Mr. Chairman and 
members of the committee. Thank you for the time to speak with 
you today.
    My name is Carlyle Currier. I am a rancher from Molina, 
Colorado. Ours is a fourth generation mountain ranch and part 
of it is officially recognized as a Colorado Centennial Farm, 
being owned and operated by my family for more than 100 years. 
We run about 500 cows with summer grazing on Grand Mesa 
National Forest and irrigate about 1,200 acres where we raise 
alfalfa, grass hay, and small grains.
    I serve on a number of boards and committees with many 
organizations. Currently I am Vice President of the Colorado 
Farm Bureau. I also serve on the board of directors of the U.S. 
Meat Export Federation, a past member of the Cattlemen's Beef 
Board, and serve on numerous water boards, including as 
chairman of the Colorado Agricultural Water Alliance.
    My testimony today will focus on the role of Indo-Pacific 
markets and the potential positive outcomes of new policies 
such as the Asia Reassurance Initiative Act that is in front of 
us today. The act will help increase market access in the Indo-
Pacific countries and avoid harmful disputes.
    Export markets are critical to American agriculture. 
American farmers and ranchers exported over $140 billion in 
products worldwide in 2017. Overall, more than 25 percent of 
total agricultural production goes to export markets.
    In Colorado, as in other States, we rely on trade each day 
to market the products we work so hard to grow. In fact, about 
35 percent of U.S. farm income is derived from selling 
agricultural products overseas.
    Legislation like ARIA is important to building and 
maintaining long-lasting relationships with our trading 
partners and helps avoid trade disruptions and disputes.
    We are concerned with the blowback from the 
administration's decision to place tariffs on our trading 
partners. While some of these barriers have fallen in the past 
few days, agriculture is still bearing the brunt of retaliation 
at a time when farmers are already facing low commodity prices, 
high input costs, and unpredictable weather.
    The trade dispute between the U.S. and China is placing 
tremendous pressure on American agricultural products. While we 
support the administration's goals of pushing China to abandon 
its unfair trading practices, it is difficult for agriculture 
to bear this burden.
    Net farm income has dropped 52 percent in the last 5 years, 
making it extremely difficult for farmers and ranchers to 
continue operating. The addition of a trade war comes at a time 
when we can ill afford it.
    But legislation like ARIA can help to ease the burden in 
the immediate term.
    In 2018, ag exports from Colorado to 16 countries in the 
Indo-Pacific region were in excess of $903 million. Several 
markets in the region have seen significant expansion in the 
last couple of years, with overall volume, market share, and 
value all on the rise.
    For instance, total ag exports from Colorado to Indonesia 
totaled more than $51 million in 2018, and it looks like that 
trend will continue as exports increased 22 percent between 
March 2018 and March 2019.
    Additionally, Colorado's exports to Thailand increased 53 
percent between 2017 and 2018 to more than $30 million.
    These numbers show the massive potential for agricultural 
exports to the region. As incomes rise and consumer tastes 
changes, legislation like ARIA can provide a solid footing for 
agriculture to build the necessary relationships and programs 
to seize the opportunity and grow market share in the region.
    Strengthened relationships and increased market access is 
important to provide needed stability to farm families not only 
in Colorado but nationwide. Legislation that can strengthen 
ties in the Indo-Pacific region, improve trading relationships, 
expand markets and advance economic diplomacy will be a 
powerful tool to help offset losses associated with the 
shrinking market access and tariff-related barriers that we are 
currently experiencing in markets like China.
    For all these reasons, I would ask for your support of the 
Asia Reassurance Initiative Act. This is a tremendous 
opportunity to advance open and fair agricultural trade and for 
farm and ranch families like mine now and in the future.
    [The prepared statement of Mr. Currier follows:]


                 Prepared Statement of Carlyle Currier

    Good morning Chairman and members of the committee, thank you for 
time to speak with you today. My name is Carlyle Currier and I'm a 
rancher from Molina, Colorado. Ours is a fourth generation mountain 
ranch and part of it is officially recognized as a Colorado Centennial 
Farm, being owned and operated by my family for more than 100 years. We 
run about 500 cows with summer grazing on Grand Mesa National Forest, 
and irrigate about 1200 acres where we raise alfalfa, grass hay, and 
small grains.
    I serve on a number of boards and committees with many 
organizations. I'm currently the Vice President of the Colorado Farm 
Bureau. I am also a member of the U.S. Meat Export Federation's Board 
of Directors, a past member of the Cattlemen's Beef Board, and numerous 
water boards including Chair of Colorado Ag Water Alliance.
    My testimony today will focus on the role of Indo-Pacific markets 
and the potential positive outcomes of new policies such as the Asia 
Reassurance Initiative Act that is in front of us today. The Act will 
help increase market access in the Indo-Pacific countries and avoid 
harmful disputes.
    Export markets are critical for American agriculture. American 
farmers and ranchers exported over $140 billion in products world-wide 
in 2017. Overall, more than 25 percent of total agricultural production 
goes to export markets.
    In Colorado, as in other states, we rely on trade each day to 
market the products we work so hard to grow. In fact, about 35 percent 
of U.S. farm income is derived from selling agricultural products 
overseas.
    Legislation like ARIA is important to building and maintaininglong-
lasting relationships with our trading partners and helps avoid trade 
disruptions and disputes.
    We are concerned with the blowback from the administration's 
decision to place tariffs on our trading partners. While some of those 
barriers have fallen in the past few days, agriculture is still bearing 
the brunt of retaliation at a time when farmers are already facing low 
commodity prices, high input costs and unpredictable weather.
    The trade dispute between the U.S. and China is placing tremendous 
pressure on American agriculture producers. While we support the 
administration's goals of pushing China to abandon its unfair trading 
practices, it is difficult for agriculture to bear this burden.
    Net farm income has dropped 52 percent in the last 5 years, making 
it extremely difficult for farmers and ranchers to continue operating. 
The addition of a trade war comes at a time they can ill afford it.
    But legislation like ARIA can help to ease this burden in the 
intermediate term.
    In 2018 ag exports from Colorado to 16 countries in the Indo-
Pacific region were in excess of $903 million. Several markets in the 
region have seen significant expansion in the last couple of years, 
with overall volume, market share and value on the rise.
    For instance, total ag exports from Colorado to Indonesia totaled 
more than $51 million in 2018. It looks like this trend will continue 
as exports increased 22 percent between March 2018 and March 2019.
    Additionally, Colorado's exports to Thailand increased 53 percent 
between 2017 and 2018, to more than $30 million.
    These numbers show the massive potential for agriculture exports to 
the region. As incomes rise and consumer tastes change, legislation 
like ARIA can provide a solid footing for agriculture to build the 
necessary relationships and programs to seize the opportunity and grow 
market share in the region.
    Strengthened relationships and increased market access is important 
to provide needed stability to farm families not only in Colorado, but 
nationwide. Legislation that can strengthen ties in the Indo-Pacific 
region, improve trading relationships, expand markets and advance 
economic diplomacy will be a powerful tool to help offset losses 
associated with the shrinking market access and tariff related barriers 
we are currently experiencing in markets like China.
    For all these reasons, I would ask for your support of the Asia 
Reassurance Initiative Act. This is a tremendous opportunity to advance 
open and fair agricultural trade and for farm and ranch families like 
mine, now and in the future.


    Senator Gardner. Thank you, Mr. Currier, for coming all the 
way from Colorado to be here today and for surviving yet 
another May snowstorm to get through here. Thank you.
    Mr. Goodman?

 MATTHEW P. GOODMAN, SENIOR VICE PRESIDENT AND SIMON CHAIR IN 
   POLITICAL ECONOMY, CENTER FOR STRATEGIC AND INTERNATIONAL 
                 STUDIES (CSIS), WASHINGTON, DC

    Mr. Goodman. Thank you, Mr. Chairman. Thank you, Senator 
Markey, and thank you for this opportunity to offer my thoughts 
on the benefits of economic diplomacy in the Indo-Pacific 
region.
    Let me first commend the chairman and other members for 
their work in passing the ARIA act in the last Congress. The 
act is pitch-perfect in reassuring skeptics both in the region 
and here at home about the U.S.'s stake and commitment in the 
vital Indo-Pacific region.
    In my written testimony, I offer more detailed thoughts on 
why and how the United States should step up its economic 
diplomacy in the Indo-Pacific. Here I just want to make one 
broad point and then mention a specific program that highlights 
what we should be doing more of in the region.
    The point I want to stress is that we should be more 
confident about our position in the Indo-Pacific. Do we have 
challenges there? Of course. But if the competition in the 
region is a marathon, we started about 2 miles ahead of the 
pack. Our security posture in the region, founded on a bedrock 
of strong alliances, is a source of stability that most 
countries there highly value. Our economic position is strong. 
We have the world's largest market and we are growing above 
potential. We have great companies that offer great products 
and services and operate according to the rule of law.
    The United States has invested in the success of our allies 
and partners in the region. We offer technical assistance to 
build capacity in these countries, like the things suggested in 
ARIA, and help them develop the right way.
    And the traditional openness of our society, our great 
universities, our movies, and other elements of our soft power 
are huge draws for people in the region.
    Is China a growing presence in the region? Yes. Is Beijing 
offering things Asians want, including a growing consumer 
market, advanced technologies, and infrastructure? Yes.
    Back to my marathon metaphor, do the Chinese cheat by 
running over the hill from milepost 7 to milepost 17? Yes. 
Should we try to stop this cheating? Absolutely.
    But our main focus should be on running our own race and 
trying to run faster. We certainly should not tie our shoelaces 
together by doing unhelpful things like pulling out of the 
Trans-Pacific Partnership or hitting our allies with tariffs.
    But we can sustain our leadership if we do the right things 
like some of the things mentioned in ARIA. But I would start 
with showing up, making sure we are in the region and present 
at all levels, from the President down to junior officials 
regularly, developing a comprehensive strategy that involves 
all the main tools of economic policy, especially a credible 
trade policy, and actively participating in regional 
institution building, for which there is a big demand in the 
region.
    In my written testimony, I offer a number of 
recommendations for putting ARIA into action which fall into 
three broad buckets: credible policies, effective programs, and 
needed investments in people. I would be happy to elaborate on 
these ideas in answer to your questions.
    But I would like to use my remaining time to focus on one 
program that highlights the kind of low-cost, high-impact 
economic diplomacy that can bolster our position in the Indo-
Pacific.
    Last month, there was an article in the Wall Street Journal 
about a program administered by USAID that involved dropping 
teams of American lawyers and economists into Myanmar, Burma, 
to help local officials ask the right questions when 
negotiating contracts for infrastructure projects with Chinese 
entities. According to the article, as a result of this 
assistance, Myanmar was able to renegotiate the terms of a 
deep-water port project funded by the Chinese, cutting the 
scale of the project by billions of dollars and reducing the 
country's potential debt burden.
    The USAID program in Myanmar is the kind of work that would 
be boosted by the Trump administration's proposed Transaction 
Advisory Fund, or TAF, under its Free and Open Indo-Pacific 
Strategy rolled out last summer. I understand the 
administration has requested a relatively small amount of 
money, on the order of $10 million I think, to get the TAF up 
and running, but that it is stuck in the House. In my view, 
this program is the kind of creative economic statecraft that 
is key to U.S. success in the Indo-Pacific. It is not 
expensive, but it leverages our comparative advantages--and 
certainly lawyering is a U.S. comparative advantage--to bring 
something that the countries in the region want, especially 
where they have real questions about what China is offering.
    Again, I go back to my point at the beginning. The United 
States starts with tremendous advantages in the Indo-Pacific, 
and we do not need to spend trillions of dollars on grand 
initiatives with fancy names to sustain our economic leadership 
there. What we do need is a comprehensive, well-coordinated, 
nimble economic diplomacy that plays to our strengths.
    There is a lot more to say, but I do not want to abuse my 
time. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Goodman follows:]


                Prepared Statement of Matthew P. Goodman

                              introduction
    Mr. Chairman, Mr. Ranking Member, Members of the Subcommittee, 
thank you for this chance to offer my thoughts on how the United States 
can use economic diplomacy as a strategic tool to advance its interests 
in the vital Indo-Pacific region.
    Let me first commend the Chairman and fellow Members for their work 
in the previous Congress to pass the Asia Reassurance Initiative Act 
(ARIA; P.L. 115-409). I could not agree more with the core finding of 
the Act in its preamble: ``Without strong leadership from the United 
States, the international system, fundamentally rooted in the rule of 
law, may wither, to the detriment of the United States, regional, and 
global interests. It is imperative that the United States continue to 
play a leading role in the Indo-Pacific region by defending peace and 
security, advancing economic prosperity, and promoting respect for 
human rights.''
    I am particularly pleased to see economics get equal billing in the 
Act with security and values as one of three pillars of a successful 
U.S. strategy in the Indo-Pacific region. International economic policy 
plays a critical role in shaping both U.S. economic and foreign policy 
interests. As I have written before,\1\ smart economic statecraft is a 
two-sided coin: on one side, it involves using diplomacy to advance our 
exports, investment, and other commercial activities that enhance our 
growth and prosperity; on the other--the more strategic side--it is 
about using economic tools to shape international rules and norms and 
promote broader U.S. foreign policy objectives and national security.
---------------------------------------------------------------------------
    \1\ Matthew P. Goodman, ``Economics as Strategy,'' Center for 
Strategic and International Studies, January 26, 2014.
---------------------------------------------------------------------------
    Nowhere is it more important that we deploy smart economic 
statecraft than in the Indo-Pacific region. I will use the rest of my 
testimony to explain why and how we should do that, but I want to 
emphasize one key point at the start: in the competition for economic 
leadership in the Indo-Pacific region, the United States starts with a 
huge lead. This has been built up over 70 years, not only through 
massive flows of trade and investment, but also through our 
demonstrated commitment to allies' and partners' success, our support 
for the rule of law, and our reputation for reliability. These are 
advantages we cannot afford to squander and need to work harder to 
reinforce.
                       the indo-pacific landscape
    ARIA captures well the economic opportunities and risks in the 
Indo-Pacific, but I would like to briefly underscore here how dynamic 
the region is and to highlight some of the key trends there that affect 
U.S. interests. The Indo-Pacific is home to more than half the world's 
population and seven of its 16 trillion-dollar economies by gross 
domestic product (GDP).\2\ According to the International Monetary Fund 
(IMF), emerging and developing Asia is the fastest-growing region in 
the world, with real GDP growth expected to average 6.3 percent in 2019 
and 2020.\3\ The Indo-Pacific contains 58 percent of the world's youth, 
positioning it for sustained growth in the coming decade.\4\
---------------------------------------------------------------------------
    \2\ The White House, "President Trump's Administration is Advancing 
a Free and Open Indo-Pacific Through Investments and Partnerships in 
Economics, Security, and Governance," November 18, 2018.
    \3\ International Monetary Fund, "World Economic Outlook Database," 
April 2019.
    \4\ United Nations Economic and Social Council, "8th Economic and 
Social Council Youth Forum," April 8, 2019.
---------------------------------------------------------------------------
    Countries in the Indo-Pacific are rapidly connecting to take 
advantage of this economic dynamism. In 2017, Asian intraregional trade 
growth accelerated to 7.1 percent from 1.7 percent in 2016, nearly 
double the pace of global trade growth.\5\ While inward foreign direct 
investment (FDI) from the rest of the world to the region slowed in 
2017, investment flows from the rest of Asia grew. As Indo-Pacific 
capital markets continue to deepen, Asia's financing needs are 
increasingly met locally, with the intraregional share of cross-border 
bank claims rising from 18.2 percent in 2012 to 22.6 percent in 
2017.\6\
---------------------------------------------------------------------------
    \5\ Asian Development Bank, ``Asian Economic Integration Report 
2018,'' October 2018.
    \6\ Ibid.
---------------------------------------------------------------------------
    Two evolving regional trade agreements will facilitate this 
integration: the Comprehensive and Progressive Agreement for Trans-
Pacific Partnership (CPTPP) and the Regional Comprehensive Economic 
Partnership (RCEP). On December 30, 2018, CPTPP came into force, 
lowering trade barriers between 11 countries representing 495 million 
consumers and 13.5 percent of global GDP.\7\ Despite U.S. withdrawal 
from the original TPP agreement on President Trump's third day in 
office, Japan marshaled the remaining members and preserved many of the 
high-quality standards in the original text. As CPTPP countries begin 
to implement their obligations, trade within the bloc has increased, 
sometimes to the disadvantage of the United States.
---------------------------------------------------------------------------
    \7\ Matthew P. Goodman, "From TPP to CPTPP," Center for Strategic 
and International Studies, March 8, 2018.
---------------------------------------------------------------------------
    Although RCEP negotiations have dragged on through 26 rounds, 
countries in the agreement have made progress toward integration. For 
example, on May 2, finance ministers from the Association of Southeast 
Asian Nations (ASEAN), plus China, Japan, and Korea, agreed to consider 
the Japanese yen and Chinese yuan for currency swap arrangements in 
addition to the U.S. dollar.\8\ Some RCEP countries have concluded new 
or revised bilateral trade agreements in the last year, including 
Indonesia and Australia. All that said, the prospects for concluding 
RCEP in the short-term remain low, given highly divergent trade and 
economic policies among its potential signatories (notably India).
---------------------------------------------------------------------------
    \8\ ``Joint Statement of the 22nd ASEAN+3 Finance Ministers' and 
Central Bank Governors' Meeting,'' May 2, 2019.
---------------------------------------------------------------------------
    Meanwhile, Beijing has launched several ambitious programs to 
expand its economic influence in the region. Under President Xi 
Jinping's signature foreign policy effort, the Belt and Road Initiative 
(BRI), China has invested billions of dollars in Indo-Pacific 
infrastructure and other forms of connectivity.\9\ Despite concerns 
about corruption and predatory lending, countries in the region remain 
receptive to Chinese loans to fill infrastructure-financing gaps. China 
also launched the Asian Infrastructure Investment Bank (AIIB) in 2016 
to complement lending efforts by the World Bank and Asian Development 
Bank (ADB).
---------------------------------------------------------------------------
    \9\ Reconnecting Asia interactive project map and database, Center 
for Strategic and International Studies.
---------------------------------------------------------------------------
    Yet at the same time that it pushes out this charm offensive, 
Beijing has also increasingly turned to economic coercion to achieve 
its political objectives. In 2016, it effectively shut down South 
Korean retail and tourism interests in China after Seoul's agreement to 
deploy a U.S. missile defense system.\10\ More recently, it arrested 
two Canadians after Ottawa took into custody the daughter of the 
founder of Chinese telecommunications giant Huawei on fraud charges. 
Beijing's behavior has given the region a stark picture of what a 
return to a Chinese-led order in the Indo-Pacific might look like.
---------------------------------------------------------------------------
    \10\ Bonnie S. Glaser, Daniel G. Sofio, and David A. Parker, ``The 
Good, the THAAD, and the Ugly,'' Foreign Affairs, March 17, 2017.
---------------------------------------------------------------------------
    Other powers are active in the region in more benign ways. 
Australia and Japan have invested especially heavily in regional 
economic affairs, while encouraging free and open economic rules. 
Australian direct investment in East and South Asia nearly quadrupled 
between 2007 and 2017, and in November last year, Canberra announced a 
$2 billion Australian Infrastructure Financing Facility for the 
Pacific.\11\ Japan, the second biggest investor in Southeast Asia after 
the United States, has responded to the BRI with various efforts. In 
2015, Japanese Prime Minister Shinzo Abe unveiled the Partnership for 
Quality Infrastructure, a $110 billion (later increased to $200 
billion) collaborative effort with the ADB to finance infrastructure 
projects.\12\ During its current Group of Twenty (G20) host year, Japan 
hopes to gain wider adoption of its Ise-Shima Principles for Promoting 
Quality Infrastructure Investment.\13\
---------------------------------------------------------------------------
    \11\ Gordon de Brouwer, Matthew P. Goodman et al, ``Delivering 
Prosperity in the Indo-Pacific,'' Center for Strategic and 
International Studies, April 2019.
    \12\ Ministry of Foreign Affairs of Japan, ``Announcement of 
Partnership for Quality Infrastructure: Investment for Asia's Future,'' 
ay 21, 2015. Ministry of Economy, Trade, and Industry of Japan, ``The 
Expanded Partnership for Quality Infrastructure,'' May 23, 2016.
    \13\ ``Japan to propose G-20 aid rules to check China's Belt and 
Road,'' Nikkei Asian Review, March 18, 2019.
---------------------------------------------------------------------------
               u.s. interests and position in the region
    The overarching U.S. policy objective in the Indo-Pacific-one that 
has traditionally enjoyed bipartisan support-is to promote a peaceful, 
prosperous, and rules-based regional order. Economic engagement in the 
region serves that goal-and U.S. interests-in several ways. First, open 
and connected economies promote stability and decrease the likelihood 
of conflict. Countries that trade together and play by the rules tend 
not to fight. Second, maintaining a free and open rules-based economic 
order facilitates two-way trade and investment that supports millions 
of American jobs. A prosperous Indo-Pacific means billions of middle-
class customers for U.S. products, new markets for U.S. services 
companies, and millions of new tourists visiting the United States. 
Finally, U.S. engagement is critical because if we do not lead and 
shape the rules, others will. Beijing seeks to validate its brand of 
authoritarianism that may deliver economic growth but undermines basic 
freedoms.
    We will not achieve our goals without active engagement in the 
region. U.S. leadership encourages market-oriented reform and 
demonstrates to our allies, partners, and potential adversaries our 
continued commitment to a free, open, and prosperous Indo-Pacific. Our 
absence or lack of effective engagement has the opposite effect. For 
example, under U.S. persuasion, Vietnam agreed to unprecedented digital 
rules as part of TPP, including no data localization requirements. 
However, after the United States left the agreement, an emboldened 
Vietnam passed a controversial cybersecurity law modeled after China's 
restrictive 2016 law that included localization requirements.\14\
---------------------------------------------------------------------------
    \14\ Murray Hiebert, ``Vietnam's New Cyber Law Could Hobble Foreign 
Investors and Limit Basic Freedoms,'' Center for Strategic and 
International Studies, July 2, 2018.
---------------------------------------------------------------------------
    As I mentioned earlier, the United States starts with huge 
advantages in the competition for economic leadership in the region. 
Our large economy and consumer market are a major attraction for Asian 
trading partners. U.S. companies offer the region high-quality products 
and services and the transparent, reliable business practices that come 
with them. Despite the mythology of BRI, U.S. direct investment in 
ASEAN between 2010-2017 was twice as large as China's.\15\ U.S. 
portfolio investment in the region, meanwhile, is measured in the 
trillions of dollars, providing valuable capital to support Asian 
countries' growth.
---------------------------------------------------------------------------
    \15\ United Nations Conference on Trade and Development, "ASEAN 
Investment Report 2018," November 2018.
---------------------------------------------------------------------------
    For over 70 years, U.S. economic diplomacy has supported these 
market advantages. Our development assistance has boosted growth, 
reduced poverty, improved health, built technical capacity, and earned 
the United States tremendous goodwill in the region. Until recently, we 
were the undisputed leader in regional trade negotiations, culminating 
in the TPP agreement signed in 2016. We have also worked to develop 
mutually beneficial economic rules and norms through regional 
institutions such as the Asia-Pacific Economic Cooperation forum 
(APEC).
    All of this economic engagement is undergirded by our security 
presence in the region, as well as by our soft power. Our alliances 
with Japan, South Korea, Australia, Thailand, and the Philippines, as 
well as our partnerships with many other countries from Singapore to 
New Zealand, provide the stability that underpins economic activity in 
the region. These countries are also vital partners in our efforts to 
uphold and extend market-based rules and norms. Meanwhile, the 
traditional openness of our society, our world-leading universities, 
our movies, and other aspects of our soft power give us a tremendous 
advantage over regional competitors.
    But there is little doubt that the advantages we enjoy in the Indo-
Pacific region are being eroded. Partly this is the result of external 
forces, notably the economic rise of China and Beijing's more assertive 
policies in the region, mentioned earlier. But much of the fault is our 
own. The back-to-back blows of the Asian financial crisis of 1997-98 
and the global financial crisis of 2008-09 did enormous and lasting 
damage to the U.S. brand in the region and raised severe doubts about 
our model of economic governance.\16\
---------------------------------------------------------------------------
    \16\ Homi Kharas and Johannes F. Linn, ``Hypocrisy in Financial 
Crisis Response: East Asia 1998 versus the USA 2008,'' Emerging 
Markets, April 30, 2008.
---------------------------------------------------------------------------
    Recent policy mistakes have further undermined our position in the 
region. The failure of the Obama Administration to win passage of TPP 
in 2016 and President Trump's ill-considered decision to withdraw from 
the agreement days after he took office have arguably exacted the 
single most damaging cost to U.S. economic leadership in the region. 
Abandoning the main tool of our strategic economic engagement in the 
region was a severe blow to our credibility and kicked the legs out 
from under our leadership of regional trade arrangements. Moreover, it 
left the Trump Administration's "free and open Indo-Pacific 
strategy''--a reasonable conceptual framing for a regional strategy-
empty of the credible economic content that is crucial to the broader 
strategy's success.
                  toward a smarter economic statecraft
    To restore its advantageous position in the Indo-Pacific region, 
the United States needs a comprehensive economic strategy, involving 
both defensive and offensive elements. I have written elsewhere about 
four pillars of a successful strategy,\17\ namely:
---------------------------------------------------------------------------
    \17\ Matthew P. Goodman and Ely Ratner, ``A Better Way to Challenge 
China on Trade,'' Foreign Affairs, March 22, 2018.


 1. ``Protecting the crown jewels," that is, securing key technologies 
        and other assets critical to our economic competitiveness and/
        or national security;
 2. Enforcing the rules, including pushing back against countries like 
        China when they violate established rules and norms in trade, 
        finance, or other areas;
 3. Deploying a set of positive economic tools that build out existing 
        rules and norms and incentivize the kind of constructive 
        behavior we seek; and
 4. Investing in the domestic foundations of our economic strength, 
        from infrastructure to skills to R&D spending.


    Critically, across all of these pillars, we need to work closely 
with allies and partners and to honor the rules ourselves.
    Given the focus of this hearing on economic diplomacy, I will spend 
the rest of my testimony on the third pillar above. In my view, a 
positive economic statecraft in the Indo-Pacific region involves at 
least four key elements.

    First, we need to show up. It is trite but true to say that, ``80 
percent of success in Asia is showing up.'' One advantage the United 
States does not have in Asia is geographical proximity; we have to earn 
our position as an engaged participant in regional affairs. Asians 
measure U.S. commitment to the region by the presence or absence of 
senior U.S. officials at regional gatherings. This means that 
presidents need to attend the two annual Asian summits, the APEC 
Leaders' Meeting and the East Asia Summit (EAS); Cabinet secretaries 
need to attend meetings of their peers in APEC and other forums; and 
lower-level American officials need to be a visible presence at other 
regional gatherings.

    Second, U.S. policy in the region needs to credibly speak to all 
main substantive areas of economic policy, including trade, 
development, finance, and energy. The biggest gap at present is trade 
policy. The Trump Administration's bilateral approach to trade 
negotiations is simply not sufficient to fill the void left by the U.S. 
withdrawal from TPP. These deals will take too long to negotiate and, 
even if completed, will not produce the collective benefits of TPP, 
either commercially or strategically. If we are not going to apply for 
membership in CPTPP--and in my view, we should--the Administration 
needs to develop an alternative that tries to come as close as it can 
to replicating TPP's power in incentivizing others to follow us in 
building out U.S.-preferred rules and norms in trade in the region.
    Nowhere are the stakes higher in rulemaking than in the digital 
domain. TPP included the first binding rules on digital commerce in a 
trade agreement, calling for substantially free cross-border flows of 
data, no data localization requirements, no customs duties on 
electronic commerce, and other disciplines.\18\ These rules were 
updated and expanded in the U.S.-Mexico-Canada (USMCA) agreement now 
pending before Congress. With China, Europe, and others pushing out 
models of digital governance starkly different from that preferred by 
the United States, we have a compelling interest in leading rulemaking 
efforts in this area.
---------------------------------------------------------------------------
    \18\ U.S. Trade Representative, ``The Digital 2 Dozen,'' April 
2016.
---------------------------------------------------------------------------
    We also need a credible strategy to compete in the historic 
infrastructure build-out in the Indo-Pacific. The need for 
infrastructure in the region over the next decade is estimated to be in 
the tens of trillions of dollars.\19\ Despite the noise surrounding 
BRI, China is not going to fill this need alone-or fill it well. As 
CSIS argued in a recent report, ``The Higher Road,''\20\ there is a 
tremendous opportunity for the United States to compete in the regional 
infrastructure build-out, if we articulate a strategic vision and draw 
on our competitive advantages. These include great companies offering 
high-quality products and services; commitment to the rule of law and 
to social, environmental, and financial sustainability; and tens of 
trillions of dollars of private capital-particularly pension and 
insurance monies-looking for long-term returns.
---------------------------------------------------------------------------
    \19\ Sungsup Ra and Zhigang Li, ``Closing the Financing Gap in 
Asian Infrastructure,'' Asian Development Bank, June 2018.
    \20\ Charlene Barshefsky and Stephen J. Hadley, ``The Higher Road: 
Forging a U.S. Strategy for the Global Infrastructure Challenge,'' 
Center for Strategic and International Studies, April 2019.

    A third dimension of a successful U.S. economic strategy in the 
Indo-Pacific is active participation in regional institution-building. 
Messy and painstaking as it can be, there is a strong demand for such 
institution-building and U.S. participation in it--provided we are seen 
as constructive and willing to do things ``the Asian way.'' The 
economic architecture in the region revolves around APEC. Since we co-
founded the forum exactly 30 years ago, it has been an invaluable tool 
for spreading U.S.-preferred norms on a wide range of issues, from 
trade liberalization to energy security to women's economic 
empowerment. There is also a demand for U.S. participation in ASEAN-
centered institution-building that Washington should tap into by 
doubling down on initiatives such as U.S.-ASEAN Connect and the U.S.-
ASEAN Smart Cities Partnership.\21\
---------------------------------------------------------------------------
    \21\ U.S. Mission to ASEAN, ``U.S.-ASEAN Connect.'' The White 
House, ``Remarks by Vice President Pence at the 6th U.S.-ASEAN 
Summit,'' November 14, 2018.

    Fourth, we need to reinforce our regional economic strategy with 
active engagement on the bilateral and global levels. Bilaterally, we 
should encourage--and sometimes cajole-allies and partners from Japan 
to Singapore to support our regional rulemaking and norm-setting 
initiatives. To win the support of developing countries in the region, 
we should use a combination of diplomacy and increased development 
assistance to help these countries build capacity and understand the 
benefits of our preferred approach. Globally, we should increase 
financial and policy support for multilateral institutions working in 
the region, from the IMF to the World Bank, and use the G-20--half of 
whose members are in the Indo-Pacific--to amplify the economic rules 
and norms we are working to spread regionally.
               recommendations: putting aria into action
    ARIA covers many of the critical elements of an effective economic 
strategy in the Indo-Pacific region. Funding the specific programs 
authorized in the Act would be an excellent starting point to put it 
into action. Let me offer seven other ideas that build on some of the 
points in the Act and would support a smarter economic statecraft in 
the Indo-Pacific, with an accent on the role for Congress.


 1. Develop a credible regional trade strategy: The single most 
        powerful step the United States could take to bolster its 
        strategic economic position in the Indo-Pacific is to announce 
        its intention to accede to CPTPP. In addition to rectifying the 
        loss of U.S. competitive position in key markets like Japan and 
        Vietnam due to withdrawal from TPP, joining CPTPP would send a 
        strong statement of U.S. commitment to the region-one that 
        China and others could not fail to notice.\22\ While no 
        substitute for a regional trade approach, pursuing bilateral 
        deals with important Asian partners not currently in CPTPP such 
        as the Philippines and Taiwan would also be a valuable part of 
        a comprehensive strategy. In addition to its Constitutional 
        authority to direct trade policy, Congress also has an 
        important role to play in investing in the domestic economic 
        foundations I mentioned in my fourth pillar above--
        infrastructure, education and skills, R&D, etc.--which in my 
        view are essential to win the support of the American people 
        for an active trade policy.
---------------------------------------------------------------------------
    \22\ Matthew P. Goodman, ``United States and Japan Finally Exorcise 
Trade Ghosts,'' Center for Strategic and International Studies, October 
5, 2015.


 2. Launch a major digital governance initiative: As mentioned above, 
        nowhere is there more at stake in Indo-Pacific-indeed, global-
        economic rulemaking than in the digital arena. Congressional 
        passage of USMCA and U.S. accession to CPTPP would give major 
        impetus to the U.S.-preferred digital rules contained in both 
        agreements. In parallel with work on those deals, the United 
        States should propose a high-level regional initiative on 
        digital governance that makes the case for the benefit of its 
        approach and seeks to shape regional decisions on critical 
        issues such as an open internet, cross-border data flows, and 
        digital taxation. Endorsement of Japanese Prime Minister Shinzo 
        Abe's proposed concept of ``data free flow with trust''\23\ 
        would give a useful push to an approach that appears broadly in 
        line with U.S. interests.
---------------------------------------------------------------------------
    \23\ Shinzo Abe, Remarks at the 2019 World Economic Forum, January 
23, 2019.


 3. Articulate and implement a regional infrastructure strategy: Again, 
        there is an active competition in the Indo-Pacific to fill the 
        region's massive infrastructure needs, and the United States 
        needs a strategy and tools to compete in this arena. In our 
        recent report, "The Higher Road," CSIS offers a strategic 
        framework, seven topline recommendations, and a number of 
        specific implementation steps to shape a U.S. global 
        infrastructure strategy.\24\ In addition to policy 
        recommendations for the executive branch, such as working to 
        win international agreement on a set of principles for high-
        quality infrastructure investment, our report includes several 
        proposals requiring Congressional action, e.g.: a. Contributing 
        $200 million from the new U.S. Development Finance Corporation 
        (USDFC) to the Currency Exchange Fund, which helps mitigate 
        foreign exchange risks in infrastructure projects;\25\
---------------------------------------------------------------------------
    \24\ Charlene Barshefsky and Stephen J. Hadley, ``The Higher 
Road.''
    \25\ ``Infrastructure Finance,'' Currency Exchange Fund,

    a. Reauthorizing the U.S. Export-Import Bank when its charter 
---------------------------------------------------------------------------
            expires at the end of September;

   b. Substantially increasing funding for the U.S. Agency for 
            International Development (USAID) and the U.S. Trade and 
            Development Agency (USTDA) to support capacity building and 
            other programs that support quality infrastructure 
            investment;

   c. Expanding the interagency Infrastructure Transaction and 
            Assistance Network (ITAN), including by funding the 
            proposed Transaction Advisory Fund (TAF) to send experts to 
            recipient countries to assist with contract 
            negotiation;\26\ and
---------------------------------------------------------------------------
    \26\ U.S. International Trade Administration, ``The Infrastructure 
Transaction and Assistance Network,'' March 2019

   d. Contributing to the World Bank's Global Infrastructure Facility 
            (GIF) and other relevant programs at multilateral 
---------------------------------------------------------------------------
            development banks.


 4. Increase support for regional institutions and initiatives: As 
        discussed above, Asian countries generally welcome U.S. 
        participation in regional institution-building efforts. With a 
        relatively small investment, the United States can leverage 
        these institutions to spread U.S.-preferred rules and norms. 
        Accordingly, Congress should support increased funding for 
        regional institutions and initiatives that promote our economic 
        and strategic interests. These include APEC, the ADB, U.S.-
        ASEAN Connect and the U.S.-ASEAN Smart Cities Partnership, and 
        the Lower Mekong Initiative (LMI).


 5. Invest in economic expertise: To carry out effective economic 
        statecraft, the U.S. Government needs to substantially enhance 
        its staffing, skills, and incentives at relevant agencies. 
        Action is needed at several levels. Congress should move 
        quickly to confirm an administration nominee for Under 
        Secretary of State for Economic Growth, Energy, and the 
        Environment. It should support expansion of the number of 
        Foreign Commercial Service attaches at post (including digital 
        attaches; see ``The Higher Road,'' p.30). Congress should also 
        support increased training and incentives for State Department 
        officers on both sides of the coin of economic statecraft that 
        I mentioned earlier, i.e., commercial diplomacy and strategic 
        use of economic tools to promote U.S. foreign policy 
        objectives.


 6. Deepen educational exchange: Attracting Asian students to our 
        colleges and universities is one of the most powerful tools of 
        U.S. soft power. In addition to the skills they take back home 
        (or keep here if they are allowed to stay), exposure to our 
        open society and way of life shapes lifelong attitudes-
        overwhelmingly positive-toward the United States. Expanding 
        scholarships for students from strategically important Asian 
        countries like Indonesia, as well as creating incentives for 
        U.S. colleges and universities to set up branches in Asia, are 
        among the useful programs that Congress might consider 
        supporting. It is also important that visa and deemed-export 
        policies not unduly hinder legitimate foreign students from 
        opportunities to study in the United States.


 7. Work with allies and partners: It cannot be said often enough that 
        our alliances and partnerships are among the most important 
        advantages the United States has over its competitors in the 
        Indo-Pacific region. We should be seeking more opportunities to 
        cooperate and coordinate regional economic policies with allies 
        and like-minded partners. Over the past six months, CSIS has 
        issued two reports exploring such opportunities with Japan and 
        Australia and offering specific recommendations for joint or 
        complementary action in the region.\27\ These cover a wide 
        range of substantive areas of economic policy, including 
        infrastructure, digital governance, finance, and energy.
---------------------------------------------------------------------------
    \27\ Gordon de Brouwer, Matthew P. Goodman et al, ``Delivering 
Prosperity in the Indo-Pacific.'' Matthew P. Goodman, Ann Listerud, and 
Daniel Remler, ``The Article II Mandate: Forging a Stronger Economic 
Alliance between the United States and Japan,'' Center for Strategic 
and International Studies, December 2018,


    This is just a sampling of ideas for putting ARIA into action. My 
CSIS colleagues and I would be happy to work with the Committee to 
flesh out other ideas as you take this important legislation forward.
    Before closing, I would like to briefly mention two areas in which 
I believe Congress should consider not acting--or pausing to weigh 
costs and benefits--in the interest of encouraging more effective 
economic statecraft.
    The first is avoiding excessive reporting requirements for State 
and Commerce officers at post. While understanding Congress' legitimate 
interest in being informed of developments on the ground in other 
countries, I believe much of this demand can be met through the 
plethora of public news and analytical sources available in today's 
media environment; certainly this is true when it comes to basic 
economic data and trends in most countries. The time of officers at 
post would be better spent ``doing things''--advocating for U.S. 
commercial or policy interests--rather than reporting facts and trends 
readily available elsewhere.
    Second, when considering economic sanctions--a legitimate tool of 
statecraft to shape other countries' behavior where appropriate--
Congress should weigh the unintended short- and long-term costs of 
proposed action. The most obvious of these is the burden on legitimate 
commerce, which can impede U.S. international competitiveness and 
ultimately growth. There can also be diplomatic costs for our relations 
with allies and partners, particularly where secondary sanctions are in 
play. Potential long-term costs include driving other countries away 
from the U.S. financial system and ultimately use of the dollar as a 
reserve currency. These costs may not outweigh the benefits of 
sanctions in particular cases but should always be considered, in my 
view.
                               conclusion
    There is a fierce competition for leadership underway in the vital 
Indo-Pacific region. The stakes for the United States in this 
competition are enormous, given the opportunities and risks involved in 
the world's most dynamic region. Fortunately, the United States has 
been dealt a strong hand and has worked to strengthen it over time. But 
there is a clear and present risk of complacency or of playing the hand 
badly. With smart economic statecraft incorporating the ideas I have 
discussed here, I believe we can maintain our strong position in the 
Indo-Pacific region and ensure a peaceful, prosperous, and rules-based 
order there.
    Thank you again for the opportunity to offer my views on this 
important set of issues.


    Senator Gardner. Thank you, Mr. Goodman.
    Dr. Lewis?

 STATEMENT OF DR. JOANNA LEWIS, ASSOCIATE PROFESSOR, EDMUND A. 
    WALSH SCHOOL OF FOREIGN SERVICE, GEORGETOWN UNIVERSITY, 
                         WASHINGTON, DC

    Dr. Lewis. Chairman Gardner, Ranking Member Markey, thank 
you for the opportunity to discuss economic diplomacy in Asia, 
particularly as it relates to the opportunities for clean 
energy.
    Developing countries are the engine for growth in energy 
demand of the 21st century. India, China, and Southeast Asia 
together account for 60 percent of the projected future energy 
demand globally through 2040.
    Growing global energy demand will require significant 
investments in new energy infrastructure, and most of this 
investment will be in renewable energy. Around $7.8 trillion is 
projected to be invested in renewable power worldwide through 
2040. BP projects two-thirds of new power generation will come 
from renewables over the next 2 decades.
    The directions that Asia's energy growth takes are driven 
by a variety of national and regional concerns, including 
economic development and job creation, energy security, 
electricity access, air quality and public health, and climate 
change mitigation. Asia's energy future will be both green and 
brown. Asia will make up half of global growth in natural gas, 
60 percent of the rise in wind and solar, more than 80 percent 
of the increase in oil, and more than 100 percent of the growth 
in coal and nuclear.
    If Asia's growing economies continue to rely on fossil 
fuels and do not leapfrog to advanced cleaner technologies, 
emerging Asia will lock in a commitment to future carbon 
emissions that will crush global climate efforts. As we have 
been warned by the most recent IPCC report, power generation 
systems will need to reach net zero carbon emissions around 
2050 to stabilize global emissions and avoid the most dangerous 
climate impacts.
    There are two key opportunities to shape Asia's clean 
energy future: one, by shaping the source and nature of 
investments in Asia's growing energy infrastructure; and two, 
by shaping the types of technologies that are deployed.
    Currently, the country playing the biggest role in shaping 
the energy future of its neighbors is China. China has emerged 
as the largest single provider of overseas infrastructure 
investment in the world and particularly in Asia. Many of these 
investments are, indeed, motivated by China's Belt and Road 
Initiative.
    China has been dominating the sales of coal plants abroad. 
As the largest coal user in the world, China has put in place 
very stringent environmental regulations to reduce domestic air 
pollution and has established the world's largest carbon 
market. As a result, there are reports that as China is 
shutting down some of their dirtier, less efficient coal plants 
before the end of their useful life, they are exporting these 
dismantled plants to countries in Southeast Asia. This goes 
against the vision for a cleaner energy future that many 
governments are putting forward. For example, many Asian 
countries have pledged aggressive renewable energy targets in 
their Paris Agreement commitments.
    In contrast, almost all of the multilateral development 
banks have been restricting coal plant investments due to 
environmental concerns.
    It is clear from these trends that the source of investment 
matters in shaping energy technology decisions.
    And there are major opportunities to expand U.S. 
involvement in both technology and investment decisions in 
emerging Asia. For example, energy storage technologies 
represent a $620 billion investment opportunity over the next 2 
decades.
    If China's first major clean energy technology successes 
were in wind and solar, their next big success is poised to be 
in energy storage. China has made bold commitments for electric 
vehicles that are driving its dominance in battery 
technologies. Its 2018 new energy vehicle mandate includes a 
target for 4.6 million electric vehicles by 2020 and plans to 
eventually ban cars with traditional internal combustion 
engines. This single policy has had ripple effects across the 
globe. Within 48 hours of China's announcing their target, 
General Motors and Ford both announced major electric vehicle 
initiatives.
    There has been a lot of attention rightfully placed on 
intellectual property theft by China. At least one high profile 
case occurred in the wind power industry. However, research 
supports the finding that most of the IP that Chinese companies 
acquired in the clean energy space was obtained legally. Most 
studies of Chinese wind and solar industries have not found 
significant obstacles to accessing advanced technologies and 
intellectual property through licensing, mergers, or research 
partnerships with foreign firms. The much larger challenge for 
China has been the development of a healthy innovation system.
    The U.S. should not stand by and let China use its state-
directed industrial policy to dominate the energy technologies 
of the future. As one Detroit publication states, "The U.S. 
auto industry risks becoming an isolated technical backwater 
while China surges into the global lead in a technology its 
government has targeted as a key to leadership for the 21st 
century."
    The transition to a low carbon economy is already underway, 
and the U.S. is currently a leader in the development of the 
next generation of energy technologies. Therefore, it is now 
time to double down on programs that are accelerating the clean 
energy transition, ensuring we do not fall behind in innovating 
the core technologies of the future.
    The Asia Reassurance Initiative Act of 2018 calls for 
expanded energy cooperation in the region. The United States is 
innovative because of its global linkages and partnerships, not 
in spite of them.
    Therefore, I recommend that the U.S. Government launch new 
bilateral cooperation in emerging Asia, including building off 
of effective models of collaboration in both China and India 
that have directly dealt with intellectual property rights. We 
should partner with the private sector to design and pilot a 
finance facility for clean energy technology projects in 
emerging markets, and we should engage in expanded dialogue 
with China on how we can ensure development finance 
institutions do not undermine global de-carbonization efforts.
    These recommendations are elaborated in my statement, and I 
am happy to discuss any further during questioning. Thank you.
    [The prepared statement of Dr. Lewis follows:]


                 Prepared Statement of Joanna I. Lewis

 the role of renewable energy in meeting 21st century energy demand in 
                                  asia
    Developing countries are the engine for growth in energy demand in 
the 21st century. India, China and Southeast Asia together account for 
60% of the projected future energy demand globally through 2040.\1\ 
While China has been the driver of global growth of the past two 
decades, due to the rapid economic and population growth expected 
across Southeast Asia, its projected growth in energy demand will be 
twice as large as China's over the next two decades, representing one-
tenth of the rise in global demand.\2\
---------------------------------------------------------------------------
    \1\ International Energy Agency, ``World Energy Outlook 2018'' 
(Paris: OCED, 2019).
    \2\ International Energy Agency, ``Southeast Asia Energy Outlook 
2017,'' World Energy Outlook Special Report, 2017.
---------------------------------------------------------------------------
    Growing global energy demand will require significant investments 
in new energy infrastructure, and most of this investment will be in 
renewable energy. Around $7.8 trillion is projected to be invested in 
renewable power worldwide through 2040 in technologies including 
onshore and offshore wind; utility-scale, rooftop and distributed 
solar; and hydropower. Renewable energy in fact comprises the bulk of 
the investment that is projected to be spent across the entire power 
sector, compared with $2.1 trillion to be invested in fossil fuels, 
mainly in emerging economies.\3\ BP projects that two-thirds of new 
power generation will come from renewables over the next two 
decades.\4\ Developing economies committed $177 billion to renewables 
last year, up 20% from the prior year; this is even larger than the 
$103 billion in developed countries, where investment was actually down 
19%.\5\ Last year marked the largest shift towards renewable energy 
investment in developing countries that we have seen yet. In the Indo-
Pacific alone, investment totaled $168.9 billion.\6\
---------------------------------------------------------------------------
    \3\ BNEF, ``World to Invest USD 7.8trn in Renewables by 2040.
    \4\ Emma Foehringer Merchant, ``BP and McKinsey Agree Renewables 
Will Be the Dominant Power Source by 2040, but Diverge on Numbers,'' 
February 16, 2019.
    \5\ Angus McCrone et al., eds., ``Global Trends in Renewable Energy 
Investment Report 2018'' (FS-UNEP Collaborating Centre for Climate & 
Sustainable Energy Finance, April 2018).
    \6\ McCrone et al.
---------------------------------------------------------------------------
    The directions that Asia's energy growth takes are driven by a 
variety of national and regional concerns including economic 
development and job creation, energy security, electricity access, air 
quality and public health, and climate change mitigation. Asia's energy 
future will be both green and brown. Asia will make up half of global 
growth in natural gas, 60% of the rise in wind and solar photovoltaics, 
more than 80% of the increase in oil, and more than 100% of the growth 
in coal and nuclear.\7\
---------------------------------------------------------------------------
    \7\ International Energy Agency, ``Southeast Asia Energy Outlook 
2017.''
---------------------------------------------------------------------------
    In Southeast Asia in particular, renewable energy is expected to 
play an increasingly important role. The declining cost of renewables 
globally also presents new options for off-grid applications, which can 
increase energy access and reduce reliance on costly diesel generators 
in remote areas. The International Energy Agency (IEA) projects that by 
2040 renewables will account for the largest share of installed 
capacity in Southeast Asia at around 40%, but will still lag behind 
coal in terms of share of total electricity generation.\8\ Even high 
efficiency supercritical or ultra-supercritical coal plants will put 
these countries on a high carbon energy development pathway. But if its 
growing economies continue to rely on fossil fuels and do not leapfrog 
to advanced, cleaner technologies, emerging Asia will lock in a 
commitment to future carbon emissions that will crush global climate 
efforts. As we have been warned by the most recent IPCC report, power 
generation systems will need to reach net zero carbon emissions around 
2050 to stabilize global emissions and avoid the most dangerous climate 
impacts.\9\ While much focus has rightfully been on China's power 
system as the largest source of current emissions, for plants that are 
in the pipeline (meaning planned but not yet built), other developing 
countries, particularly throughout emerging Asia, will be far a more 
important source of emissions in the coming decades.
---------------------------------------------------------------------------
    \8\ International Energy Agency.
    \9\ IPCC, ``Summary for Policymakers--Global Warming of 1.5 oC,'' 
2018.
---------------------------------------------------------------------------
           opportunities to shape asia's clean energy future
    There are two key opportunities to shape Asia's clean energy 
future: (1) by shaping the source and nature of investments in Asia's 
growing energy infrastructure, and (2) by shaping the types of energy 
technologies that are deployed. Currently, the country playing the 
biggest role in shaping the energy future of its Asian neighbors, is 
China.
    China has emerged as the largest single provider of overseas 
infrastructure investment in the world, and particularly in Asia. Many 
of these investments are motivated by China's Belt and Road Initiative 
(BRI). China does not provide official numbers for outbound energy 
infrastructure investments, but estimates suggest that, since 2000, 
China's two state-run policy banks (the China Development Bank and the 
China Export-Import Bank) may have provided between $150-250 billion in 
global energy infrastructure financing, of which approximately half 
stayed within Asia.\10\ An increasing amount of that funding is being 
directed toward Southeast Asia to meet the region's growing 
infrastructure needs, including energy infrastructure.
---------------------------------------------------------------------------
    \10\ Kevin P Gallagher, ``China Global Energy Finance: A New 
Interactive Database,'' GEGI Policy Brief (Boston University, 2017).
---------------------------------------------------------------------------
    China has been dominating the sales of coal plants abroad since the 
early 2000s. While China actually exports far more solar panels around 
the world than any other country, this deployment is not evenly 
distributed across the world.\11\ Developing countries tend to want 
coal plants, not just because they are being sold inexpensively, but 
because they represent a tried and true model of development that they 
want to replicate. The vision for technology leapfrogging is like the 
model we saw in cell phones, where many developing countries 
leapfrogged over the use of landlines and straight towards mobile 
phones, allowing access to the internet and financial services even in 
remote locations. In clean energy this is not always being achieved, 
because the countries that industrialized first and are already 
transitioning to clean energy technologies still want to export their 
polluting technologies elsewhere. For example, we see that even China, 
still the largest coal user in the world, has put in place very 
stringent environmental regulations to reduce domestic air pollution, 
and has established the world's largest carbon market. As a result, 
there are reports that they are shutting down some of their dirtier, 
less efficient coal plants before end of their useful life, and 
exporting these dismantled plants to countries in Southeast Asia.
---------------------------------------------------------------------------
    \11\ United Nations, ``UN Comtrade International Trade Statistics 
Database,'' 2019.
---------------------------------------------------------------------------
    China is not alone in financing coal-fired power plants overseas. 
Japanese, Korean, French, and German banks are currently the major 
sources of finance for coal-fired power plants around the world, but 
China is beginning to catch up with and will potentially surpass Japan 
as the region's largest foreign direct investor and component 
provider.\12\ One study estimates that Chinese firms are involved in 
the construction, ownership, or financing of at least 16% of all coal-
fired power stations under development outside China.\13\ Chinese 
energy companies have strong national support and domestic policies 
that favor them and their overseas investments; they can outbid 
competitors and provide power plant projects at a lower cost. This 
access to cheaper labor, materials, and financing has helped China 
become a leading investor in overseas coal plant development. Of all 
the power capacity additions in Asia involving Chinese corporations, 68 
percent of operating capacity and 77 percent of under-construction 
capacity is in coal.\14\ Most of this coal power finance is 
concentrated in South Asia and Southeast Asia, with the largest markets 
in India, Indonesia, and Vietnam.\15\
---------------------------------------------------------------------------
    \12\ Melanie Hart and Joanna Lewis, ``China's Role in Southeast 
Asia's Energy Development: Identifying Drivers Behind Coal Plant 
Investment Decisions'' (Working Paper prepared for the Georgetown U.S.-
China Climate Research Dialogue, February 2019).
    \13\ Christine Shearer et al., ``Tracking the Global Coal Plant 
Pipeline,'' 2018, 16.
    \14\ Phillip M. Hannam et al., ``Developing Country Finance in a 
Post-2020 Global Climate Agreement,'' Nature Climate Change 5, no. 11 
(November 2015): 983-87.
    \15\ Herve Herve-Mignucci and Xueying Wang, ``Slowing the Growth of 
Coal Power Outside China: The Role of Chinese Finance,'' CPI, November 
2015.
---------------------------------------------------------------------------
    This goes against the vision for a clean energy future that many 
governments are putting forward. For example, many emerging Asian 
countries have pledged aggressive renewable energy targets as part of 
their Paris Agreement commitments that if met could lead to many 
gigawatts of renewable power being built in these countries.\16\ In 
addition, there are significant risks to an extensive reliance on coal 
given the rising environmental and social costs. Around the world, coal 
plants are increasingly at risk of becoming stranded assets and a 
frequent target of public protests.\17\ Despite the risks, Chinese coal 
plant development is on a growth trajectory due to the pull from poorer 
nations that seek the cheapest options for energy finance, as well as 
the desire for Chinese companies to expand their markets overseas.
---------------------------------------------------------------------------
    \16\ Lihuan Zhou et al., ``Moving the Green Belt and Road 
Initiative: From Words to Actions'' (World Resources Institute and BU 
Global Development Policy Center, October 2018).
    \17\ Jennifer Hadden, ``EPS Seminar: Beyond Coal? Exploring 
Variations in Global Protests Against Proposed Coal- Fired Power 
Plants'' (November 15, 2018); Kevin P. Gallagher et al., ``Fueling 
Growth and Financing Risk: The Benefits and Risks of China's 
Development Finance in the Global Energy Sector,'' May 2016.
---------------------------------------------------------------------------
    In contrast, almost all of the multilateral development banks have 
been restricting coal plant investments due to environmental concerns. 
The World Bank pledged in 2010 to stop investments in coal, and more 
recently in oil and gas as well. The Asian Development Bank (ADB) has 
not funded any coal plants since 2013. Even the China-led Asia 
Infrastructure Investment Bank (AIIB) has an aggressive energy sector 
strategy guiding its investments with very restrictive language about 
supporting coal and oil investments.
    It is clear from the trends described above that the source of 
investment matters in shaping energy technology decisions. And a lack 
of American investment will leave these technology decisions to China, 
Japan, and others in the region.
            challenges and opportunities for u.s. companies
    There are major opportunities to expand U.S. involvement in both 
technology and investment decisions in emerging Asia. To understand 
these opportunities, we must understand the political economy of low 
carbon technology development.
    Now a $332 billion-dollar industry globally, the political economy 
of renewable energy around the world is becoming increasingly 
consistent.\18\ Many countries have identified renewable energy as a 
strategic industry for promoting economic development.\19\ Because the 
social benefit of reducing greenhouse gas emissions is not generally 
reflected in cost structures, the deployment of socially desirable 
technologies is not always immediately economically profitable. As a 
result, governments use policy tools to adjust relative prices to 
encourage the adoption of alternative energy technologies through 
subsidies or other forms of public support.\20\
---------------------------------------------------------------------------
    \18\ Joanna I. Lewis, ``The Rise of Renewable Energy Protectionism: 
Emerging Trade Conflicts and Implications for Low Carbon Development,'' 
Global Environmental Politics 14, no. 4 (2014).
    \19\ Kelly Sims Gallagher, ``Why & How Governments Support 
Renewable Energy,'' Daedalus 142, no. 1 (January 1, 2013): 59-77.
    \20\ John A. Alic, David C Mowery, and Edward D. Rubin, ``U.S. 
Technology and Innovation Policies: Lessons for Climate Change'' 
(Arlington, VA: Pew Center on Global Climate Change, 2003).
---------------------------------------------------------------------------
    To garner such support, the political rationale for renewable 
energy, namely carbon mitigation, is increasingly being directly linked 
to the economic rationale, namely job creation and technological 
leadership. While the carbon mitigation benefits of renewable energy 
may be global, economic development impacts are a benefit of renewable 
energy utilization that can be captured locally. For governments to 
justify extending the costs associated with renewable energy to 
ratepayers they must also make the case for other direct economic 
benefits from promoting renewables, such as job creation and long-term 
economic competitiveness. As a result, countries have increasingly been 
using protectionist policies to encourage domestic manufacturing for 
renewable energy and raise barriers to foreign entry into domestic 
markets.Not all countries are well positioned to become competitive 
exporters of the same green technologies, but if industrial policies 
can help create competitive domestic manufacturers, there may be direct 
domestic economic benefits. There may be global benefits as well; new 
market entrants can lead to more competition in the sector, and 
encourage further technological innovation.\21\
---------------------------------------------------------------------------
    \21\ Lewis, ``The Rise of Renewable Energy Protectionism: Emerging 
Trade Conflicts and Implications for Low Carbon Development.''
---------------------------------------------------------------------------
    Governments around the world have prioritized the development of 
renewable energy technologies with a range of policies and incentives. 
As the manufacturing and use of these technologies has grown rapidly in 
recent years, national leaders have shifted. The emergence of several 
rapidly industrializing economies in these industries has led to an 
increasingly globalized supply chain, and consequently an increase in 
the international trade of renewable energy technologies. It is 
therefore not surprising that trade-related disputes have also 
increased, both via the World Trade Organization (WTO) and domestic 
trade remedy channels.\22\
---------------------------------------------------------------------------
    \22\ Lewis.
---------------------------------------------------------------------------
    Perhaps no country has used industrial policy to promote renewable 
energy as effectively, and as controversially, as China.\23\ China's 
policies to promote renewable energy have long included mandates and 
incentives to support the development of domestic technologies and 
industries. While some elements of these policies, such as local 
content requirements, are unduly protectionist, others are far less 
controversial, such as R&D support, technology certification and 
quality control programs, and fiscal or other tax-related incentives. 
The Chinese government has identified several renewable energy 
industries as strategic national priorities for science and technology 
(S&T) investment, and established a constant and increasing stream of 
government support for R&D and technology demonstration. Other forms of 
industry support have been given through more informal channels, such 
as low interest loans or other favorable loan terms given by central 
and local governments and state-controlled banks, low-cost land grants, 
or expedited permitting.
---------------------------------------------------------------------------
    \23\ Joanna I. Lewis, Green Innovation in China: China's Wind Power 
Industry and the Global Transition to a Low- Carbon Economy. (New York: 
Columbia University Press, 2013); Lewis, ``The Rise of Renewable Energy 
Protectionism: Emerging Trade Conflicts and Implications for Low Carbon 
Development.''
---------------------------------------------------------------------------
    China's renewable energy growth over the past decade has been 
extremely impressive, particularly considering many of the challenges 
the country faces in this sector. Much of the country has mediocre 
renewable energy resources, and the geographic distribution of these 
resources is not well matched with where demand is located. Energy 
technology that has primarily been domestically developed has far less 
demonstration experience than that of other countries, and in many 
cases is still struggling to catch up to the technological performance 
achievements of comparable technology made by other countries. In 
addition, renewable energy project siting has frequently been 
inefficient, resulting in lower capacity factors. Inexperienced 
operation and maintenance (O&M) and poor forecasting only increases 
obstacles to achieving high-performance renewable energy 
facilities.\24\
---------------------------------------------------------------------------
    \24\ Joanna I Lewis, ``Innovative Activity in China's Wind and 
Solar Power Technology Sectors,'' Prepared for the Project on Promoting 
Green Innovation as a New Driver of Growth in China (World Bank-IFC, 
December 2016).
---------------------------------------------------------------------------
    While renewable energy has been growing quite rapidly over the last 
decade in China, key technologies are facing serious obstacles. 
Continued curtailment of wind and solar power and consolidation among 
technology manufacturers has affected the growth of the industry. While 
widespread curtailment of wind and solar power is in part a technical 
issue driven by insufficient peak capacity, distribution congestion and 
transmission capacity limits, political and institutional factors play 
an even larger role. Curtailment is also caused by the incentive 
structure created by fragmented transmission authorities and local 
taxation structures, as well as the way electricity is priced in a 
still predominately state-regulated power sector.\25\
---------------------------------------------------------------------------
    \25\ Lewis.
---------------------------------------------------------------------------
    There has been a lot of attention rightfully placed on intellectual 
property theft by China, and at least one high profile case related to 
IP theft in China's wind power sector. However, research supports the 
finding that most of the IPR that Chinese companies have acquired in 
the clean energy space has been obtained legally. Most studies of the 
Chinese wind and solar industries have not found any significant 
obstacles to accessing advanced technologies and intellectual property 
through licensing, mergers, or research partnerships with foreign 
firms. There have been some examples of foreign firms not wanting to 
give up key elements of their proprietary technology due to concerns 
about IP protection and competition, most prevalently in the wind 
industry, but also in the solar industry particularly for second 
generation technologies. There have not been any major barriers to 
increasing manufacturing scale locally due to China's strong 
manufacturing base and skilled workforce.\26\
---------------------------------------------------------------------------
    \26\ Lewis.
---------------------------------------------------------------------------
    The larger challenge for China has been the development of a 
healthy innovation system that provides multiple layers of support for 
innovative activity including by fostering access to global learning 
networks. The tension between the state-led push for indigenous or 
independent innovation and the needs of Chinese firms to catch-up to 
global counterparts using international collaborations in innovation 
has to some extent hurt Chinese firms. In addition, protectionism and 
barriers to market entry and to trade by foreign technology firms are 
still widespread, and it is unlikely this will change. This prevents 
innovation that can happen through international collaborations, as 
well as through competition. This is one reason that many Chinese solar 
firms and increasingly wind firms have developed R&D centers 
abroad.\27\
---------------------------------------------------------------------------
    \27\ Lewis.
---------------------------------------------------------------------------
    If China's first major clean energy technology successes were in 
wind and solar, their next big success is poised to be in energy 
storage. Energy storage technologies represent a $620 billion 
investment opportunity over the next two decades.\28\ While China is 
still in the early stages of energy storage deployment and utilization, 
its companies are already among the world's top energy storage 
technology manufacturers.\29\ At the end of 2017, the Chinese 
government released a 10-year plan for developing a domestic energy 
storage industry for two key purposes: (1) to support battery 
manufacturing for its already massive electric vehicle manufacturing 
enterprise; and 2) to help with the serious grid challenges related to 
integrating substantial amounts of wind and solar power into the 
grid.\30\
---------------------------------------------------------------------------
    \28\ BNEF, ``Energy Storage Is a $620 Billion Investment 
Opportunity to 2040,'' Bloomberg NEF, January 2, 2019.
    \29\ Joanna I. Lewis, ``China's Role in Energy Storage Technology 
Development,'' Prepared for the Project on Promoting Green Innovation 
as a New Driver of Growth in China World Bank-IFC (World Bank-IFC, 
March 2017).
    \30\ Smita Kuriakose et al., ``Accelerating Innovation in China's 
Solar, Wind and Energy Storage Sectors,'' World Bank, 2017; Jeff St 
John, ``Global Energy Storage to Hit 158 Gigawatt-Hours by 2024, Led by 
US and China,'' April 10, 2019,
---------------------------------------------------------------------------
    It is projected that energy storage deployments will grow 
thirteenfold over the next six years. Last year's deployments already 
made up more than half of the total amount of storage deployed in the 
past five years. This growth likely will be concentrated in the United 
States and China, which together are projected to account for over half 
of global deployments by 2024.\31\ In the United States, the States are 
currently taking the primary leadership role in supporting energy 
storage deployment, with California, New York and Massachusetts all 
having mandates. Big U.S. utility-scale solar projects are also 
adopting storage, including projects in Hawaii, Texas, Minnesota and 
Colorado.
---------------------------------------------------------------------------
    \31\ St John, ``Global Energy Storage to Hit 158 Gigawatt-Hours by 
2024, Led by US and China.''
---------------------------------------------------------------------------
    But China is becoming the market to watch. It has made bold 
commitments for electric vehicles that are driving its dominance in 
battery technologies. Its 2018 New Energy Vehicle (NEV) mandate 
includes a target for 4.6 million electric vehicles by 2020, and a plan 
to eventually ban cars with traditional internal combustion engines. 
This single policy has had ripple effects across the globe. Within 48 
hours of China's announcing this target, General Motors and Ford 
announced major electric vehicle initiatives.\32\ This is a great 
example of how a strong, clear policy signal can push businesses to 
drive technology deployment efforts even further, leading to what has 
been called an ``ambition loop.'' \33\ Government leaders likewise 
should build on corporate commitments and implement policies and 
targets that will further incentivize these efforts.
---------------------------------------------------------------------------
    \32\ Andrew Steer, ``How China Raised the Stakes for Electric 
Vehicles,'' World Resources Institute, December 2018.
    \33\ Steer.
---------------------------------------------------------------------------
    The United States should not stand by and let China use its state-
directed industrial policy to dominate the energy technologies of the 
future. As one Detroit publication states, ``The U.S. auto industry 
risks becoming an isolated technical backwater while China surges into 
the global lead in a technology its government has targeted as a key to 
leadership for the 21st Century.'' \34\ The market for electric 
vehicles, batteries and other energy storage applications is massive, 
and the opportunities for American technology companies and investors 
are significant. Tesla is completing construction on its third 
``Gigafactory'' in Shanghai. (Gigafactory 1 is in Reno, Nevada; 
Gigafactory 2 in Buffalo, New York.) The massive electric car 
production facility was constructed in months in the middle of a muddy 
field. Many in the United States called Tesla's two-year timeframe from 
construction to production in Shanghai not feasible, but it looks like 
they will meet this schedule.\35\ China can use state intervention to 
make things move quickly. And they obviously saw a major opportunity 
from being the first Tesla factory outside the United States.
---------------------------------------------------------------------------
    \34\ Mark Phelan, ``China EV Production Is Booming While U.S. 
Efforts Stagnate,'' Detroit Free Press, March 27, 2019.
    \35\ Simon Alvarez, ``Tesla Gigafactory 3's Rise Shows That It's 
Too Early to Dismiss Elon Musk's `Sci-Fi Projects,' '' May 20, 2019.
---------------------------------------------------------------------------
      recommendations for u.s. policy and engagement in the region
    The transition to a low carbon economy is already underway, and the 
United States is currently a leader in the development of the next 
generation of energy technology industries. American companies are 
leading the world in making solar photovoltaics cheaper with more 
efficient materials as well as flexible solar cells; in developing 
advanced biochemical and renewable fuels; in developing solar thermal 
technologies to operate conventional steam turbines; and in developing 
smart grid technologies to allow for intelligent energy systems that 
can shift and reduce demand.\36\ We are leading in developing efficient 
building materials, lighting, and energy management software. We are 
also leading in the soft, technical skills needed to plan for and 
design low carbon energy systems. These industries are creating 
domestic jobs, and are generating new innovation with spillover effects 
across the economy.\37\
---------------------------------------------------------------------------
    \36\ ``The 50 Most Innovative New Renewable Energy Companies 
AltEnergyMag,'' May 6, 2016,
    \37\ EESI, ``Fact Sheet--Jobs in Renewable Energy and Energy 
Efficiency,'' 2015; Megan Nicholson and Matthew Stepp, ``Lean, Mean, 
and Clean II: Assessing DOD Investments in Clean Energy Innovation'' 
(Information Technology and Innovation Foundation, October 16, 2012).
---------------------------------------------------------------------------
    For all countries, the transition to cleaner sources of energy is 
not just about climate change; this transition will lead to the 
creation of new, globally competitive industries. For all countries, 
the low carbon transition is an economic issue, a competitiveness 
issue, and a public health issue--not ``just'' an environmental issue. 
And this transition does not have to come at the expense of economic 
growth. As global carbon emissions growth slows, economic growth has 
increased. In the United States, air quality has improved dramatically 
over the past two decades, even as the economy has expanded.\38\
---------------------------------------------------------------------------
    \38\ IEA, ``Decoupling of Global Emissions and Economic Growth 
Confirmed,'' International Energy Agency, March 16, 2016. EPA, ``Our 
Nation's Air 2016,'' 2016.
---------------------------------------------------------------------------
    Now is the time to double down on programs that are accelerating 
the clean energy transition, ensuring we do not fall behind in 
innovating the core technologies of the future. The U.S. government has 
established several sophisticated programs that are directly supporting 
U.S. energy entrepreneurs. Programs like the Advanced Research Projects 
Agency (ARPA-E) and Cyclotron Road target early-stage, high-impact 
energy technologies with the potential to radically improve economic 
prosperity, national security, and environmental well-being.\39\ These 
innovative programs are being emulated by many other countries around 
the world. At the subnational level, many U.S. states have been 
promoting aggressive clean energy policies and developing smarter, more 
efficient ways to manage power systems. These incentives are creating 
new job opportunities ranging from installation and manufacturing jobs 
to high tech jobs. In California, employment in advanced energy 
technologies grew six times faster than overall employment growth last 
year.\40\
---------------------------------------------------------------------------
    \39\ ``ARPA-E: Changing What's Possible,'' accessed May 22, 2019; 
``Cyclotron Road,'' Cyclotron Road, accessed May 22, 2019.
    \40\ BW Research Partnership, ``Advanced Energy Jobs in 
California'' (Advanced Energy Economy Institute, 2016).
---------------------------------------------------------------------------
    The United States has been engaging with numerous Indo-Pacific 
nations on clean energy, natural resources, and climate change; 
engagement with some countries including China and India spans several 
decades. In many cases, this engagement has directly benefited U.S. 
companies, and led to fruitful technology partnerships with researchers 
at U.S. universities and national laboratories.\41\ This cooperation 
has also played a crucial role in expanding global action on energy and 
climate change.
---------------------------------------------------------------------------
    \41\ DOE, ``Energy Department Announces New Projects between U.S. 
and China to Cut Emissions,'' Energy.gov, October 13, 2016.
---------------------------------------------------------------------------
    In addition, global linkages can spur innovation. The United States 
benefits from collaboration with other countries, including China: the 
largest clean energy market in the world. Should the United States 
decrease its involvement in such efforts, it risks its own technology 
industries and research community becoming more isolated. The United 
States is innovative because of its global linkages and partnerships, 
not in spite of them.
    We should launch new bilateral collaboration in emerging Asia. 
Existing collaborations with China (CERC) and India (PACE-R) have 
revealed characteristics of effective bilateral collaboration, 
including an a priori intellectual property framework, joint work-
planning, and integration of public and private capital and 
institutions. Now the United States has an opportunity to launch new 
collaborations that improve on existing initiatives. For example, in 
addition to R&D, international technology collaborations should also 
target industrial-scale demonstration projects that consolidate 
individual research projects and provide more scope for joint patent 
filings. Moreover, the funding and prioritization schemes should be 
even more flexible to adapt to changing needs.
    Given the scale of investment that will be directed at the energy 
sector in Asia in the coming decades, the U.S. Government should 
partner with the private sector to design and pilot a finance facility 
for clean energy technology projects in emerging markets. The goal of 
the facility would be to develop a self-sustaining, replicable and 
scalable fund that requires decreasing amounts of concessionary capital 
over time as the risks associated with investment in this space are 
better understood and quantified. In addition, conventional energy 
infrastructure has traditionally consisted of large, centralized fixed 
assets developed using well established project financing structures 
and instruments, while many of the most promising sources of clean 
energy are harnessed using smaller scale, distributed facilities. 
Therefore, the government should look to lay a key role in establishing 
and incentivizing means of capital aggregation for next generation 
distributed renewables and low carbon technologies. Such efforts can 
help to counter Chinese dominated investment in Asia's energy 
infrastructure.
    As existing multilateral agencies like the World Bank are moving 
away from financing polluting energy sources such as coal, China has 
emerged as an important alternative source of finance that has yet to 
enact strict lending guidelines on the environment, particularly in the 
context of its expansive Belt and Road Initiative. The U.S. should 
directly, bilaterally engage in expanded dialogue with China on how the 
two countries can work together to ensure that development finance 
institutions do not undermine global decarbonization efforts. Commonly 
agreed safeguards should be developed to promote green over brown 
investments, particularly in emerging and developing economies in the 
Indo-Pacific.


    Senator Gardner. Thank you, Dr. Lewis. And again, thank you 
all for your testimony today and the time you took to be here.
    I will begin with a 5-minute round of questions, if you do 
not mind.
    Mr. Currier, I know you are going to have to leave, so I 
will start with you.
    You mentioned a couple of, I think, very compelling 
statistics in your opening statement, that 35 percent of U.S. 
farm income is derived from selling agricultural products 
overseas. And if you look at the top exports from Colorado, 
throughout the top 10 exported items from Colorado, you will 
find agriculture at least in five or six of those different 
components, various sectors in agriculture.
    You also mentioned, though, that we have seen a 52 percent 
drop in farm income over the last 5 years.
    Commodity prices were low prior to the tariff imposition by 
the administration, but certainly the tariffs have not made it 
any easier or better or how to recover from those low commodity 
prices.
    Could you talk a little bit about the impact of tariffs on 
agriculture in Colorado or beyond?
    Mr. Currier. Yes. Thank you for the question, Senator 
Gardner.
    Tariffs have impacted the ability to market products to 
certain markets, specifically China. There is huge potential 
for markets in China. We have exported in the past a great deal 
of soybeans, a great deal of pork to the Chinese market.
    More importantly from my standpoint is the potential for 
further markets. We were just getting the market open to beef 
in China. Beef is the largest agricultural export market from 
Colorado. Really about two-thirds of our ag exports from 
Colorado are beef and hides from beef cattle. By limiting the 
ability to send those products to China, it is forcing us to 
look at other markets to find a place to sell those products. 
Without the Chinese market available, that limits our ability 
to reach out to that part of the world and to sell the products 
at a price that helps our prices. Because of that, beef prices 
have decreased significantly, about 15 percent in the last 3 
months.
    We would very much like to see all the markets opened that 
we can. The whole Indo-Pacific region is a huge area for 
potential. You know, one of the big areas we saw great 
increases in was Korea. I did not mention earlier, but after 
the improved Korea-U.S. trade package that was approved last 
year, our markets to Korea have really increased significantly. 
And we feel that that can happen in only Indo-Pacific markets 
if we have that open market and that level playing field where 
we can sell our product.
    As I said earlier, we understand the problems with China. 
You know, China was not playing fair, and that needs to be 
addressed. So as quickly as possible, if we can find ways to 
address that issue, we would like to be able to sell our beef 
and other products to all the Indo-Pacific markets, including 
China.
    Senator Gardner. Thank you, Mr. Currier.
    You talked about some of the challenges we face in trade 
and the tariffs and the price challenges. We have had some good 
news recently with the opening of Japan to U.S. beef. The Asia 
Reassurance Initiative Act sets out several different standards 
for pursuing multilateral and bilateral trade engagements.
    And you mentioned also in your comments the Korea-U.S. Free 
Trade Agreement that we entered into years ago and, of course, 
the renegotiated terms of this past year. And I think Colorado 
alone, that has added about 6,000 jobs to the State. Most of 
those jobs are in agriculture. And so we know the benefit of 
trade.
    Could you talk a little bit about what you think the impact 
of just opening Japan would be?
    Mr. Currier. I think Japan would be huge if we could get 
that totally open. By pulling out of the TPP agreement, it 
allowed Australia and New Zealand to have advantages from a 
tariff standpoint over American beef going into Japan. We very 
much would like to see some kind of bilateral agreement so that 
we can have a level playing field with Australia and New 
Zealand in selling our beef products to Japan. I think that is 
very doable, and we certainly hope that that can be done as 
quickly as possible.
    Japan, historically over the last 10 years, has been our 
number one market for export for beef. We are actually in a 
situation right now where Korea may pass it in the next year. 
Korea is increasing very rapidly, and the potential in Japan is 
huge. There is a very large population there, and they are 
learning to really like beef and we would like to provide that 
beef. I think American beef is better for them than Australian 
or New Zealand beef. So we want to be able to be in that 
market, and so whatever we can do to fully open that market.
    We are very thankful that Japan did this last week, agreed 
to buy beef from all cattle in the U.S. It was limited to those 
under 30 months. They have now opened it up so that all beef is 
eligible to send to Japan, and we hope we can get the tariff 
down to where we are on a level playing field with our 
competitors.
    Senator Gardner. Thank you, Mr. Currier.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Dr. Lewis, you stated that China's state-run banks, the 
China Development Bank and the China Export-Import Bank, may 
have provided somewhere between $75 billion and $125 billion in 
energy infrastructure financing within Asia. And you also 
mentioned that India, China, and Southeast Asia together 
account for 60 percent of the projected future energy demand 
globally through 2040.
    We also know from the International Finance Corporation the 
three key Southeast Asian countries, Indonesia, Vietnam, and 
the Philippines, all of which were singled out in the Gardner-
Markey ARIA legislation as key partners, together have climate-
smart business investment potential of over $1 trillion.
    Dr. Lewis, how important is the Indo-Pacific as a market 
for American companies especially in the areas of renewable 
energy, including energy infrastructure and services?
    Dr. Lewis. I think it is extremely important. As you have 
just laid out, this is already becoming the biggest market in 
the world, and all projections state that this is really where 
the future of energy demand lies. We see a lot of emerging 
Asian countries at an inflection point of deciding the 
direction that energy future is going to take. These are 
countries that are struggling with traditional environmental 
pollution problems, and clean energy, of course, is something 
that is helpful in many respects. It can bring a local economic 
development benefit. It can bring local jobs, and it can deal 
with environmental problems.
    Senator Markey. So to what degree can American companies 
play a role here in these Asian emerging marketplaces?
    Dr. Lewis. There are many technology areas in the clean 
energy space where American companies still provide world-class 
technologies and are leading the world. We see this across the 
renewable energy technology industries, and particularly in the 
skills that need to go along with building out these technology 
industries. So if these countries want to shift towards 
renewable energy, they cannot just immediately put in place 
solar panels. They need a lot of planning. They need the tools. 
They need the policy environment in place. And there is a lot 
of work going on in the United States to look at how to build 
these industries from the ground up. U.S. companies have the 
expertise still in many of the core clean energy technologies 
of the future, and energy storage is one I mentioned that is 
quite--
    Senator Markey. Energy storage is the center of opportunity 
for American companies?
    Dr. Lewis. Absolutely. This is still an area where we are 
leading. The two biggest markets right now are in the United 
States and China. And energy storage has a dual purpose of 
helping to integrate renewables in the grid. So it has power 
systems application, as well as--
    Senator Markey. Again just to come back to what you are 
saying, you are saying that China and the U.S. are in a 
competition on storage technologies and that these countries 
are going to be looking to someplace to purchase it. And 
ultimately it is going to be integrated into their electricity 
strategies in the years ahead. So it is a huge market opening 
for the United States.
    Dr. Lewis. And I think there are strengths that China has, 
there are strengths that the United States has. And there are a 
lot of Chinese companies right now that are really quickly 
expanding in this area, but they are struggling a lot from 
technology quality, from over-capacity in the industry. It is a 
very different innovation environment, of course, in China than 
the U.S. And so I think this is an area where we should really 
be moving much more quickly.
    Senator Markey. Section 306 of the Gardner-Market Asia 
Reassurance Initiative legislation requires the President to 
submit a strategy to encourage the efforts of Indo-Pacific 
countries to implement national power strategies in cooperation 
with United States energy companies and the Department of 
Energy national laboratories to develop an appropriate mix of 
power solutions.
    The reason is because we believe that doing so can provide 
access to sufficient, reliable, and affordable power to reduce 
poverty, drive economic growth and job creation, and to 
increase energy security in the Indo-Pacific region.
    Dr. Lewis, can you describe how the Department of Energy's 
national laboratories can help develop power solutions, 
especially in renewable energy for countries in the Indo-
Pacific?
    Dr. Lewis. Our national laboratories under the U.S. 
Department of Energy are some of the best in the world at 
providing energy technology solutions. I spent many years 
working at Lawrence Berkeley National Laboratory on clean 
energy technologies in China and around the world. The National 
Renewable Energy Laboratory also has a lot of expansive work in 
developing countries, in particular helping them to think 
through appropriate energy technologies and how to maximize low 
carbon development.
    There is a wide variety of tools, models, data analysis, 
which are extremely important aspects to understanding energy 
potential in these countries. And the national laboratories 
provide an extremely important role in technical cooperation in 
pushing forward the clean energy future that these countries 
would like to provide.
    Senator Markey. Beautiful.
    And I am just going to come back to your testimony and just 
say these words again because they are so staggering. ``Growing 
global energy demand will require significant investments in 
new energy infrastructure, and most of this investment will be 
renewable energy. Around $7.8 trillion is projected to be 
invested in renewable power worldwide through 2040 in 
technologies, including onshore and offshore wind, utility 
scale rooftop distributed solar, and hydropower. Renewable 
energy, in fact, comprises the bulks of the investment that is 
projected to be spent across the entire power sector.'' So that 
is just a staggering opportunity and something that we need a 
plan to capture before all these countries move on and are not 
including American technologies and workers in the solution.
    So I am looking forward to a second round. Thank you, Mr. 
Chairman.
    Senator Gardner. Thank you, Senator Markey.
    Mr. Currier, I know anytime now please feel free to be 
excused from the committee if you need to go catch that flight. 
So at any point. I do not think Senator Markey or I will be 
offended if you need to leave. So thank you very much for 
appearing here today.
    Mr. Goodman, I will come back to you with a couple of 
questions as well.
    Just to point out that according to the Asian Development 
Bank, Asian countries have signed 140 bilateral or regional 
trade agreements, and more than 75 more trade agreements with 
Asian countries are currently under negotiation or they are 
concluded and awaiting entry into enactment. In that time, 140 
plus 75 are in the works. Free trade agreements between the 
United States and three nations in the Indo-Pacific region have 
entered into force. We are woefully behind.
    And so if you look at the numbers that Mr. Currier pointed 
out in terms of the dollars that exports add to our 
agricultural industries, you look at the opportunities in 
trade, trillions of dollars in trade that occurs in these 
regions with three trade agreements that we are a part of. The 
Gardner-Markey ARIA legislation talks about that trade 
capacity. It directs the President to seek a United States-
ASEAN economic partnership, a comprehensive economic engagement 
framework with the Association of Southeast Asian Nations. It 
talks about trade capacity building, trade facilitation.
    If you were to talk to the U.S. Trade Representative today, 
their office would continue to say and state their opposition 
to the Trans-Pacific Partnership. Now, I have been a supporter 
of the Trans-Pacific Partnership and believe this is important, 
and I believe ARIA makes it very clear that Congress' firm 
position is to support the multilateral and bilateral trade 
engagements.
    One of the excuses that the U.S. Trade Representative has 
used against ARIA is to state that it would allow China to sell 
goods to a TPP nation that could then turn around and sell that 
good to the United States and undermine U.S. goods because of 
unfair subsidies or unfair practices of China that would be 
washed by the participating TPP nation and then sold in the 
United States. That is an excuse.
    So they would take this approach that if six of the 
countries or several of the countries in TPP already have a 
free trade agreement with the United States, Canada, Mexico, 
the United States, Australia, Korea--excuse me--some others, 
six of them. And then five of them are not involved in a trade 
agreement with the United States. Japan would represent, of 
those five, 95 percent of the economy.
    How would you respond to the U.S. Trade Representative with 
their approach?
    Mr. Goodman. Well, thank you, Senator, and I totally agree 
with your analysis of the problem that we are behind in this 
area and we are losing opportunities. I mean, to speak to Mr. 
Currier's concern about Japan, because we pulled out of the 
Trans-Pacific Partnership, Australia and New Zealand are paying 
27 and a half percent, I think, for beef. We are paying 38 and 
a half. And that number is dropping for them, and we are losing 
market share by the day.
    So we are losing opportunities today, and that is why I 
would say we need to get back in this game. And I just do not 
think there is any substitute for doing a broad regional 
agreement like TPP. It has three big elements of power in this 
agreement.
    One is the economic benefit like access to big markets like 
Japan's.
    Second is the strategic benefit of being embedded in this 
region and being a leader in the regional institution building 
and regional architecture of this critical region, Indo-
Pacific.
    And third, which gets to this point about possible Chinese 
working the system to get their advantage, it establishes 
economic rules and standards which countries like Japan, like 
Vietnam, like all the rest of the members here and ultimately 
others that get drawn in--there are a lot of people interested 
in joining the comprehensive partnership, the new CPTPP like 
Thailand and Indonesia and others that have expressed interest. 
You know, it establishes a set of rules on things like digital 
governance, on subsidies, on more broadly the role of the state 
and the economy on good regulatory practices, on a whole bunch 
of things that are American preferred standards and that play 
to our advantages. If we are not going to rejoin CPTPP, we need 
to have an alternative that draws people into this rulemaking 
process on our terms, and that will help deal with a lot of 
these efforts to try to circumvent the existing system.
    Senator Gardner. Thank you.
    And just to follow up on Japan, do we have any trade 
negotiations taking place right now outside of Japan? I know we 
do, but could you kind of give us where you think we are with 
some of these negotiations?
    Mr. Goodman. I think that we are so distracted by the China 
trade issue that we are not really focused even on Japan. I 
mean, we are going to meet this week. The President is going to 
Japan, and there will probably be some conversation about the 
bilateral U.S.-Japan deal. I do not think that is a high 
priority for USTR Lighthizer. I think he has got to deal with 
this China issue and probably rightly so. That is an enormous 
set of issues.
    In terms of other countries, I have heard talk of some 
conversations with the Philippines, maybe some conversations 
with Taiwan. That is complicated, but an important economy in 
the region. And then there is talk of the UK. I would not hold 
my breath on that. I think the UK has a lot of issues they have 
to go through.
    You know, these bilaterals are fine, but they are no 
substitute for the broader regional agreement that shows our 
leadership and establishes that firm position in our strategic 
position in the region and our rulemaking leadership.
    Senator Gardner. Could you spend a little bit of time 
explaining the importance of multilateral versus bilateral, 
just to lay that out?
    Mr. Goodman. Yes. I mean, in a narrow sense, if you think 
that sitting across the table from one country is going to get 
you advantage, I see the argument if it is purely sort of zero 
sum conversation. But in trade, it is much more complicated 
than that, and you have got a lot of different players with 
different things to ask for and to offer. And I think TPP was 
shown--and there has been sort of even regression analysis done 
about this--that the benefits of a plurilateral or even 
broader--I mean, a multilateral would be the best, but we have 
really, I think, concluded that that is not going to happen in 
the WTO in our lifetime.
    But these plurilateral agreements do bring multiple 
benefits. They provide an ability to get tradeoffs with 
different players, and I think they just have bigger economic 
bang for the buck and bigger strategic bang for the buck. So I 
think that is definitely the way we should be headed.
    Senator Gardner. Thank you, Mr. Goodman.
    Senator Markey?
    Senator Markey. Again, thank you, Mr. Chairman.
    Dr. Lewis, I want to come back to your report again just to 
read these staggering numbers, which you have included. And 
this goes to British Petroleum. British Petroleum projects that 
two-thirds of new power generation will come from renewables 
over the next 2 decades. Let me say that again. British 
Petroleum projects that two-thirds of new power generation will 
come from renewables over the next 2 decades.
    Quote: Developing countries committed $177 billion to 
renewables last year. $177 billion last year, up 20 percent 
from the prior year. This is even larger than the $103 billion 
in developed countries. So in developing countries, more money 
is being spent on renewables than in developed countries where 
investment was actually down 19 percent last year. Last year 
marked the largest shift towards renewable energy investments 
in developing countries that we have seen yet. In the Indo-
Pacific alone, investment totaled $168.9 billion.
    So that is an incredible market that is opening up, heading 
towards $7.8 trillion over the next 20 years. So if you are 
looking for a market, there it is. It is a growth market. And 
the price of renewables and battery storage technology are 
plummeting. They are making these other technologies less 
competitive because of the efficiency that the marketplace is 
driving with these technologies.
    So let me just continue with you, Dr. Lewis. Southeast 
Asia's energy demand is expected to grow by two-thirds by 2040, 
requiring a massive investment in new energy generation and 
transmission. These are challenges, but they are surmountable. 
Indonesia, the largest economy in Southeast Asia, comprises 
thousands of islands, over 900 of which are permanently 
inhabited. So power generation can be a significant problem, 
and central generators make less sense than other options.
    Dr. Lewis, how important is renewable energy in meeting 
21st century energy demands in that region? And which countries 
in the Indo-Pacific represent some of the greatest 
opportunities for growth?
    Dr. Lewis. Thank you for the question.
    As you have laid out, this is just a massive market with 
extreme potential for whoever is going to be providing these 
technologies and supplying the investment. And right now, the 
U.S. is leading in many of these technologies.
    Within the Indo-Pacific, right now, of course, China is the 
largest market in the world, but India is rapidly expanding its 
renewable energy use as well, especially in the solar energy 
industry. And we see Southeast Asia as the next up and coming 
source of demand.
    There has been a lot of focus on China, of course, in the 
last couple decades as it has really been the engine for growth 
in the clean energy space, as well in the fossil energy space. 
But if you look forward to the next 2 decades, the fastest 
growth rates are going to be in Southeast Asia.
    Senator Markey. So Indonesia. Just go down the list. Where 
are the opportunities?
    Dr. Lewis. Indonesia, Vietnam. Yes, it is the countries you 
mentioned, Indonesia, Vietnam, to some extent Thailand--
    Senator Markey. And how big will these markets become for 
renewables?
    Dr. Lewis. How big will the markets be?
    Senator Markey. How big will they become?
    Dr. Lewis. The projections are all over the place. A lot of 
these countries, as you mentioned, are still electrifying. So 
there is a lot of need to build out new energy systems. And I 
think the real question is what is that going to look like and 
what model are they going to take. Are they going to copy the 
model that China used and build out a coal-based energy system 
with large centralized power plants? It does not make sense 
often in these countries where you have not built out a full 
grid connection. You have the opportunity to leapfrog to more 
advanced distributed energy technologies that are also clean.
    Senator Markey. Right, yes. So countries like Vietnam are 
graduating from the United Nations least developed country 
status, meaning that they no longer qualify for certain 
assistance. Increasingly then, they are likely to look to 
countries like China to be their primary lender. And a recent 
report from the Center for American Progress states that, 
quote, the absence of U.S. leadership on climate is giving 
China wide leeway to set the standards by which the rest of the 
world is judging its actions.
    One has to look no further than the recent Belt and Road 
Forum to see indications that Xi Jinping is trying to fill what 
he sees as a vacuum in global leadership. According to that CAP 
report, the United States, quote, should push international 
lending institutions to form capacity building funds to help 
developing nations make the leap from low standard to high 
standard projects. These would include transitioning from high 
emission coal plants to cleaner energy technologies. 
Unfortunately, developing nations with high energy demand often 
seek coal plants based on outdated information about the cost 
difference between coal power and renewable energy. So the 
inexorable pressure of kind of intellectual investment already 
made in one approach blocks them from seeing that the renewable 
pathway is now less expensive and cleaner and ultimately more 
efficient for their country.
    So can you talk about that?
    Dr. Lewis. Yes. I think there are a couple of drivers 
behind the decisions that are made in these countries. Of 
course, when they are looking to develop these projects, they 
are looking for inexpensive technologies, inexpensive capital. 
But in this day and age, renewable energy provides some of the 
cheapest options for electricity particularly in remote areas, 
and so there is really no reason why these countries should be 
turning to coal plants even if China is offering them a good 
deal on a dismantled, outdated coal plant. Right?
    And I think the other part of this is that--
    Senator Markey. You are saying that China is breaking down 
its jalopy coal plants, putting them on ships, and sending them 
over to other Asian countries and reassembling coal plants that 
they are taking down. And these countries are just kind of 
getting sold kind of a used car with high mileage and low 
efficiency when they should be moving over here to something 
that is less expensive, cleaner, and better for their country 
in the long term.
    Dr. Lewis. Unfortunately, this is the dark side of leap-
frogging, whereas countries move to more advanced technologies, 
they often want to off-source the technologies they are no 
longer using because they still have a useful life, and they 
would like to cash in.
    In fact, the U.S. did this when China was looking for 
advanced vehicle technologies a few decades ago. We sold them 
our older technology as opposed to our state-of-the-art 
technology.
    But I think the thing to point out is that China is also 
exporting more solar panels around the world than any other 
country in the world. So it is not just a story of China 
exporting coal plants. They are playing an important role in 
all technologies, including clean energy.
    But the United States could be much more involved there 
because we are still leading in a lot of these technologies. 
And our bilateral engagement in the region has really dwindled 
in the last few years, and this is an important part of this, 
as well as our multilateral engagement.
    The Paris Agreement is not just about reducing climate 
change. It is about opening up new clean energy markets around 
the world. It is about assisting developing countries and 
thinking about their low carbon energy future. And the U.S. has 
led in helping shape this conversation for many years and can 
still play a very important role there.
    Senator Markey. Beautiful.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey.
    And, Dr. Lewis, I think a couple questions I have for you 
on this issue. Obviously, renewable energy opportunities are 
significant. Colorado, home to the National Renewable Energy 
Laboratory, has had a great number of partnerships with 
international organizations and nations around the globe to 
help further both understanding education, technical 
capabilities and capacity for renewable energy.
    When you look at sort of the barriers to entry, though, to 
China and others, renewable energy really faces the same kind 
of--renewable energy, I guess, goods or technologies from the 
United States faces the same kind of barriers in China as 
agriculture does or any other thing. Is that correct?
    Dr. Lewis. That is correct now. It was not true in the 
early stages. But now that China has developed several national 
champions in this industry, it is more of a protected market.
    Senator Gardner. And so as we focus on just how we are 
going to tear down barriers for intellectual property or at 
least make sure they are abiding by standards and norms that we 
would follow when it comes to intellectual property 
protections, when it comes to opening markets up for like 
agriculture, we need to focus on that for renewable energy 
goods as well.
    Dr. Lewis. Absolutely. In fact, a lot of our most 
successful bilateral clean energy engagement with China has had 
a strong intellectual property training component where if you 
are bringing together the national laboratories, whether it is 
NREL, LBNL, all the other ones that have been involved in 
working in China for many years, they have played a really 
important role in training researchers about intellectual 
property because it might surprise you--right-- that not every 
researcher in China is an expert in this, in the U.S. either. I 
have been part of training sessions with U.S.-Chinese 
partnerships where we actually bring in IP lawyers to talk to 
researchers in the national laboratories, look for where they 
see problems and how we can work through this. The U.S.-China 
Clean Energy Research Center was an excellent model of how this 
could work well.
    Of course, now China has innovative companies. Many of 
these companies domestically are pushing for stronger IP 
protections at home because China is a different place than it 
was a couple decades ago. And so you actually see pressure from 
the inside as well for China to have stronger IP protections.
    Senator Gardner. And, Dr. Lewis, you believe that the 
language in the Gardner-Markey bill that provides or creates 
the U.S.-Asia Energy Partnership program could be a tool for 
U.S. renewable energy opportunities in Asia.
    Dr. Lewis. I would hope that it would be, yes.
    Senator Gardner. I hope so too. So thank you.
    Mr. Goodman, a couple questions for you. With the trade war 
tariffs, escalation of tension between the U.S. and China as it 
relates to trade, how has that affected trade in perhaps ASEAN 
countries or other Asian nations? What is the sort of side 
effect of that trade war been and how has that affected our 
ability to increase capacities, trade opportunities there?
    Mr. Goodman. Well, everyone in the region is very worried 
about this trade war because it risks disrupting patterns of 
trade that have been established over the last 20-30 years in 
which there are elaborate supply chains across the region. 
Southeast Asia is very much central to that, and I think people 
are worried about disruption to, obviously, both of their 
biggest markets, but also to these patterns of supply chains.
    Now, some countries may benefit actually from some of this 
disruption. So, for example, Vietnam may be a beneficiary if 
these tariffs stick and American companies make a decision to 
move some of their production out of China and into Vietnam, 
for example. There are analyses that show that Vietnam could 
actually, on a net basis, be an economic beneficiary in that 
sense. But I am not sure the Vietnamese Government would say we 
would prefer that sort of outcome but also with tariffs and 
disruption of trade patterns and potential continued conflict 
between our two biggest trading partners to be the price of 
getting that additional investment.
    So there are mixed results, but it certainly provides an 
opportunity or it puts an accent on the importance of our 
resolving the trade problems with China, which are going to be 
very challenging because I think even if we get a deal--and I 
still believe we are going to get a deal because I think there 
are incentives for both presidents to try to come to the table. 
But everybody knows that is not going to solve the underlying 
problem. So we are going to have to keep working at these 
issues of subsidies, intellectual property, technology 
acquisition, and so forth.
    But meanwhile, we should be dealing with ASEAN. And I think 
it is great that you mentioned ASEAN in here. There are a 
couple of initiatives that are already on the table. The U.S.-
ASEAN Connect Initiative, which I think the Obama 
administration started late in its time and has been renewed by 
the Trump administration, looking at a bunch of areas, 
including energy cooperation. And then the Smart Cities 
Partnership. There is a U.S.-ASEAN Smart Cities Partnership 
that I mentioned in my written testimony where we are working 
with ASEAN countries to help them. You know, they have got a 
huge urbanization challenge, and helping them bring smart 
solutions to that is something that the U.S. can help with 
including, by the way, renewable energy solutions. So I think 
there is a lot of work to be done with ASEAN.
    ASEAN is a challenging place because it is 10 very diverse 
countries that do things in a very different way than we are 
sort of familiar with, but really powerful potential, a lot of 
people, a lot of economic growth opportunities.
    Senator Gardner. ARIA also has a very strong human rights, 
democracy, rule of law component to it, additional 
authorizations for funding for human rights issues. More and 
more attention is rightfully being given to the situation in 
Xinjiang in China as it relates to the treatment of Uyghurs and 
at least a million people who are in reeducation camps 
basically being held prisoners. And recent attention has also 
turned to U.S. companies that are manufacturing goods in that 
region that may be using labor from these camps as well.
    Could you talk a little bit about how ARIA can be used to 
help economically send a message to China that this kind of 
treatment and this kind of violation of human rights and basic 
dignity is unacceptable?
    Mr. Goodman. Well, first of all, the situation in Xinjiang 
is just appalling. Last week or the week before, there were 
back to back programs on the daily podcast the New York Times 
did, and if you listened to that, it is absolutely just 
unconscionable what is happening there. And it is something I 
think the U.S. needs to speak out on.
    I think the elements of ARIA that address the human rights 
and the values questions are really important, and I am glad 
that you included that in there.
    From an economic perspective, I think we want--it is one of 
the reasons that we should be engaging with China on trade and 
investment and other issues because I do think it is still true 
that if we can incentivize China to do the right things in 
economics on the rules and norms and standards of trade and 
economic activity, there is a correlation to their improved 
general behavior. I know that is not going to solve the problem 
by itself, but I do think it helps.
    So I think it is important that you have got both economic 
and values pillars to ARIA and should continue to find specific 
ways to implement those.
    Senator Gardner. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Again, Dr. Lewis, I want to keep coming back to you. This 
is very scary what you have in your testimony about electric 
vehicles. The goal of China, as they have stated, is 4.6 
million electric vehicles in 2020 with a goal to eventually ban 
any kind of traditional internal combustion engine.
    Now, again, that single policy in this huge market drives 
policy around the world, and every company in the world then 
starts to say, well, we have to start moving on this track as 
well. One Detroit publication states--this is from your 
testimony--the U.S. auto industry risks becoming an isolated 
technical backwater while China surges into the global lead in 
a technology its government has targeted as one where they want 
to be the leader in the 21st century. The market for electric 
vehicles, batteries, and other energy storage applications is 
massive, and the opportunities for American technology 
companies and investors is significant.
    So we see one country leading and another country not 
really even talking about what our plan is in order to capture 
this massive marketplace that is going to open up because of 
China's leadership.
    So what is your recommendation to the United States to deal 
with these issues?
    Dr. Lewis. Well, my main recommendation would be that our 
ability to lead in these technologies, to supply clean energy 
technology to Asia and the world starts at home. We have an 
innovation ecosystem that China envies, and we need to be much 
more strategic about where we are investing in clean energy 
innovation across the entire supply chain.
    We have very innovative programs like ARPA-E, Cyclotron 
Road, programs that look to incubate early stage innovative 
technologies. We could be much stronger in policies that 
support the deployment of clean energy at home because that is 
where our companies are going to be able to test their new 
innovative technologies and allow them to sell them around the 
world. You see U.S. companies often demonstrating their 
technologies in China and elsewhere because it is the biggest 
market and it is where they can often sell their technologies--
    Senator Markey. The administration is talking about rolling 
back the fuel economy standards in our country, which in my 
opinion might give too many American companies a sense of false 
security because they are only looking at this marketplace when 
they are not looking at this global marketplace that is opening 
up with high goals that are being set by China and other 
countries in the vehicles that people are going to buy in the 
21st century, not the 20th century. So that is a great concern 
to me.
    Mr. Goodman, when you look at these issues, these clean 
energy issues, these automotive issues and you look at, among 
other things, the intellectual property theft that goes on 
wholesale in China, could you talk to those issues in terms of 
what the long-term economic impact on our country will be?
    Mr. Goodman. Sure. Thank you, Mr. Senator.
    It is a really important set of issues. Joanna is much more 
the energy expert than I am, but if I could just make it a 
shameless piece of advertising.
    At CSIS, we have something called Reconnecting Asia, which 
is a database website on about 14,000 projects, infrastructure 
projects, across the Indo-Pacific and beyond. And we are 
increasingly focused on the energy story. So we are actually 
doing more work on that, including on renewable energy 
infrastructure. And so stay tuned because we are going to have 
some more thoughts on that over time.
    Senator Markey. Very important. Thank you.
    Mr. Goodman. Sorry. One other thought from the earlier 
conversation. Your capacity building efforts I think are really 
important and getting in there, as I mentioned even in my own 
oral testimony, the programs where we go in and we help 
countries understand what the costs and benefits of taking a 
Chinese jalopy versus a U.S.--or I would say U.S., Japanese, 
Australian. I mean, we should be working with partners who are 
also offering a good, solid Toyota Corolla. I think often we 
are seen as the Lexus provider, the high end, the really 
expensive provider. But there is a lot of technology we could 
provide that is solid and reliable and affordable that we 
should be trying to get in front of countries and help them 
understand--
    Senator Markey. We had a Cash for Clunkers program in the 
United States, but that was meant to take the clunkers off the 
road. Their program is these Asian countries will pay cash for 
the clunkers. It is almost like their junkyard is the other 
countries in Asia, which is crazy.
    Mr. Goodman. This is why I think it is so important to have 
our experts go in and try and explain the down sides of taking 
that kind of cheap option. But if we are not there and you got 
a choice--my colleague, Dan Runde, is very colorful about this. 
He said if you got a choice of a dirty coal project and no 
project to provide power or energy, you are going to take the 
dirty one. So we have got to be in the game.
    I am sorry. I have not answered your question. IP is a real 
problem, and it is a big and persistent problem. We need to 
keep working on it. I think the good news is, as Joanna alluded 
to, the Chinese I think actually at the central level 
understand this is a problem for them too because they have got 
technology too that they want to protect. They have a problem 
at local levels and in enforcement. But it is something we need 
to keep their feet to the fire on.
    Senator Markey. Thank you both very much. Excellent 
testimony.
    Senator Gardner. Thank you, Senator Markey.
    Our next hearing may be a cash for jalopies program or 
something like that. Power plants included.
    [Laughter.]
    Senator Gardner. Thank you very much. We unfortunately have 
to stop at 11:00 here. Thank you for attending today's hearing. 
I appreciate your time and testimony today. I appreciate Mr. 
Currier being here as well.
    For the information of all members, the record will remain 
open until the close of business on Thursday next week, 
including for members to submit questions for the record. I 
kindly ask the witnesses to respond as promptly as possible. 
Your responses will be made a part of the record.
    And thank you very much for your time and testimony today.
    The hearing is adjourned.
    [Whereupon, at 10:55 a.m., the hearing was adjourned.]



                              ----------                              




       ARIA (ASIA REASSURANCE INITIATIVE ACT) IN ACTION, PART 3:


                         Implementation and the



                         Indo-Pacific Strategy

                              ----------                              


                      WEDNESDAY, OCTOBER 16, 2019

                               U.S. Senate,
            Subcommittee on East Asia, the Pacific,
            and International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:13 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
chairman of the subcommittee, presiding.
    Members Present: Senators Gardner [presiding], Young, 
Johnson, Markey, and Coons.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to the fifth hearing of the Senate 
Foreign Relations Subcommittee on East Asia, the Pacific, and 
International Cybersecurity Policy in the 116th Congress.
    Today, we will hold our third hearing in the ARIA in Action 
series which will examine the implementation of the Asia 
Reassurance Initiative Act and the administration's Indo-
Pacific Strategy.
    We are privileged to have three Assistant Secretaries from 
the Department of State, the Department of Defense, and USAID 
before us today to provide testimony.
    I thank Senator Markey and the administration for the 
cooperation in making this hearing happen.
    As the Chinese Community Party celebrates 70 years of 
repression at home and is increasing its malign economic and 
military activities abroad, the challenge before us today is to 
successfully adjust U.S. policy to prepare for the era of 
strategic competition with a totalitarian near-peer adversary 
that seeks to displace the U.S. in the Indo-Pacific and to 
challenge U.S. primacy worldwide. We must not let the CCP shape 
the future uncontested. This is why, for the last several 
years, Senator Markey and I worked on the bipartisan Asia 
Reassurance Initiative Act, which was signed into law on 
December 31st, 2018. ARIA reaffirmed the United States 
commitment to our allies and partners in the Indo-Pacific and 
provided a generational blueprint for U.S. policy.
    ARIA authorizes an additional $10 billion over 5 years to 
enhance security cooperation, economic engagement, and 
reaffirms U.S. commitment to advance the fundamental values of 
human rights and the rule of law in the Indo-Pacific. ARIA 
incorporates and elaborates on the administration's Indo-
Pacific Strategy, a strategy that defined--is defined by the 
enduring United States commitment to uphold international law, 
to maintain an Indo-Pacific that is free of coercion, 
militarily, economic, or in violation of basic human rights and 
freedoms. ARIA has codified this vision of the free and open 
Indo-Pacific into U.S. law.
    Lastly, promoting democracy and human rights will be vital 
for the United States to succeed in the Indo-Pacific, and ARIA 
cements that in U.S. law. These values differentiate the United 
States from anyone, from any of the competition around the 
globe. These values are just and right, and they are certainly 
worth fighting for.
    The current events in Hong Kong are evidence of why ARIA is 
needed. As we are gathered here, millions of brave Hong Kongers 
have been out on the streets, for month after month after 
month, demonstrating for freedom--freedom from coercion, 
freedom from authoritarianism, and freedom to choose their 
future.
    That is why we need to fully implement ARIA and the Indo-
Pacific Strategy. The Senate Appropriations Committee recently 
took a good step forward by recommending $2.5 billion for ARIA 
implementation in their fiscal year 2020 legislation that is 
currently pending before the full Senate.
    I look forward to hearing from our distinguished witnesses 
on the implementation of ARIA over the last 10 months since it 
has been into law, greatly appreciate the witnesses' time, 
testimony, and service today.
    And, with that, I will turn it over to Senator Markey.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. Thank 
you for this hearing.
    I also want to thank our witnesses for being here today. It 
is incredibly important for the Senate Foreign Relations 
Committee to hear from administration officials, especially 
those responsible for implementing a wide range of key policies 
throughout the Indo-Pacific.
    Mr. Chairman, I also want to thank you for your partnership 
on the subcommittee, and your work on helping to pass the Asia 
Reassurance Initiative Act into law. You were just speaking 
about it.
    Our primary goal with that bill was to show that there is 
broad congressional support for a robust Asia policy, to show 
that developments in the Indo-Pacific have outsized importance 
for the future of the United States, to show that we, as a 
Nation, oppose coercion and that we respect the sovereignty of 
countries, that we recognize the importance of strong alliances 
and partnerships across the region, that we simultaneously 
recognize that, crucial as it may be, we have to actually show 
that peoples across the Indo-Pacific should enjoy fundamental 
rights and freedoms to which they are entitled, and to state 
unequivocally that it is the role of the United States to 
assert leadership in those roles, because if we do not advocate 
for these ideals, they will not take hold on their own. After 
all, we are witnessing a resurgence of authoritarian 
governments around the region. We see countries like China and 
North Korea advancing their respective weapons programs. We are 
concerned about violent extremism in Southeast Asia and the 
potential for ISIS fighters to return to the region from Syria. 
And we see challenges to the global rules-based order that has 
helped maintain peace and stability for decades.
    At the same time, we must resource a host of programs and 
initiatives that will move American Asia policy in the right 
direction. Failure to do so will undermine the norms, 
interests, and values we want to perpetuate, which is why I was 
shocked and disappointed to learn that President Trump abused 
the power of his office to urge the Government of Ukraine to 
insert itself into our democratic process, and I was shocked 
and disappointed to hear President Trump tell reporters at the 
White House that he wants the Chinese government to influence 
the election in his favor. This invitation for a foreign 
government to interfere in the American electoral process not 
only violates the oath of office of the President of the United 
States, but it also undermines the very values for which this 
country stands. It is concerning enough that a sitting 
President would invite interference from any foreign entity, 
but it is especially troubling when the request is made of a 
government activity undermining freedoms and rights around the 
world.
    It is plausible that President Xi interpreted this request 
as an opening to further threaten fundamental freedoms of 
expression, assembly, and the press, whether in Tibet, in Hong 
Kong, or any other place beyond. And such a signal could have 
significant implementations for the implementation of U.S. 
policy in Asia. It could undermine the objectives our 
professional diplomats, officials, and servicemembers are 
working hard to achieve. We have an obligation to push back 
against those Chinese government policies that are inimitable 
to our interests and our values. We must advocate for the 
Uyghurs facing repression and imprisonment. We must also 
support the tenets of freedom in Hong Kong. And we must promote 
the freedom of navigation in the East and South China Seas, as 
we do all over the world.
    So, let me be clear. Pushing back on China cannot be the 
rationale for everything the United States does in Asia. What 
makes diplomacy so difficult and so important is being able to 
deftly balance priorities. Pursuing stronger alliances and 
partnerships, and promoting human rights and democracy are not 
mutually exclusive. In fact, they are mutually reinforcing. We 
must think of the long-term effects of abandoning our 
principles.
    So, I thank you, Mr. Chairman. And I look forward to 
exploring, with our witnesses, how they are helping their 
respective departments push American Asian policy forward in 
the face of mounting challenges.
    Senator Gardner. Thank you, Senator Markey.
    And, to our witnesses today, thank you again for being 
here. I would ask that you kindly limit your testimony to 5 
minutes. I am going to be asking the members on the panel to do 
the same thing, to keep their questions within the 5-minute 
timeframe. We have a vote coming up at 4:15, and I want to make 
sure that we can get as many questions and as much back-and-
forth as possible throughout that time.
    Our first witness is The Honorable David Stilwell, who 
currently serves as the Assistant Secretary of State for East 
Asian and Pacific Affairs. Prior to his appointment as 
Assistant Secretary on June 20th, just a couple of months ago, 
he served in the Air Force for 35 years, beginning as an 
enlisted Korean linguist in 1980, and retiring in 2015, in the 
rank of brigadier general, as the Asia Advisor to the Chairman 
of the Joint Chiefs.
    Secretary Stilwell, thank you very much for your service. 
Honored to welcome you to the subcommittee.
    Our next witness will be The Honorable Randall Schriver--
Randy Schriver, who currently serves as Assistant Secretary of 
Defense for Indo-Pacific Security Affairs. Previously, Mr. 
Schriver served as Deputy Assistant Secretary of State for East 
Asian and Pacific Affairs. He was a--he was responsible for 
China, Taiwan, Mongolia, Hong Kong, Australia, New Zealand, and 
the Pacific Islands. From 2001 to 2003, he served as Chief of 
Staff and Senior Policy Advisor to the Deputy Secretary of 
State. Secretary Schriver testified before this subcommittee in 
the 115th Congress on May 15th, 2018, at our third hearing 
dedicated to developing the ARIA legislation.
    Delighted to have you back. Thank you very much for being 
here.
    And our final witness today is The Honorable Gloria Steele, 
who serves as Acting Assistant Administrator for Asia at the 
United States Agency for International Development, or USAID. 
In this capacity, she oversees USAID's operations in 30 
countries in Asia, which in 2018 had an annual budget of over 
$1.3 billion. Prior to this assignment, she served as USAID's 
Mission Director for the Philippines, the Pacific Islands, and 
Mongolia, with a program budget of over $500 million, from 2010 
to 2015. Secretary Steele previously testified before this 
subcommittee on December 4th, 2018, in our third hearing of the 
China Challenge series dedicated to democracy and human rights.
    So, welcome back, to you, as well.
    Look forward to hearing from all of you.
    Mr. Stilwell--excuse me--Secretary Stilwell, you may begin.

 HON. DAVID R. STILWELL, ASSISTANT SECRETARY OF STATE FOR EAST 
     ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Stilwell. Thank you, Senator.
    Senator Gardner. members of the subcommittee, thank you for 
the opportunity to discuss U.S. policy in the Indo-Pacific 
region and the implementation of ARIA.
    I would like to thank Senator Gardner and Senator Markey 
for championing ARIA, and the whole subcommittee for its work 
to advance U.S. interests in the Indo-Pacific.
    Pleased to be here today with the Assistant Secretary of 
Defense, Randy Schriver, and Assistant Administrator Steele, 
who are crucial partners, and who we coordinate with 
extensively.
    ARIA advances a comprehensive and principled implementation 
of our vision for a free and open Indo-Pacific. It reaffirms 
our longstanding commitment to support our allies and partners 
and deter adversaries in the region. It advances U.S. 
leadership in promoting peace and security, economic 
prosperity, and respect for human rights and fundamental 
freedoms.
    With the support of ARIA our Indo-Pacific approach 
recognizes the region's central role in American foreign 
policy, as highlighted in the President's National Security 
Strategy. ``Free and open Indo-Pacific'' means a region built 
on common principles that have benefited all countries in the 
region, including respect for the sovereignty and independence 
of all nations, regardless of size.
    In FY 2018, State Department and USAID allocated over 2.5 
billion in foreign assistance and diplomatic engagement funds 
toward the Indo-Pacific region. Consistent with ARIA, our 
programs seek to unlock private-sector investment, improve 
defense capacity and resiliency of partners, promote regular 
bilateral and multilateral engagement, support good governance, 
and encourage responsible natural resource management. ARIA 
mandated executive-branch reports on a range of important 
issues. EAP is proud to have submitted to Congress, on time, 
the reports assigned to it, including reports on North Korea, 
ASEAN, and the Lower Mekong Initiative.
    I recently returned from a productive trip to the UNGA, 
where, while there, U.S., Canada, Germany, Netherlands, and the 
United Kingdom cohosted a panel on human rights crisis in 
Xinjiang. We underlined our continuing demand that Beijing 
reverse its highly repressive policies in Xinjiang, and we 
listened to brave Uyghur survivors of detention and other 
abuses as they shared their deeply painful experiences.
    On October 7th, the Commerce Department placed export 
restrictions on 28 PRC entities for ties to repression in 
Xinjiang. And October 8th, the State Department announced visa 
restrictions on responsible Chinese government and Communist 
Party officials.
    Next visit to the region, coming up in a week, will include 
Indo-Pacific Business Forum on the sidelines of the East Asia 
Summit in Bangkok on November 4th. Shortly thereafter, we will 
be at the Asia-Pacific Economic Cooperation Forum, working with 
partners to break down trade barriers for companies to boost 
exports and support job growth.
    We have seized on ARIA's call to advance U.S. economic 
interests in the Indo-Pacific. We are advancing high standards 
and transparency in all investments and projects, advancing 
free, fair, reciprocal trade. Our interagency Infrastructure 
Transaction and Assistance Network, ITAN, optimizes U.S. 
development, finance, and assistance tools to catalyze private-
sector investment. The new U.S. Development Finance Corporation 
will further these efforts, thanks to the 2018 BUILD Act.
    Asia EDGE is our whole-of-government approach to support 
private investment in energy markets. In August, we announced 
our intent to provide an initial $29.5 million to support 
Mekong countries' energy security and access to the U.S.-Japan 
Mekong Power Partnership.
    The Digital Connectivity and Cybersecurity Partnership 
supports secure and reliable Internet and ICT development, 
enabling nations to realize the tremendous economic benefits of 
the digital economy. This month, we completed the U.S.-Japan 
Digital Trade Agreement, which will boost the already 
approximately 40 billion worth of digital trade between the 
U.S. and Japan.
    On the security front, in line with ARIA's objectives, we 
seek to build a flexible, robust network of like-minded 
security partners. Secretary Pompeo committed an additional 300 
million in security assistance in 2018.
    In the South China Sea, Beijing is bullying its neighbors 
in a manner consistent with the statement of Beijing's then-
Foreign Minister in the 2010 ASEAN Summit that said, ``China is 
a big country, and all other countries are small countries. And 
that is just a fact.'' This notion that ``might makes right'' 
is a threat to sovereignty, peace, dignity, and prosperity in 
the world's most dynamic region.
    PRC maritime claims in the South China Sea, exemplified by 
the preposterous Nine-Dash Line, are both unlawful and 
unreasonable. And these claims, which are both without historic 
legal or geographic merit, and pose real costs in other 
countries.
    With respect to Taiwan, we have repeatedly expressed our 
concern over Beijing's bullying actions, economic pressure, 
constraints on Taiwan's international space, and poaching of 
its diplomatic partners. These actions undermine the cross-
strait status quo that has benefited both sides of the straits 
for decades.
    Through the American Institute of Taiwan, we recently held 
the inaugural U.S.-Taiwan consultations on democratic 
governance in the Indo-Pacific. The--on October 7th in Taipei, 
the United States and Taiwan launched a new U.S.-Taiwan-Pacific 
Islands dialogue to better coordinate aid and help prevent 
Taiwan's diplomatic allies from falling victim to Beijing's 
debt-trap development inducements.
    In Hong Kong, we believe that freedoms of expression and 
peaceful assembly must be vigorously protected. We continue to 
urge Beijing to uphold its commitments. And, as President Trump 
said at the United Nations, ``The world fully expects that the 
Chinese government will honor its binding treaty, made with the 
British and registered with the United Nations, in which China 
commits to protect Hong Kong's freedom, legal system, and 
democratic ways of life.''
    We strongly concur with ARIA's finding that promotion of 
human rights and respect for democratic values in the Indo-
Pacific is the United States national interest. Our Indo-
Pacific Transparency Initiative, with more than 200 programs 
worth over 600 million since the beginning of the Trump 
administration, focuses on fiscal transparency, anticorruption, 
democracy assistance, youth development, and fundamental 
freedoms and human rights.
    Thank you for offering this opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Stilwell follows:]


                Prepared Statement of David R. Stilwell

    Senator Gardner and members of the subcommittee, thank you for the 
opportunity to appear before you to discuss U.S. policy in the Indo-
Pacific region and implementation of the Asia Reassurance Initiative 
Act of 2018, or ARIA. I would like to thank Senator Gardner, as well as 
Senator Cardin and other co-sponsors, for their leadership in 
introducing and championing ARIA, and to express my appreciation for 
the work of the entire Subcommittee in advancing U.S. interests by 
supporting engagement across the Indo-Pacific region.
                aria and u.s. policy in the indo-pacific
    Secretary Pompeo expressed his deep appreciation earlier this year 
for the strong bipartisan support that led to the passage of ARIA. He 
voiced our belief that ARIA implements a comprehensive, multifaceted, 
and principled U.S. policy to advance our vision for a free and open 
Indo-Pacific--a vision we share with allies and partners worldwide. 
ARIA reaffirms our longstanding commitment to support our allies and 
partners and deter adversaries in the region. It advances U.S. 
leadership in promoting peace and security, advancing economic 
prosperity, and promoting respect for human rights and fundamental 
freedoms.
    With the support of ARIA, we continue to implement a whole-of-
government effort to advance a free and open Indo-Pacific. Our approach 
recognizes the region's global importance and central role in American 
foreign policy, as underscored by the President's National Security 
Strategy. Our vision for a free and open Indo-Pacific is built on 
common principles that have benefited all countries in the region, 
including respect for the sovereignty and independence of all nations, 
regardless of their size.
    We have a fundamental interest in ensuring that the future of the 
Indo-Pacific is one of freedom and openness rather than coercion and 
corruption. The United States is the largest source of foreign direct 
investment in the Indo-Pacific. We conducted over $1.9 trillion in two-
way trade with the region in 2018. Several of our non-NATO bilateral 
defense alliances are in the IndoPacific. More than two-thirds of 
international students currently in the United States are from the 
Indo-Pacific, more than double the number from the rest of the world 
combined.
    This approach champions the values that underpin the rules-based 
order and promote strong, stable, democratic, and prosperous sovereign 
states. We know that market economies, open investment environments, 
free, fair, and reciprocal trade, good governance and respect for human 
rights are crucial for the region's prosperity. We defend and promote 
freedom of the seas in accordance with international law. We are 
building new partnerships with countries and institutions that share 
our commitment to an international system based on clear and 
transparent rules.
    In FY 2018, the State Department and USAID allocated over $2.5 
billion in foreign assistance and diplomatic engagement funds toward 
the Indo-Pacific Region.\1\ While this amount is higher than the $1.5 
billion authorized in ARIA annually for fiscal years 2020 through 2023, 
our IndoPacific allocations also include funding for efforts authorized 
in bills other than ARIA, such as law enforcement programs. Consistent 
with key provisions in ARIA, a wide range of our programs seek to 
unlock private sector investment throughout the Indo-Pacific, improve 
defense capacity and resiliency of partners, promote regular bilateral 
and multilateral engagement, support good governance, and encourage 
responsible natural resource management.
---------------------------------------------------------------------------
    \1\ The FY 2019 allocations are not yet final.
---------------------------------------------------------------------------
    In my few months as Assistant Secretary, I have been grateful to 
see how closely our efforts align with bipartisan views in Congress, as 
reflected in ARIA, the BUILD Act, and many other pieces of legislation, 
public statements, travel, and other efforts by lawmakers. We benefit 
greatly in the region from the strong and consistent voices from across 
the U.S. government in support of the norms and values our approach 
represents.
    EAP is proud to have submitted to Congress on time the reports 
assigned to it. These reports include: the Strategy to Address the 
Threats Posed by, and the Capabilities of, the Democratic People's 
Republic of Korea; the Strategic Framework for Engagement with ASEAN; 
and progress on the Lower Mekong Initiative. We work closely with other 
bureaus of the Department and with interagency partners as they draft 
reports on their responsibilities, and I look forward to continuing to 
share information with Congress as we progress on implementation of 
ARIA and the Indo-Pacific Strategy.
    As ARIA recognizes, our alliances with Japan, the Republic of 
Korea, the Philippines, Thailand, and Australia have helped sustain 
regional peace and prosperity for generations. ASEAN, which is at the 
literal center of the Indo-Pacific and is central to our vision, 
recently released its Outlook on the Indo-Pacific, recognizing shared 
values as essential for regional stability and development. We are 
expanding our partnership with India as it elevates its economic, 
security, and cultural role in the region. We continue to strengthen 
and deepen our relationship with Taiwan, consistent with the Taiwan 
Relations Act and other important legislation. And we are joining with 
the Mekong states, the Pacific Island countries, and many multi-lateral 
organizations to face emerging challenges.
    I recently returned from a productive trip to the United Nations 
General Assembly, where I joined Secretary Pompeo in deepening our 
commitment to the region. In meetings with counterparts, we advanced 
cooperation on good governance and security issues, and deepened 
economic ties based on free, fair, and reciprocal trade and 
transparent, market-based investments.
    On the sidelines of the U.N. General Assembly, I joined Deputy 
Secretary of State John Sullivan and co-sponsors Canada, Germany, the 
Netherlands, and the United Kingdom to hold a panel discussion on the 
human rights crisis in Xinjiang. We underlined our continuing demand 
that Beijing reverse its highly repressive policies in Xinjiang. We 
listened to brave survivors of detention and other abuses in Xinjiang 
share their deeply painful experiences, so that the world cannot 
continue denying the truth about the assault on religious freedom in 
the People's Republic of China. I encourage everyone to listen to the 
testimony of Uighurs such as Zumuret Dawut, Nury Turkel, and Rishat 
Abbas, who spoke that day. I also note that on October 7 the Commerce 
Department placed export restrictions on 28 People's Republic of China 
entities for ties to repression in Xinjiang, and on October 8 the State 
Department announced visa restrictions on responsible Chinese 
government and Communist Party officials.
    My next visit to the region begins later this month and will 
include the Indo-Pacific Business Forum, on the sidelines of the East 
Asia Summit in Bangkok on November 4. Co-sponsored by the governments 
of the United States and Thailand, the Indo-Pacific Business Forum is 
the premier U.S.-sponsored business event in the region for 2019, 
elevating our economic and commercial engagement, especially in the 
areas of infrastructure, energy, and digital economy. The Forum will 
reinforce the benefits of partnering with the dynamic U.S. private 
sector and the importance of high standard development, transparency, 
and the rule of law. Later in November, we will work closely with our 
partners in the region to break down trade barriers for companies, 
boost exports, and support job growth at the Asia-Pacific Economic 
Cooperation (APEC) forum, the premier economic forum in the region.
          aria and u.s. security interests in the indo-pacific
    In line with ARIA's objective ``to improve the defense capacity and 
resiliency of partner nations to resist coercion and deter and defend 
against security threats,'' we seek to build a flexible, robust network 
of like-minded security partners. Together we promote regional 
stability, ensure freedom of navigation, overflight, and other lawful 
uses of the sea, and address other shared challenges in the region.
    Last year, Secretary Pompeo committed an additional $300 million in 
security assistance to improve maritime domain awareness, maritime 
security capabilities, information sharing, humanitarian assistance and 
disaster relief, and peacekeeping capabilities. In addition to 
implementing this assistance, we launched a new program in August to 
counter transnational crime along the Mekong, and we recently conducted 
the first-ever U.S.-ASEAN maritime security exercise. We have also seen 
progress in our relationship with India, both bilaterally and through 
the Quadrilateral Consultations with Japan and Australia.
    While we have made significant progress in reinforcing and 
advancing the free and open order in the Indo-Pacific region, we 
recognize that some are actively seeking to challenge and supplant this 
order. We are committed to working with any country that plays by the 
rules, but we will also stand up to any country that uses predatory 
practices to undermine or replace them.
    As the President's National Security Strategy makes clear, we are 
especially concerned by Beijing's use of market-distorting economic 
inducements and penalties, influence operations, and intimidation to 
persuade other states to heed its political and security agenda. The 
Chinese Communist Party's pursuit of a repressive alternative vision 
for the Indo-Pacific seeks to reorder the region in its favor and has 
put Beijing in a position of strategic competition with all who seek to 
preserve a free and open order of sovereign nations within a rules-
based order.
Maritime Security
    As stated in ARIA, ``the core tenets of the United States-backed 
international system are being challenged.by China's illegal 
construction and militarization of artificial features in the South 
China Sea.'' PRC actions in the South China Sea are a threat not only 
to South China Sea claimant states, or to Southeast Asian nations 
generally, but to all trading nations and all who value freedom of the 
seas and the peaceful settlement of disputes.
    The manner in which Beijing has bullied its neighbors is consistent 
with the statement of Beijing's then-foreign minister at the 2010 ASEAN 
Regional Forum that ``China is a big country and other countries are 
small countries, and that's just a fact.'' This notion that might makes 
right, and that the big will do what as they will while the small 
suffer what they must, is a threat to sovereignty, peace, dignity, and 
prosperity in the world's most dynamic region.
    PRC maritime claims in the South China Sea, exemplified by the 
preposterous nine-dashed line, are both unlawful and unreasonable. 
These claims, which are without legal, historic, or geographic merit, 
impose real costs on other countries. Through repeated provocative 
actions to assert the nine-dashed line, Beijing is inhibiting ASEAN 
members from accessing over $2.5 trillion in recoverable energy 
reserves, while contributing to instability and the risk of conflict.
    We remain skeptical of the PRC's sincerity to negotiate a 
meaningful Code of Conduct that reinforces international law. While 
claiming that they are committed to peaceful diplomacy, the reality is 
that Chinese leaders--through the PLA navy, law enforcement agencies, 
and maritime militia--continue to intimidate and bully other countries. 
Their constant harassment of
    Vietnamese assets around Vanguard Bank is a case in point. If it is 
used by the PRC to legitimize its egregious behavior and unlawful 
maritime claims, and to evade the commitments Beijing signed up to 
under international law, a Code of Conduct would be harmful to the 
region, and to all who value freedom of the seas.
    As ARIA emphasizes, it is the policy of the United States to ensure 
freedom of navigation, overflight, and other lawful uses of the sea. We 
work with Indo-Pacific allies and partners to conduct joint maritime 
training and operations to maintain free and open access, and we have 
welcomed historic firsts in that regard.
    We participated in the first joint sail by U.S., Indian, Japanese, 
and Philippine navies through the South China Sea in May 2019. We 
hosted the first U.S.-ASEAN maritime exercise in September 2019, 
building on the expansion of the Southeast Asia Maritime Law 
Enforcement Initiative (SEAMLEI) in 2018. Along with the daily 
operations of U.S. ships and aircraft throughout the region, we 
conducted more Freedom of Navigation Operations in the South China Sea 
in 2019 than in any of the past 25 years, to demonstrate that the 
United States will continue to fly, sail, and operate wherever 
international law allows.
    At a meeting in New York on September 23, President Trump and 
Singapore's Prime Minister Lee Hsien Loong signed the latest update to 
the 1990 memorandum of understanding regarding U.S. use of facilities 
in Singapore. This agreement allows continued U.S. military access to 
Singapore's air and naval bases and provides logistic support for 
transiting personnel, aircraft and vessels. The agreement extends the 
original MOU for an additional 15 years, reflecting Singapore's ongoing 
support for U.S. military presence which has underpinned the peace, 
stability and prosperity of the Indo-Pacific region for decades.
Quadrilateral Consultations
    ARIA rightly emphasizes the importance of the Quadrilateral 
Consultations (involving the United States, Australia, India, and 
Japan) to augment the numerous bilateral and trilateral arrangements 
that support the U.S. Indo-Pacific Strategy and strengthen the region's 
ASEAN-led multilateral architecture.
    On September 26 in New York, Secretary Pompeo hosted the first ever 
Ministerial-level meeting with the foreign ministers of Australia, 
India, and Japan to discuss collective efforts to advance a free and 
open Indo-Pacific. This ``Quad'' meeting reaffirmed our countries' 
shared commitment to close cooperation on maritime security, quality 
infrastructure, and regional connectivity in support of a rules-based 
order that promotes stability, growth, and economic prosperity.
Taiwan
    Consistent with ARIA and other legislation, we have repeatedly 
expressed our concern over Beijing's actions to bully Taiwan through 
economic pressure, constraints on its international space, and poaching 
of its diplomatic partners. These actions undermine the cross-Strait 
status quo that has benefitted both sides of the Strait for decades.
    Through the American Institute in Taiwan, we recently held the 
inaugural U.S.-Taiwan Consultations on Democratic Governance in the 
Indo-Pacific, to explore ways to prevent election interference and 
promote adherence to the rule of law in the region. This builds upon 
the success of the Global Cooperation and Training Framework, jointly 
sponsored by the United States and Taiwan, which has convened experts 
from over 30 nations from the Indo-Pacific and beyond to forge 
solutions to make our societies healthier, safer, and more democratic.
    On October 7 in Taipei, the United States and Taiwan launched a new 
U.S.-Taiwan Pacific Islands Dialogue. In accordance with the Taiwan 
Travel Act, Sandra Oudkirk, the Deputy Assistant Secretary for 
Australia, New Zealand and the Pacific, led the U.S. delegation. The 
United States, Taiwan, and major donors in the Pacific identified ways 
to better coordinate aid and help prevent Taiwan's remaining diplomatic 
allies in the Pacific from taking on unsustainable and opaque debt from 
China.
    The United States has an abiding interest in peace and stability 
across the Taiwan Strait. The United States has--for decades-supported 
Taiwan's ability to maintain a sufficient self-defense capability, as 
required in the Taiwan Relations Act. We will continue to support an 
effective deterrent capability for Taiwan that is, as ARIA states, 
``tailored to meet the existing and likely future threats from the 
People's Republic of China.''
    U.S. arms sales to Taiwan and its 23 million people are informed by 
the Taiwan Relations Act and based solely on continuing assessments of 
Taiwan's defense needs. While some claim that U.S. arms sales to Taiwan 
contravene the 1982 U.S.-China Joint Communique that mentions the 
gradual reduction of arms sales to Taiwan, recently declassified 
documents pertaining to this socalled ``Third Communique'' clearly 
illuminate President Reagan's intent. As President Reagan wrote on 
August 17, 1982: ``In short, the U.S. willingness to reduce its arms 
sales to Taiwan is conditioned absolutely upon the continued commitment 
of China to the peaceful solution of the Taiwan-PRC differences. . . . 
In addition, it is essential that the quality and quantity of the arms 
provided Taiwan be conditioned entirely on the threat posed by the 
PRC.'' To meet those needs, in 2019 alone, this administration approved 
and notified Congress of potential sales of more than $10 billion of 
equipment to preserve peace and stability in the Taiwan Strait.
North Korea
    ARIA calls for ``pursuing a peaceful denuclearization of the 
Democratic People's Republic of Korea through a policy of maximum 
pressure and engagement,'' which is the approach we are taking. The 
United States remains ready to resume constructive discussions with 
North Korea on each of the four pillars of the Singapore Joint 
Statement. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. That includes transforming the U.S.-DPRK relationship, 
establishing a lasting and stable peace on the Korean Peninsula, 
complete denuclearization, and making progress on the recovery of 
remains.
    As President Trump has said, sanctions remain in effect. Relevant 
U.N. Security Council resolutions remain in full effect, and U.N. 
Member States are bound by the obligations they impose. We also call on 
countries around the world to continue to take action to combat 
sanctions evasion.
Republic of Korea-Japan Relations
    Our steadfast alliances with Japan and the Republic of Korea have 
enabled decades of peace, prosperity, and development throughout the 
Indo-Pacific. Both key allies are committed to maintaining a free and 
open Indo-Pacific and to pursuing denuclearization of the Korean 
Peninsula. In line with ARIA, we work to deepen the trilateral security 
cooperation between us, including in missile defense, intelligence-
sharing, and other defense-related initiatives.
    Recent challenges in the relationship, stemming from historical 
grievances and trade and security-related actions, have created an 
increasingly unsafe and unstable security environment in Northeast 
Asia. We have repeatedly expressed our concern with South Korea's 
decision to terminate the General Security of Military Information 
Agreement (GSOMIA) with Japan. The value of arrangements such as GSOMIA 
to U.S., South Korean, Japanese, and regional security was underscored 
again recently with North Korea's Oct. 2 missile launches.
    While our position has been that we will not serve as a mediator 
between our two allies, this certainly has not precluded extensive 
engagement. We have been meeting frequently in both bilateral and 
trilateral settings to deliver clear messages to both sides and seek 
mutually agreeable solutions. We trust that our allies will prioritize 
our collective strategic interests, as they have in the past.
Cybersecurity
    In line with the ARIA's finding that there ``should be robust 
cybersecurity cooperation between the United States and nations in the 
Indo-Pacific region,'' the United States is increasing its support to 
partners to help defend their networks from cyber threats that 
undermine our mutual economic and security interests.
    These efforts help counter malicious cyber activities by North 
Korea, China, cyber criminals, and other state and non-state cyber 
actors that seek to steal money, intellectual property, and other 
sensitive information. The United States also coordinates with 
likeminded Indo-Pacific partners-such as Japan, India, Australia, and 
Republic of Korea-to build cyber capacity in the region, share best 
practices, and strengthen the resilience of critical infrastructure.
          aria and u.s. economic interests in the indo-pacific
    We have seized on ARIA's call to ``work with partners to build a 
network of states dedicated to free markets and protected from forces 
that would subvert their sovereignty.'' We are advancing high standards 
and transparency in all investments and projects, and advancing free, 
fair, and reciprocal trade. Our economic initiatives help countries in 
the region use private sector investment as the path to sustainable 
development. We encourage innovation and reinforce that all parties 
must respect intellectual property rights.
Infrastructure and Investment
    The United States supports the development of infrastructure in the 
Indo-Pacific region that is physically secure, financially viable, and 
socially responsible. The interagency Infrastructure Transaction and 
Assistance Network (ITAN) optimizes U.S. development finance and 
assistance tools to catalyze private sector investment.
    Since its launch in July 2018, ITAN has enhanced transparent legal 
and procedural frameworks for overseeing complex infrastructure 
projects in Southeast and South Asia. In addition, USAID has increased 
support to the Philippines' infrastructure development strategy, 
advised Vietnam on its Power Development Plan and attracting private 
sector investment, and improved public financial management in the 
Maldives. ITAN also launched the Transaction Advisory Fund (TAF) on 
September 16. The TAF helps partners assess major infrastructure 
projects by supporting transaction advisory services, including 
contract negotiation and bid or proposal evaluation.
    The new U.S. International Development Finance Corporation (DFC) 
will further these efforts, thanks to the 2018 passage of the BUILD 
Act. By doubling the U.S. government's development financing capacity 
to $60 billion and enabling equity investments and feasibility studies, 
the BUILD Act empowers the DFC to advance private-sector-led 
development for projects that are quality, transparent, and financially 
viable.
Energy
    In line with ARIA's exhortation to ``explore opportunities to 
partner with the private sector and multilateral institutions, such as 
the World Bank and the Asian Development Bank, to promote universal 
access to reliable electricity in the Indo-Pacific region,'' we are 
pushing forward on energy cooperation with friends and allies across 
the region.
    Energy demand in South and Southeast Asia is projected to grow 
drastically by 2040, and meeting this growth will be critical to 
security and economic development in the region. The Indo-Pacific 
accounts for nearly 30 percent of all U.S. energy exports and totaled 
more than $50 billion in 2018. The United States uses its energy 
resources and technological expertise to promote energy security and 
access across the Indo-Pacific region, expand opportunities for U.S. 
exports of energy and related services and technology, and work with 
partners to set transparent, market-based energy policies.
    Asia EDGE (Enhancing Development and Growth through Energy) is a 
U.S. whole-ofgovernment effort to meet these goals and catalyze private 
sector investment in energy markets. Since its launch, Asia EDGE has 
facilitated U.S. private investment in Vietnam's energy sector, 
including a U.S. company's natural gas-fired power plant and liquefied 
natural gas (LNG) import terminal. In August 2019, the United States 
announced its intent to provide an initial $29.5 million to support 
Mekong countries' pursuit of energy security and their citizens' 
reliable access to electricity in line with the U.S-Japan Mekong Power 
Partnership.
Digital Economy
    The Digital Connectivity and Cybersecurity Partnership is a multi-
year, whole of government effort to promote an open, interoperable, 
secure, and reliable Internet. By catalyzing economically sustainable 
and secure private sector network investments, promoting regulatory 
reforms, and encouraging adoption of cyber security best practices, 
this initiative will provide a credible alternative to top-down, 
authoritarian approaches to internet and ICT development and enable 
nations to realize the tremendous economic benefits of the digital 
economy.
    ASEAN is the world's fastest growing internet region, and DCCP 
includes several ASEANfocused programs, such as support for e-commerce 
and digital services in the ASEAN Economic Community and technical 
assistance for policy makers from ASEAN member states. We are advancing 
the U.S.-ASEAN Smart Cities Partnership. The capstone of our ASEAN 
engagement was the first U.S.-ASEAN Cyber Policy Dialogue in Singapore 
in October 2019.
    Also, the USTR negotiated a United States-Japan Digital Trade 
Agreement, which was signed this month. The United States-Japan Digital 
Trade Agreement includes high-standard provisions that address key 
digital trade issues and meets the same gold standard on digital trade 
rules that was set by President Trump's landmark United States-Mexico-
Canada Agreement (USMCA). This agreement will boost the already 
approximately $40 billion worth of digital trade between the U.S. and 
Japan.
Multilateral Engagement
    As highlighted in our ARIA reports on the Lower Mekong Initiative 
and our Strategic Framework for Engagement with ASEAN, multilateral 
engagement is vital to our vision for the Indo-Pacific. ASEAN is most 
effective when it speaks with one voice about pressing political and 
security issues. It took an important step in this regard with the June 
2019 release of its ``Outlook on the Indo-Pacific,'' which articulates 
an inclusive vision for a rules-based order. The United States supports 
ASEAN's efforts to ensure that all Indo-Pacific countries, regardless 
of their size, have a proper stake in determining the future of the 
region.
    The United States is one of 21 member economies in the Asia-Pacific 
Economic Cooperation (APEC) forum for facilitating economic growth, 
cooperation, trade and investment in the AsiaPacific region. We also 
continue to take an active role in the Lower Mekong Initiative, 
especially to increase engagement on issues such as the environment, 
health, education, and infrastructure development.
                aria and u.s. values in the indo-pacific
    The United States is a champion of civil society, the rule of law, 
and transparent and accountable governance across the region. We concur 
with ARIA's finding that ``the promotion of human rights and respect 
for democratic values in the Indo-Pacific region is in the United 
States' national security interest,'' and we work to advance these 
objectives across the region.
    We seek to build capacity for good governance and adherence to 
international law, rules, and standards. We are implementing governance 
programs under our whole-of-government IndoPacific Transparency 
Initiative and identifying new areas of cooperation with likeminded 
partners. These efforts strengthen civil society and democratic 
institutions in the region, counter corruption, and help countries 
attract the high-quality financing necessary for sustainable economic 
development. In addition, in line with ARIA, we work to establish high-
level bilateral and regional dialogues with Indo-Pacific nations on 
human rights and religious freedom, while supporting robust people-to-
people exchange programs.
    Among current issues affecting the region, Secretary Pompeo has 
pressed Burma to create conditions conducive to provide for the safe, 
voluntary, dignified, and sustainable repatriation return of displaced 
Rohingya. We are galvanizing international pressure on the People's 
Republic of China to halt its repression of Uighurs, ethnic Kazakhs, 
Kyrgyz, and members of other Muslim minority groups in Xinjiang, and we 
insist that the selection of religious leaders by the Tibetan community 
be free of interference by the Chinese Communist Party. With respect to 
Cambodia, we have been vocal that the government should re-open 
political space and permit genuine political competition to strengthen 
and support democratic institutions.
Hong Kong
    In Hong Kong, we believe that the freedoms of expression and 
peaceful assembly-core values that we share with the people of Hong 
Kong-must be vigorously protected. We continue to urge Beijing to 
uphold its commitments under the Sino-British Joint Declaration to 
respect Hong Kong's high degree of autonomy.
    As President Trump said at the United Nations General Assembly, 
``As we endeavor to stabilize our relationship [with Beijing], we're 
also carefully monitoring the situation in Hong Kong. The world fully 
expects that the Chinese government will honor its binding treaty, made 
with the British and registered with the United Nations, in which China 
commits to protect Hong Kong's freedom, legal system, and democratic 
ways of life. How China chooses to handle the situation will say a 
great deal about its role in the world in the future. We are all 
counting on President Xi as a great leader.''
Transparency Initiative
    In November 2018, Vice President Pence announced the Indo-Pacific 
Transparency Initiative to empower the region's citizens, combat 
corruption, and build resilience to foreign influence operations that 
threaten nations' sovereignty. Over 200 programs, worth more than $600 
million since the beginning of the Trump administration, focus on anti-
corruption and fiscal transparency, democracy assistance, youth 
development, freedom of expression, including for journalists, and 
other fundamental freedoms and human rights.
    The U.S. Government uses all available tools-including sanctions 
under the Global Magnitsky Human Rights Accountability and the Foreign 
Corrupt Practices Acts, visa restrictions, and other means-to punish 
and deter those who engage in serious human rights abuse and corruption 
abroad. These tools also hold U.S. companies accountable to high 
standards of transparency and ethical behavior in all engagements 
across the Indo-Pacific region and globally.
Human Capital
    Human capital development underpins all our engagement throughout 
the Indo-Pacific. To implement youth initiatives outlined in ARIA, the 
United States has supported more than 5,000 emerging regional leaders 
in Young Southeast Asian Leaders Initiative (YSEALI) exchange programs 
or regional training workshops on topics such as sustainable 
infrastructure, good governance, and entrepreneurship since 2013. In 
addition, the Young Pacific Leaders program has forged strong ties with 
emerging leaders across 19 Pacific nations.
    As Secretary Pompeo said in Bangkok in August: In addition to 
investing over generations in official alliances, partnerships and 
multilateral institutions across the Indo-Pacific, the United States 
has also, importantly, ``invested in your human capital. Our 
educational programs and universities have nurtured thousands of Asian 
leaders for decades, from local leaders to heads of state. And some of 
our most important ambassadors--private businesses--grew alongside you 
to our mutual benefit.''
    These remarks captured a fundamental but often overlooked aspect of 
U.S. international engagement: Our government, education sector, and 
private sector all do significant work, both together and separately, 
to invest in talent and to help nurture the future of our foreign 
partners. This is seen in a range of areas, from U.S. firms training 
local engineers in growing markets, to official U.S. government efforts 
to promote education, entrepreneurship, economic empowerment, 
leadership, and health. Congressional support for such programs is 
longstanding, and we will be expanding our emphasis on these going 
forward.
    As always, though, we must be cautious as we pursue some kinds of 
international exchange. We welcome the large numbers of Chinese 
students and scholars who come to the United States to study, research, 
and learn with their American peers. But they must not be pressured by 
the People's Republic of China to engage in activities beyond the scope 
of legitimate academic pursuits. Coercion of even a single Chinese 
student or scholar in the United States is unacceptable.
    President Xi Jinping has set forth an ambitious national strategy 
to break down all barriers between the civilian and military 
technological spheres by ``fusing'' the defense and civilian industrial 
bases through what Chinese officials call ``military-civil fusion.'' 
This strategy prioritizes developing or acquiring advanced technology 
that is useful militarily, either for the modernization of the People's 
Liberation Army or for other domestic purposes, such as general 
surveillance or the particularly egregious repression seen in Xinjiang. 
The acquisition of technology needed for military-civil fusion occurs 
both via legitimate means, such as joint research and development with 
foreign firms or collaboration with foreign universities, but also via 
illicit means, through theft and espionage that must be countered. (I 
addressed these issues in a speech on Sept. 28.)
    I would like again to thank Senator Gardner and this subcommittee 
for your efforts to advance U.S. interests and values in the Indo-
Pacific region. I truly believe that by working together, in a whole-
of-government effort, we can ensure the security, prosperity, and 
success of the United States and the peoples and countries of the Indo-
Pacific. I look forward to answering your questions and working with 
you and your staffs further on these issues.


    Senator Gardner. Well done, Secretary Stilwell. Thank you. 
And at--your extensive comments will be made a part of the 
record. Thank you very much for that.
    Secretary Schriver.

 STATEMENT OF HON. RANDALL G. SCHRIVER, ASSISTANT SECRETARY OF 
 DEFENSE FOR INDO-PACIFIC SECURITY AFFAIRS, U.S. DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Schriver. Good afternoon, Mr. Chairman, Ranking Member 
Markey, Senator Coons. Thank you for allowing DOD to 
participate in this hearing and talk about our approach to the 
Indo-Pacific and how we are pursuing implementation of our 
strategy and ARIA.
    As we work to develop and implement a strategy to secure a 
free and open Indo-Pacific, we are certainly aided by the 
strong bipartisan support of Congress, including the passage of 
ARIA. ARIA provides a comprehensive set of national security 
and economic policies to achieve our interests, and does indeed 
reassure our allies while helping to deter our adversaries in 
the Indo-Pacific.
    In DOD's Indo-Pacific Strategy Report, or IPSR, we state 
clearly, quote, ``The Indo-Pacific is the Department of 
Defense's priority theater. We have an enduring commitment to 
uphold a free and open Indo-Pacific in which all nations, large 
and small, are secure in their sovereignty and able to pursue 
economic growth consistent with international rules, norms, and 
principles of fair competition.''
    This free and open Indo-Pacific vision that is also 
enshrined in ARIA is based on enduring and widely-shared 
principles, including respect for sovereignty and independence 
of all nations, no matter their size, peaceful resolution of 
disputes, free, fair, and reciprocal trade and investment, and 
adherence to international rules and norms, including freedom 
of navigation and overflight.
    The Department is making this vision a reality, along with 
our interagency colleagues, by focusing on our investments on 
preparedness, strengthening our allies and partnerships, and 
empowering a regional security network.
    First, when we talk about preparedness, we mean investing 
in a more lethal, resilient, agile, and combat-effective Indo-
Pacific force posture appropriate for great-power competition. 
Thus, we are increasing investments in contested domains, like 
space and cyber, while preserving our advantages in undersea 
warfare, tactical aircraft, C4ISR, and missile defense.
    Second, with respect to our alliances and partnerships, we 
are both reinforcing established alliances, such as those with 
Japan and Australia, as well as expanding relationships with 
new and emerging partners, such as India, Vietnam, and 
Indonesia. We are also enhancing our engagement in areas where 
China is seeking to compete more vigorously, such as in the 
Pacific Islands.
    And third, the Department is taking steps to promote, 
strengthen, and evolve U.S. alliances and partnerships into a 
networked security architecture capable of deterring 
aggression, maintaining stability, and ensuring free access to 
common domains. Augmenting our system of bilateral alliances 
with a more interconnected region among countries that seek a 
free and open Indo-Pacific enhances our ability to compete 
effectively.
    Finally, our approach to the region and our strategy to 
maintain a free and open Indo-Pacific region accounts for our 
relationship with China. Although the United States will 
continue to pursue a constructive, results-oriented 
relationship with China, we will not accept policies or actions 
that threaten to undermine the international rules-based order. 
ARIA is a significant tool for us, and it allows us to stand up 
for, and defend, that order. And allow--and although we are 
committed to cooperating with China where our interests align, 
we will compete vigorously where our interests diverge.
    China's approach, under the leadership of Chairman Xi and 
the CCP, demonstrated by both words and deeds, stands in 
contrast to our vision for a free and open Indo-Pacific. And 
some of its activities seek to undermine principles that have 
benefited all nations. We are competing with China because CCP 
leaders have, themselves, assessed they are in competition with 
us, both our ideas and our capabilities, and they are 
developing their own capabilities designed to erode our 
advantages. Globally, Chairman Xi and the CCP seek to shape a 
world consistent with its authoritarian model and national 
goals. We see the CCP using its growing clout to change the 
behavior of other countries, realigning them with Chinese 
preferences through persuasion and, at times, coercion.
    All of this does matter, because if the CCP were to be 
successful and its authoritarian approach were to become 
ascendant, the world could look quite different. Indo-Pacific 
states will find that they have less control of their futures 
and their economies. The regional institutions may become less 
independent and, therefore, less effective. Freedom of seas and 
overflights in the Indo-Pacific may no longer be free. And we 
could also see a diminished respect for individual and human 
rights, as the CCP would seek to normalize its domestic 
repression and protection of human rights violators elsewhere, 
such as in Burma. All of this portends a less free and less 
open and more unstable Indo-Pacific, and high potential for 
these trends to manifest on a global scale.
    A competitive strategy with China is not meant to lead to 
conflict. While we compete vigorously with China, our military-
to-military contacts are aimed at reducing risk and promoting 
international norms and standards. We remain committed to this 
vital region. We are encouraged by the leadership of this 
Congress and the bipartisan support of ARIA. And we look 
forward to continuing to work with you on the implementation of 
our Indo-Pacific Strategy.
    Thank you. And look forward to your questions.
    [The prepared statement of Mr. Schriver follows:]


                 Prepared Statement of Randall Schriver

    Good afternoon Chairman Gardner, Ranking Member Markey, and members 
of the committee. Thank you for this opportunity to update you on the 
Department of Defense's approach to the Indo-Pacific region and support 
to implementation of the Administration's Indo-Pacific strategy and the 
Asia Reassurance Initiative Act (ARIA). I would also like to take this 
opportunity to thank Assistant Secretary David Stilwell and Assistant 
Administrator Gloria Steele for their remarks. Our interagency efforts 
to develop the U.S. strategy and approach to the Indo-Pacific region 
have been an excellent example of interagency focus and cooperation. As 
we've worked to develop and implement a strategy that demonstrates the 
U.S. commitment to a free and open Indo-Pacific region, we have been 
aided in our efforts by bipartisan support from Congress. I'd like to 
commend this committee's efforts to support the passage of ARIA, which 
informs our whole-of-government approach to the region.
    The ARIA demonstrates the U.S. commitment to a free and open Indo-
Pacific, providing a comprehensive set of national security and 
economic policies to advance U.S. interests and goals in this critical 
region. Most importantly, the ARIA reassures our allies and deters our 
adversaries in the Indo-Pacific through promoting U.S. security 
interests, economic engagement, and values in the region. The 
Department of Defense is intently focused on supporting implementation 
of the ARIA and a broader, whole-of-government approach to the crucial 
Indo-Pacific region. The Department has been consistent in this 
approach, where Secretary Esper, and Secretary Mattis before him, have 
emphasized the Indo-Pacific as the priority theater, a point of view 
reflected in our National Defense Strategy (NDS) and in our robust 
engagement with the region.
    The Department has articulated its role within this whole-of-
government approach for the region through the Indo-Pacific Strategy 
Report (IPSR) released in June, coinciding with the Shangri-La 
Dialogue. This report is not a new strategy, but rather provides 
clarity on the NDS as it applies to the Indo-Pacific. As stated 
unambiguously in the report, "The Indo-Pacific is the Department of 
Defense's priority theater. We have an enduring commitment to uphold a 
free and open IndoPacific in which all nations, large and small, are 
secure in their sovereignty and able to pursue economic growth 
consistent with international rules, norms, and principles of fair 
competition.''
    This free and open Indo-Pacific vision that is also enshrined in 
the ARIA is one that is based on principles of cooperation that are 
enduring, inclusive, and shared across the region and the world. This 
includes respect for sovereignty and independence of all nations, large 
and small; peaceful resolution of disputes; free, fair, and reciprocal 
trade and investment, which includes protections for intellectual 
property; and adherence to international rules and norms, including 
freedom of navigation and overflight. The Department is making this 
vision a reality by focusing our investments on preparedness, 
strengthening our alliances and partnerships, and empowering a regional 
security network.
    First, when we talk about preparedness, we mean having the right 
capabilities in the right places to respond to crises, and to compete 
with and deter near-peer competitors. The Department, alongside our 
allies and partners, is diversifying our regional posture and investing 
in a more lethal, resilient, agile, and combat-effective Indo-Pacific 
force posture. We are increasing investments in contested domains like 
space and cyber, while preserving our advantages in undersea warfare, 
tactical aircraft, C4ISR, and missile defense to ensure the commons 
remain open to all in the Indo-Pacific. While we do not seek conflict, 
we know that having the capability to win wars is the best way to deter 
them. We want to ensure no adversary believes it can successfully 
achieve political objectives through military force.
    A central theme of the NDS, and one that is predominantly reflected 
in both the Indo-Pacific strategy and the ARIA, is our focus on our 
alliances and partnerships. We are reinforcing our commitment to 
established alliances and partnerships, while expanding relationships 
with new partners that share respect for sovereignty, fair and 
reciprocal trade, and rule of law. We are committed to working with 
allies and partners to find ways to address common challenges, enhance 
shared capabilities, increase defense investment and improve 
interoperability, streamline information sharing, and build networks of 
capable and like-minded partners. Our mutually beneficial alliances and 
partnerships give a durable, asymmetric advantage that no competitor 
can match.
    The Department is expanding collaborative planning and prioritizing 
requests for U.S. military equipment sales to deepen interoperability 
and training for high-end combat missions in alliance, bilateral, and 
multilateral exercises. The Department is looking to strengthen 
traditional close relationships with countries like Japan through 
integrating our NDS implementation with Japan's National Defense 
Program Guidelines, important emerging relationships with countries 
like India through implementing its Major Defense Partner status and 
Singapore through increased access and training opportunities, and 
emerging partnerships with countries like Indonesia and Vietnam. U.S. 
Navy forces tested interoperability, command and control, and key 
maritime security tasks with the ten ASEAN Member States during the 
first-ever ASEAN-U.S. Maritime Exercise in September. The Department is 
also enhancing our engagement in the Pacific Islands to preserve a free 
and open Indo-Pacific region, maintain access, and promote our status 
as a security partner of choice.
    Beyond the Indo-Pacific, the Department is engaging allies and 
partners--as seen by recent senior leader engagements to Europe and the 
Middle East, for example. China and others recognize U.S. advantages, 
and are actively working to disrupt America's alliances and 
partnerships in Europe, the Middle East, and the Indo-Pacific. They 
also understand those advantages because they see them in action 
through initiatives like the Enforcement Coordination Cell in Yokosuka, 
Japan, a command center including representatives from the Republic of 
Korea, Australia, Canada, New Zealand, the United Kingdom, Japan, and 
France which are committed to enforcing U.N. Security Council 
Resolutions that prohibit North Korea's ability to unlawfully export 
coal and import refined petroleum in the maritime domain.
    The Department also conducts routine freedom of navigation and 
other presence operations in the South China Sea (SCS), also strongly 
promoted in the ARIA, in which we are increasingly enjoying the 
participation and support of partners and allies. This has been 
particularly important in responding to steps Beijing has taken to 
militarize outposts in the SCS, where we want to make the investment 
China has made to operationalize an expansive and unlawful maritime 
claim as insignificant as possible. The Department continues to 
implement the Maritime Security Initiative (MSI), which has boosted key 
Southeast Asian partners' abilities to conduct maritime security and 
domain awareness operations.
    Finally, the Department is taking steps to promote, strengthen, and 
evolve U.S. alliances and partnerships into a networked security 
architecture capable of deterring aggression, maintaining stability, 
and ensuring free access to common domains. From our tri-lateral 
relationships with Australia, Japan, and South Korea, to our work with 
Thailand co-organizing last month's ASEAN-U.S. Maritime Exercise, we 
are augmenting our bilateral relationships and building an 
interconnected Indo-Pacific.
    The United States continues to support ASEAN centrality, as it 
``speaks with one voice'' to promote a rules-based international order 
and maintain a region free from coercion. In fact, the IPSR aligns with 
ASEAN's Indo-Pacific Outlook, spearheaded by Indonesia, which 
emphasizes ASEAN centrality and promotes regional cooperation through 
existing ASEAN-led mechanisms. The United States and ASEAN share common 
values, and ASEAN is a key partner in promoting the values and policies 
enshrined in the IPSR. As ASEAN nations support one another to maintain 
the freedom, sovereignty, and territorial integrity of countries within 
the region, this cohesion strengthens ASEAN's voice.
    A critical part of our engagement is meaningful work with various 
ASEAN-based institutions.From the East Asia Summit to the ASEAN 
Regional Forum and ASEAN Defense Ministers' Meeting-Plus and 
subordinate mechanisms, we seek to advance peace and security by 
working with ASEAN and partners across the region against common 
threats--including transnational crime, trafficking, terrorism, and 
maritime security. A particular focus is addressing ASEAN countries' 
desire to better share information with one another and to enhance 
regional maritime domain awareness. The Department also continues to 
cultivate intra-Asian security relationships that support common 
goals--whether maritime security, counter-terrorism, or 
counterproliferation--across shared domains and in defense of shared 
principles.
    As we strengthen our alliances and partnerships we are also taking 
the steps necessary to improve our military readiness and capabilities 
to reassure our allies and deter potential adversaries, complementing 
the substantive U.S. resource commitments provided by the ARIA. Strong 
deterrence is at the foundation of our regional, and indeed, our global 
approach, and Secretary Esper is clear in his emphasis on the 
Department's role in supporting our diplomats so they can engage and 
negotiate from a position of strength.
    Given the long-term, consequential nature of the Indo-Pacific 
region to U.S. national security and emerging threats to the region's 
stability, the Department is sustaining its focus on the region in 
Fiscal Year (FY) 2020. The FY 2020 defense budget continues to execute 
the NDS by reprioritizing resources and shifting investments to prepare 
for a potential future, high-end fight. It also focuses on 
strengthening our alliances and attracting new partners to generate 
decisive and sustained military advantages in the Indo-Pacific through 
enhancing cooperation with allies such as Australia, Japan, and the 
Republic of Korea through ongoing engagements, their procurement of 
high-end U.S. platforms, and working with each to build missile defense 
systems that are increasingly interoperable with U.S. capabilities.
    Finally, our approach to the region and our strategy to maintain a 
free and open Indo-Pacific region accounts for our relationship with 
China. China should and does have a voice in shaping the international 
system, as do all countries. However, in recent years, we have grown 
concerned by Beijing's strategic intentions and trajectory, including 
some activities in the region that we view as destabilizing and 
counterproductive-in the SCS, for example. Although the United States 
will continue to pursue a constructive, results-oriented relationship 
with China, we will not accept policies or actions that threaten to 
undermine a free and open Indo-Pacific that has benefited everyone in 
the region, including China. The ARIA is a significant tool that allows 
us to stand up for and defend that order, and we will encourage others 
to do the same; and although we are committed to welcoming cooperation 
from China where our interests align, we will compete, vigorously, 
where our interests diverge.
    Beijing's approach--demonstrated by both words and deeds--stands in 
contrast to our vision for a free and open Indo-Pacific, and some of 
its activities seek to undermine principles that have benefited all 
nations, including China. We had patiently hoped the Communist Party of 
China would see the value of cooperative engagement, but the its 
actions in Hong Kong, Xinjiang, the SCS and elsewhere have dashed that 
hope. We are competing with China because Chinese leaders have assessed 
that they are in competition with us--both our ideas and our 
capabilities--and they are developing capabilities designed to erode 
our advantages. Globally, Beijing seeks to shape a world consistent 
with its authoritarian model and national goals. We see China using its 
growing clout to change the behavior of other countries, realigning 
them with the Communist Party of China's preferences through 
persuasion, implication, and at times coercion. We see the domestic 
governance of the Communist Party of China rule as increasingly 
authoritarian where human rights and dignity are concerned. China has 
begun exporting tools such as facial recognition software and 
nationwide surveillance capabilities of all aspects of a person's life.
    A competitive strategy with China is not meant to lead us to 
conflict. For the United States, competition does not mean 
confrontation, containment, nor must it lead to conflict. We seek to 
maintain competition as a stable deterrent that avoids conflict. While 
we compete vigorously with China, our military-to-military contacts are 
aimed at reducing risk and promoting international norms and standards. 
We will cooperate with China where our interests align while competing 
within a rules-based framework where our interests diverge. That said, 
the United States will continue to call out China's behaviors that are 
counter to the norms expected of all countries.
    Our vision for the Indo-Pacific region excludes no nation. We seek 
to partner with all nations that respect national sovereignty, fair and 
reciprocal trade, and the rule of law. Although we accept that States 
will make some decisions that are not in our interests, we recognize 
that for the Indo-Pacific region to flourish, each nation in the region 
must be free to determine its own course within a system of values that 
ensures opportunity for even the smallest countries to thrive, free 
from the dictates of the strong. Our aim is for all nations to live in 
prosperity, security, and liberty, free from coercion and able to 
choose their own path.
    The United States is a Pacific nation and has been one for 
centuries. We will remain committed to maintaining the security and 
stability in this all-important region. This is a view that has 
transcended political transitions and has maintained strong bipartisan 
support. During my tenure as Assistant Secretary, I have been 
encouraged by the leadership demonstrated by Congress and the 
bipartisan support for prioritizing the Indo-Pacific. I look forward to 
working with you on the specific measures you propose to enhance U.S. 
leadership in the Indo-Pacific region, like implementation of the ARIA.
    Chairman Gardner, Ranking Member Markey, members of the committee, 
thank you for the opportunity to testify this afternoon. I look forward 
to your questions.


    Senator Gardner. Thank you, Secretary Schriver.
    Secretary Steele.

     STATEMENT OF HON. GLORIA D. STEELE, ACTING ASSISTANT 
     ADMINISTRATOR FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                  DEVELOPMENT, WASHINGTON, DC

    Ms. Steele. Chairman Gardner, Ranking Member Markey, 
Senator Coons, thank you for inviting me to testify today.
    As ARIA underscores, strong American leadership is needed 
to ensure that an international system rooted in the rule of 
law endures. In fiscal year 2018, USAID programmed roughly $1.2 
billion in assistance funds to the Indo-Pacific region. This 
assistance helps USAID to advance the Administration's Indo-
Pacific Strategy. It is also key to USAID's ability to project 
strong American leadership on development priorities that 
advance U.S. economic and national security interests, which 
are at the heart of ARIA.
    To advance the Indo-Pacific Strategy, USAID focuses on 
three objectives. One, strengthening democratic systems. Two, 
fostering private-sector-led economic growth. And three, 
improving natural resources management. The President's fiscal 
year 2020 budget request includes $534 million for USAID to 
drive this objective forward, a 114-percent increase over his 
fiscal year 2019 request.
    USAID's objectives to advance the Indo-Pacific Strategy go 
hand-in-hand with our efforts to improve the lives and well-
being of the people across Asia by increasing their self-
reliance. These efforts include our health and education 
programming, which are foundational for the creation of a free, 
open, and secure Indo-Pacific region. Accordingly, the fiscal 
year 2020 budget request includes $230 million for health, 
education, and food assistance in the Indo-Pacific region.
    Within USAID's three Indo-Pacific objectives, we are 
sharply focused on countering the immediate- and medium-term 
effects of malign influences that contest our progress towards 
a free, open, and secure Indo-Pacific region. To maximize our 
impact, we are closely monitoring and evaluating our 
development programs; taking a leading role in whole-of-U.S.-
Government initiatives; coordinating with like-minded donor 
partners, including Australia, Japan, New Zealand, and the 
Republic of Korea; and exploring potential collaboration with 
Taiwan. In line with ARIA, USAID is also contributing to 
efforts to strengthen the United States' strategic partnership 
with India, an emerging regional and global leader in 
development.
    On our first objective of strengthening democratic systems, 
we have achieved some notable progress to date. In Indonesia, 
for example, thanks to USAID's advocacy and assistance, the 
number of people from marginalized communities who have been 
able to seek legal aid have increased tenfold from 2017 to 
2018. This contributed to expanded access to justice for the 
most vulnerable.
    On fostering economic growth in Vietnam, we are building 
upon our past successes in improving the enabling environment 
for trade. We recently launched a new program that will help 
reduce the time and cost of trading with Vietnam, and increase 
Vietnam's ability to mitigate the inappropriate transshipment 
of Chinese goods to Vietnam to avoid U.S. tariffs.
    On improving natural resources management, we are promoting 
the application of international environmental and social 
safeguards for infrastructure development. In the Lower Mekong 
region, for example, we are gearing up to launch an interactive 
website that will enable decision makers and advocates to 
visually map the negative impacts of sub-par infrastructure 
approaches. We are also combating transnational environmental 
crime. In partnership with INTERPOL, USAID is helping to 
dismantle cross-continental syndicates that traffic in elephant 
ivory and pangolin.
    We are accelerating the region's energy transformation 
through a number of activities, including a recently launched 
partnership with the Asian Development Bank, which aims to 
mobilize $7 billion in energy investments in Asia.
    At USAID, our ultimate goal is for our partner countries to 
progress from being aid recipients to partners to fellow 
donors. We call this, the path of getting there, the ``Journey 
to Self-Reliance,'' and it focuses on increasing the capacity 
and commitment of partner countries to drive their own 
development. USAID's mission to advance self-reliance mutually 
reinforces our focus on the Indo-Pacific Strategy. In order to 
advance our partner countries' self-reliance that is inclusive 
and sustainable over generations, we prioritize achieving gains 
in health and education. For example, in Burma, which has the 
highest malaria burden in the Greater Mekong region, USAID 
assistance contributed to an 82-percent decline in malaria 
cases from 2012 to 2017. In Cambodia, we have strengthened 
early-grade reading by helping the Ministry of Education ensure 
that services and policies are more inclusive and responsive to 
the needs of children, especially those with disabilities.
    Across the Indo-Pacific region, we are also supporting 
programs that increase women's access to capital and land. With 
USAID's support, for example, a new investment bond aimed at 
raising $100 million to bolster women's livelihoods through 
micro and small loans will soon hit the Singapore stock 
exchange.
    In closing, I would like to thank the committee for its 
leadership on ARIA, which sends a strong message of the United 
States' enduring commitment to the region. We greatly 
appreciate the strong congressional support for USAID's work in 
advancing partner-country self-reliance in a free, open, and 
secure Indo-Pacific region.
    Thank you. And I look forward to your counsel and 
questions.
    [The prepared statement of Ms. Steele follows:]


                  Prepared Statement of Gloria Steele

    Chairman Gardner, Ranking Member Markey, and distinguished Members 
of the subcommittee: Thank you for inviting me to testify on the vital 
role the United States Agency for International Development (USAID) 
plays in advancing the Administration's Indo-Pacific Strategy (IPS) and 
the Asia Reassurance Initiative Act of 2018 (ARIA). In Fiscal Year (FY) 
2018, USAID programmed $1.236 billion in appropriated and reprogrammed 
development assistance to the Indo-Pacific region. I would like to 
thank the Committee for its leadership on ARIA, which, in setting a 
long-term strategic vision and a comprehensive, multifaceted, and 
principled United States policy for the Indo-Pacific region, sends a 
strong signal of bipartisan Congressional support for the IPS.
    As both the IPS and ARIA emphasize, it is essential to our own 
prosperity and security for the Indo-Pacific region to be free and 
open. The Indo-Pacific region is home to the world's fastest-growing 
markets and offers unprecedented potential to strengthen the U.S. 
economy while improving lives in Asia and around the world. Yet, the 
region's continued growth--and the ability of U.S. companies to compete 
in the Indo-Pacific region freely and fairly faces deficits in citizen-
responsive governance; the rule of law; and respect for human rights, 
fundamental freedoms, and democratic values. These conditions also 
compromise stability in a region of the world that is home to the 
majority of humanity. As ARIA underscores, strong American leadership 
is needed to ensure that an international system rooted in the rule of 
law endures.
    USAID is proud to play a major role in advancing the 
Administration's IPS, and projecting strong American leadership on 
development priorities that advance U.S. economic and national security 
interests at the heart of ARIA. Under the IPS, the U.S. framework for 
the region focuses on three pillars: economics, governance, and 
security. In support of these core pillars, USAID's strategy to advance 
the IPS is structured around three objectives, all strongly endorsed by 
ARIA: strengthening democratic systems, fostering economic growth, and 
improving the management of natural resources. To advance these 
objectives in the Indo-Pacific region, the President's FY 2020 budget 
request includes a development assistance budget for USAID of $534 
million--a 114 percent increase over or a more than doubling of our FY 
2019 request. These objectives also go hand-in-hand with our long-
standing efforts to improve the lives and well-being of people across 
Asia as fundamental to creating the foundations for a free, open, and 
secure Indo-Pacific region. The President's FY 2020 budget request 
includes $230 million for USAID's development assistance in the Indo-
Pacific region that is consistent with our vision for the Journey to 
Self-Reliance, such as programming in health and basic education.
    Within USAID's three IPS objective areas, we are sharply focused on 
countering the immediate- and medium-term effects of malign influences 
that contest our progress towards a free, open, and secure Indo-Pacific 
region. USAID is designing and implementing development programs; 
taking a leading role in whole-of-U.S. Government initiatives; 
coordinating with like-minded donor partners, including Australia, 
Japan, New Zealand, and the Republic of Korea; and exploring potential 
collaboration with Taiwan. In line with ARIA, USAID is also 
contributing to efforts to strengthen the United States' strategic 
partnership with the Republic of India, an emerging regional and global 
leader in development, in advancing our shared objectives for peace and 
security in the Indo-Pacific region. USAID is supporting India's 
regional and global leadership role on combating development 
challenges, including bolstering the central role India plays in 
efforts to facilitate energy and infrastructure investment and 
connectivity.
    I will next provide a brief overview of our efforts under each of 
our three objectives.
          strengthening citizen-responsive democratic systems
    Over the last few years, democratic institutions across Asia have 
faced significant tests. In some places, malign influences have 
intervened overtly and covertly to exploit institutional weaknesses and 
spawn corruption, which consequently have undermined democratic 
institutions and the long-term stability of our partner countries. This 
reduces competitiveness and poses significant risks to sustainable 
development, autonomy of countries in the region, and citizenresponsive 
governance.
    USAID is at the forefront of the U.S. Government's efforts to 
address these challenges, including through the whole-of-Government 
Indo-Pacific Transparency Initiative. In line with ARIA, our activities 
include promoting the integrity of electoral processes; supporting the 
independence of media and the integrity of information; protecting 
human rights and dignity, including civil and political rights and 
religious freedom; fostering accountability and transparency, including 
by fighting corruption; improving the rule of law; and strengthening 
civil society.
    We have achieved some notable progress to date. For example, in 
support of transparency and accountability that elicit high-quality 
investment, USAID's assistance enabled the launch of a new system for 
vetting all major infrastructure projects proposed in Burma, known as 
the ``Project Bank.'' In Republic of the Philippines, where public 
frustration with a slow and inefficient court system has contributed to 
tolerance for a harsh anti-drug campaign, USAID has introduced an e-
court case-management system, now used in more than 300 trial courts, 
which accounts for nearly 25 percent of the country's total caseload. 
We have trained more than 3,000 judicial personnel. These actions are 
equipping the courts to handle cases more transparently, efficiently, 
and expeditiously. For example, the average age of pending cases in the 
courts that receive U.S. assistance has been reduced by over 40 
percent, from four years to just over two years.
    Bolstering the United States' strategic partnership with the 
Association of Southeast Asian Nations (ASEAN) is a priority of ARIA. 
Similarly, the IPS acknowledges ASEAN as a cornerstone of the U.S. 
vision for a free and open Indo-Pacific. Over the years, USAID has 
worked extensively with ASEAN at both the multilateral and bilateral 
levels to advance shared priorities, and we are committed to 
strengthening this partnership. USAID is in the process of negotiating 
a comprehensive development cooperation agreement with ASEAN to deepen 
our relationship. Through USAID programs, we provide technical 
assistance to ASEAN on a range of key regional policies to address 
transnational challenges that threaten regional stability and growth. 
In partnership with the State Department, our engagement with ASEAN on 
a range of regional policies, including those that promote human 
rights, improve transparency, and fight corruption, provide an 
opportunity for the United States to influence ASEAN's dialogue on 
advancing a rules-based architecture that furthers regional 
integration.
    In Mongolia, we are helping up-and-coming local leaders--including 
students, academics, government officials, civil-society activists, and 
businessmen and women--understand and value democracy as they champion 
effective, citizen-responsive, and accountable governance. We have 
launched new programs in Burma and The Philippines to expand public 
access to credible information. In the Kingdom of Cambodia, where the 
United States remains committed to supporting the Cambodian people in 
protecting their fundamental freedoms, USAID partners have provided 
legal counseling over the past year to around 40 human-rights defenders 
and land, environmental, and political activists subjected by the 
government to politically motivated charges for their work.
    In Timor-Leste, years of USAID's assistance led to a significant 
breakthrough in 2017, when the country ran national elections for the 
first time in history without international supervision, and in 2018, 
when the country peacefully navigated its first snap election after the 
new Parliament was dissolved for failing to pass a budget. In the 
Republic of Indonesia, the number of people from marginalized 
communities who sought legal aid through USAID partners increased more 
than tenfold between 2017 and 2018 thanks to our advocacy and technical 
assistance, which contributed to expanded access to justice for the 
most vulnerable. With your support, we seek to build on successes like 
these.
    Finally, I'd like to mention the crisis in Xinjiang, which remains 
one of the Administration's top priorities. The United States is 
outraged by the Chinese Government's highly repressive campaign of 
human rights abuses against Uighurs, ethnic Kazakhs, Kyrgyz, and other 
Muslims and other religious and ethnic minorities. The Chinese 
Government has, by U.S. Government estimates, detained more than one 
million individuals in internment camps since April 2017. USAID is in 
the process of conducting a needs assessment to inform the design of 
new rapidresponse programs to support Xinjiang refugee communities 
outside of China.
                       fostering economic growth
    A key constraint to the region's continued growth is the tremendous 
financing shortfall it faces for its infrastructure needs, which 
amounts to $1.7 trillion per year from 2016 to 2030. According to the 
Asian Development Bank, fiscal reforms could help bridge about 40 
percent of Asia's gap in financing for infrastructure. But the 
remainder depends on the private sector, which would need to increase 
its funding contributions by about 300 percent compared to current 
levels. However, a number of conditions impede free and fair 
competition and unhindered market access for legitimate investors, such 
as inadequate fiscal space, weak policies, and corruption in government 
procurement.
    In line with ARIA, USAID is helping governments, civil society, the 
private sector, and partner countries overcome these constraints to 
growth by working to ensure that their legal, regulatory, and policy 
environments for trade, infrastructure, and investment are transparent, 
open, and free of corruption. Specifically, USAID's assistance is 
leveling the playing field by developing the capacity of partner 
governments to enforce contractual agreements under international trade 
arrangements; meet internationally accepted standards for intellectual 
property, labor, and sanitary and phytosanitary measures, and address 
technical barriers to trade; and promote trade facilitation by easing 
border controls and compliance requirements.
    USAID is also improving competitiveness through support for 
bilateral programs that reduce barriers to entry and market access by 
legitimate commercial investors; lower the cost of doing business by 
streamlining procedures and cutting red tape for obtaining permits and 
licenses, easing labor market restrictions, and strengthening the 
enforcement of contracts; and promote greater competition by reforming 
procurement rules to allow legitimate players to participate, 
strengthening antitrust and competition requirements, promoting 
conformance with standards following international best practices, and 
strengthening the enforcement of intellectual property rights.
    We seek to build on our past success, such as our work in the 
Philippines that has helped eight secondary cities become more 
competitive, according to the Cities and Municipalities Competitiveness 
Index. Developed with USAID assistance, the index is an annual ranking 
of Philippine cities and municipalities, based on each city's economic 
dynamism, government efficiency, and infrastructure. Across the eight 
cities, USAID has helped lower the cost of doing business, thanks to a 
reduction in the business-registration process from as many as 20 steps 
in 2014 to as few as two steps today.
    A key feature of our collaboration with the cities in the 
Philippines is to promote investment to bolster and sustain development 
efforts. For example, last month, USAID supported Puerto Princesa City 
in attracting private-sector pledges amounting to $540 million worth of 
investments in sectors including tourism, food, agriculture, fisheries, 
and education--commercial investments that help Puerto Princesa fulfill 
its potential as an engine of sustainable, inclusive growth for the 
country.
    Incentivizing greater private sector investment helps unlock new 
financing streams--and greater choice of approaches and partners--for 
development. As part of our efforts to unlock enterpriseled economic 
growth, we are helping to advance open, interoperable, reliable, and 
secure communications networks in partner countries through the U.S. 
Government's Digital Connectivity and Cybersecurity Partnership (DCCP).
    We also play a leading role in strengthening the ability of 
governments and the private sector in our partner countries to 
implement and manage sustainable, transparent, and high-quality 
infrastructure projects through the U.S. Government's Infrastructure 
Transaction and Assistance Network (ITAN). For example, in the Republic 
of the Maldives, USAID is providing technical assistance to the 
government on public financial management best practices for 
responsible resource allocation in its annual budget. In addition, 
USAID is helping to prioritize public infrastructure investments, 
explore opportunities for public-private partnerships, and promote 
procurement reform. By the end of this year, USAID will also start 
providing the Government of Maldives technical assistance on mobilizing 
domestic resources. In the Socialist Republic of Vietnam, we are 
advising the government on implementing its Power Development Plan and 
attracting private-sector investment. And in the Philippines, we have 
launched a new project focused on increasing technical assistance to 
support the country's ambitious infrastructure development strategy. 
Our efforts under DCCP and ITAN include advancing best-value analysis, 
open and transparent procurement processes, and adherence to high 
standards.
    We are making significant progress. For example, in Vietnam, we 
recently launched a new trade facilitation program that will build the 
capacity of Vietnam's customs department to comply with global trade 
norms. Our efforts will help reduce the time and cost of trade and 
increase capacity to address the inappropriate transshipment of Chinese 
goods through Vietnam to avoid U.S.imposed tariffs.
    We also are helping to advance the integration of the Lao People's 
Democratic Republic into the global market economy. USAID's support led 
to the approval by the Lao National Assembly of amendments to the Law 
on Intellectual Property that increase transparency and due process. 
For instance, the Lao Government will publish applications for patents 
and trademarks electronically, which will allow access to this 
information by interested parties in a more readily accessible format.
    In Timor-Leste, we have helped the customs authority cut clearance 
times in half at the seaport in Dili, and a national risk-management 
system for cargo inspection we introduced is moving the customs 
authority toward compliance with international standards required for 
accession to the World Customs Organization, the World Trade 
Organization, and ASEAN.
    In partnership with ASEAN, we are developing the ASEAN Single 
Window (ASW), a tool to accelerate trade among the organization's ten 
Member States. We are also working with U.S. Customs and Border 
Protection to develop a clearance process for U.S. goods through the 
ASW.
    In the Philippines, our long-standing relationships continue to pay 
dividends for U.S. companies. Previous USAID programming helped lead to 
the issuance of the Open Skies policy, which highlighted the increased 
demand for additional international airports in Metro Manila. In August 
2019, Texas-based Jacobs was one of three companies selected to design 
and build the proposed $14.7 billion new Bulacan International Airport, 
located outside of Manila.
             improving the management of natural resources
    The Indo-Pacific region is rich in forests, fisheries, and other 
natural resources, including energy, which are vital for countries' 
long-term growth--as are water, land, and clean air. The region's 
incredible biodiversity includes the world's largest concentration of 
marine life, and the world's largest area of mangrove forests. Yet the 
sustainability of these natural resources--and the vulnerable 
communities that depend on them for their livelihoods--face the threat 
of irresponsible infrastructure development and the reckless extraction 
of resources that ignore environmental and social safeguards. 
Furthermore, high rates of transnational crime in Asia are associated 
with fishing, logging, and wildlife, and contribute to rapid 
environmental degradation, while also undermining the regional 
stability that underpins a free and open Indo-Pacific region.
    In line with ARIA, USAID works with governments and civil society 
in countries across the region to strengthen the responsible management 
of natural resources. We help strengthen laws on the management of 
natural resources and promote the adoption and enforcement of 
environmental standards that reflect international best practices. We 
foster engagement with the private sector on sustainable supply-chains 
and the transformation of the energy sector. We focus on supporting 
water and energy security, legal and sustainable fishing and timber 
production, and efforts to combat transnational environmental crime.
    For example, as this subcommittee well knows, unsound 
infrastructure development along the Mekong River in Southeast Asia is 
causing irreversible damage to the Mekong ecosystem, which threatens 
the food, water, and livelihoods of more than 70 million people. Last 
year, USAID launched a three-year project that aims to reduce the 
negative impact of infrastructure development in the Lower Mekong 
region through the stronger, more-consistent application of 
environmental and social safeguards. As part of the project, we are 
developing and gearing up to launch an interactive, web-based platform 
that will enable governments, policy-makers, nongovernmental 
organizations (NGOs), researchers, and the general public to visually 
map the potential extent and range of socioeconomic and environmental 
impacts of different infrastructure approaches.
    To combat transnational wildlife crime, USAID is contributing to 
broader U.S. Government efforts, in partnership with INTERPOL, that are 
helping to dismantle cross-continental syndicates that traffic in 
elephant ivory and pangolin. Our partnership with INTERPOL is also 
disrupting illegal fishing networks, including the recent confiscation 
by Indonesian authorities of over 350,000 juvenile lobsters worth $4 
million that were en route to Singapore and Vietnam. In addition to 
this, last year, to combat illegal, unreported, and unregulated 
fishing, USAID worked with the first group of 27 companies to roll out 
and test traceability technology in the Republic of Indonesia and The 
Philippines--which has resulted in the successful tracking of more than 
4.4 million pounds of seafood from point-of-catch to export.
    On energy, USAID plays a leading role in Asia EDGE (Enhancing 
Development and Growth through Energy), a U.S. Government initiative 
that works to grow sustainable and secure energy markets throughout the 
Indo-Pacific region. As part of our contribution to Asia EDGE, we 
recently launched a partnership with the Asian Development Bank (ADB) 
to mobilize $7 billion in investments to accelerate the region's 
transition to a sustainable, secure, market-driven energy sector. Our 
partnership with the ADB aims to increase the capacity of deployed 
energy systems by six gigawatts and increase regional energy trade by 
10 percent over the next five years. This reinforces an explicit clause 
in ARIA that states that the United States should explore opportunities 
to partner with the private sector and multilateral institutions, such 
as the ADB, to promote universal access to reliable electricity in the 
Indo-Pacific region.
    Alongside Australia, New Zealand, and Japan, we are also 
contributing to the U.S. Government's efforts under the Papua New 
Guinea Electrification Partnership to provide electricity to 70 percent 
of that country's population by 2030. USAID Administrator Mark Green 
was proud to announce the U.S. Government's first tranche of funding 
toward this effort at the United Nations General Assembly last month.
    Our financial and technical support has contributed to critical 
steps forward in our partner countries. For example, in Vietnam, where 
the demand for energy is expected to more than double by 2030, USAID is 
working closely with the Government to develop and implement policies 
that support scaling up the generation of renewable energy. This has 
contributed to a massive increase in solar energy production over the 
past two years--from less than 2 percent of the country's total power-
generation to over 10 percent. USAID is also engaging with the private 
sector to accelerate clean energy and increase the deployment of new 
energy technologies. In May 2019, the Ha Do Group, one of USAID's 
partners, completed construction of its first solar-power farm in 
Vietnam by using services and advanced technology from SunPower, a U.S. 
leader in solar energy.
    In Indonesia, USAID's work helping countries overcome their energy-
related constraints to growth is unlocking new market opportunities, 
including for U.S. companies. For example, in partnership with the 
California Independent System Operator, which manages about 80 percent 
of California's electricity flow, and Indonesia's national power 
utility, USAID is supporting the integration of variable renewable 
energy into Indonesian power grids. This work has paved the way for the 
development of Indonesia's first two utility-scale wind farms--by 
Colorado-based UPC Renewables, and Vena Energy, a subsidiary of the New 
York-based equity fund, Global Infrastructure Partners. During FY 2018 
in Indonesia, 11 renewable energy projects to which USAID provided 
technical advisory services reached financial closure, successfully 
mobilizing a combined $806 million in investments from the public and 
private sectors.
    USAID assistance in creating an enabling environment for regional 
power trade in South Asia has led to transformative policy changes. For 
example, a revision the Indian Government made in December 2018 to its 
guidelines on cross-border power trade led to a June 2019 agreement 
between the Federal Democratic Republic of Nepal and the People's 
Republic of Bangladesh to trade power using Indian transmission lines.
    USAID's efforts under Asia EDGE build on our past successes. 
Nepal's significant untapped hydropower potential--coupled with 
insatiable demand for energy from neighboring India--holds substantial 
economic promise. To help unleash investment in this area, USAID helped 
the Government of Nepal to improve the energy sector's legal and 
regulatory framework. Our efforts contributed to the successful passage 
of legislation that established the Electricity Regulatory Commission 
in 2017. To lay the foundation for the $500 million Millenium Challenge 
Corporation Compact, USAID trained 390 government officials on the 
technical aspects of clean energy; we are helping several hydropower 
projects to finalize and secure the necessary investments to begin 
construction; and we are supporting the newly-appointed energy 
regulatory commissioners to ensure that they have the skills and 
resources necessary to help Nepal realize its vast and largely untapped 
energy potential.
                        journey to self-reliance
    At USAID, our ultimate goal is for our partner countries to 
progress from being aid recipients, to partners, to fellow donors. We 
look forward to the day when foreign assistance is no longer necessary. 
We call the path to get there the ``Journey to Self-Reliance.''
    In support of this, USAID is realigning and reorienting its 
policies, strategies, and programmatic practices to improve how it 
works with governments, civil society, faith-based organizations, and 
the private sector to develop their capacity and commitment to drive, 
fund, and manage their own development. This includes commitments to 
open, citizen-responsive, accountable governance; inclusive growth; and 
the capacity to mobilize development funds domestically and through 
foreign direct investment. It also includes an emphasis on unlocking 
development driven by private enterprise to sustain--and accelerate--
progress.
    USAID's mission to advance self-reliance mutually reinforces 
USAID's focus under the IPS--on strengthening democratic systems, 
fostering economic growth, and improving the management of natural 
resources, as described above--to precipitate systemic change in the 
near-term that leaves people in our partner countries better off in the 
long-term.
    USAID prioritizes gains in health and education for development 
journeys to be inclusive and sustainable over generations. USAID's 
health and education programs--which focus on achieving longer-term 
goals that contribute to building human capital and economic growth--
are important for creating the foundation for a free and open Indo-
Pacific region in the long-run. ARIA states the importance of this work 
in the Lower Mekong region in particular, a view that we at USAID 
share.
    We are making progress across the region, including in the Lower 
Mekong countries. After 15 years of funding from USAID, next year will 
be the first time the Cambodian Government will be able to fully own, 
administer, and pay for the health care for the poorest 20 percent of 
the population. USAID also transitioned the management and cost of 
several information systems to the Ministry of Health, which will allow 
it to track the care of its patients more effectively.
    In Burma, preliminary findings from a new USAID-funded national 
survey of the prevalence of tuberculosis (TB) indicate an over 50 
percent decline in the prevalence of the active form of the disease 
over the past decade. This progress is vital to health security in the 
region as Burma has a high burden of not only TB, but also multi-drug-
resistant TB and co-infection of TB with HIV. In Laos, USAID has 
contributed to a decrease in stunting--from 44 percent in 2012 to 33 
percent in 2018--which thereby improves the development potential and 
economic contribution of the next generation.
    On education, in Cambodia, USAID's assistance strengthened early-
grade reading by helping the Ministry of Education ensure that schools 
and policies are more inclusive, relevant, and responsive to the needs 
of children, in particular those with disabilities. And in Vietnam last 
month, we reached a turning point in that country's reform of higher 
education with the official launch of the undergraduate program at the 
USAID-funded Fulbright University Vietnam, the country's first fully 
independent, non-profit university. Modern, high-quality higher 
education is key to Vietnam's transformation to an economy that can 
engage in the opportunities of the fourth industrial revolution and 
sustain its economic growth.
    Throughout the region, USAID is also supporting programming focused 
on women's economic empowerment. For example, just last month, we were 
excited to sign a partial credit-guarantee agreement with Singapore-
based Impact Investment Exchange (IIX). This innovative partnership 
will mobilize $100 million in new investment to empower women across 
the IndoPacific region. A unique financial product, the Women's 
Livelihood Bond 2 (WLB2), bolsters women's livelihoods through raising 
private financing. The proceeds of the bond will help one million 
underserved women in Asia secure sustainable livelihoods through 
investments in financial inclusion, access to clean energy, and 
sustainable agriculture. Long-term expected benefits include more 
successful women-owned businesses, greater women's participation in the 
workforce, higher standards of living, more opportunities for quality 
education, and improved health outcomes for women and children.
    USAID's support for WLB2 is a key deliverable under the Women's 
Global Development and Prosperity Initiative (WGDP), established in 
February 2019 by President Donald Trump to advance women's economic 
empowerment globally. It also supports the Women's Entrepreneurship and 
Economic Empowerment Act, signed into law by President Trump in January 
2019. WGDP is also supporting women's economic empowerment in Papua New 
Guinea, India, Indonesia, Vietnam, and The Philippines.
    Finally, on Tibet: In line with ARIA, USAID's activities to support 
Tibetan communities focus on improving sustainable livelihoods and 
strengthening local institutions, equipping Tibetans to become 
effective leaders and maintain the vitality of their communities and 
institutions while preserving and sustaining their unique identity and 
culture.
    USAID's Mission in India currently programs the Congressional 
directive aimed at strengthening the self-reliance and resilience of 
Tibetan communities in India and Nepal. Our activities are helping them 
thrive economically, become effective leaders, and maintain the 
vitality of their communities and institutions while sustaining their 
unique identity and culture. We focus on increasing the financial 
security of Tibetan households, increasing the vitality and cohesion of 
Tibetan settlement communities, and increasing the effectiveness and 
sustainability of Tibetan institutions, in particular the Central 
Tibetan Administration (CTA) and its various agencies. In the Tibetan 
Autonomous Region (TAR) of China, USAID programming promotes efforts to 
preserve Tibetan culture and traditions and improve sustainable 
livelihoods for ethnic Tibetans in China.
                               conclusion
    Mr. Chairman: In closing, I would once again like to thank the 
Committee for its championing of the Asia Reassurance Initiative Act, 
which sends a strong message of the United States' enduring commitment 
to the region. We are appreciative of the strong bipartisan, bicameral 
Congressional support for USAID's work to advance partner country self-
reliance and a free, open, and secure Indo-Pacific region. Thank you 
for the opportunity to appear before you today. I look forward to your 
counsel and questions.


    Senator Gardner. Thank you, Secretary Steele.
    And again, thanks, to all of you, all three of you, for 
your testimony today.
    This morning, we heard from Brian Hook, at the State 
Department, talking about the impact that U.S. diplomacy and 
public diplomacy can have, efforts that we can put to bear on 
other countries to influence their treatment of their citizens, 
including women. The specific example that Mr. Hook gave this 
morning was in relationship to Iran. And he talked about the 
FIFA match to take place that was excluding women from 
attending. And that changed as a result. And, of course, there 
are other complications that we have to address, but that 
public diplomacy can be very effective.
    And if you look at ARIA and you look at the significant 
amount of resources that we program for human rights, 
democracy, rule law, you look at what is happening in Hong Kong 
right now, and you look at what is happening in and around Asia 
with the Chinese activities, particularly in China, whether it 
is the Xinjiang Province and how they are treating Uyghurs, how 
they are treating Christians, how they are treating religious 
freedoms, what is happening in autonomy of Hong Kong, what they 
are doing in Taiwan, I think this implementation of ARIA 
matters greatly. Today, we learned that the head coach of the 
Golden State Warriors received over 17,000 comments as a result 
of Chinese trolls who were standing up in opposition to an 
expression of basic rights in Hong Kong. There is a headline on 
CNN, just from a few days ago, that talks about a comment that 
President Xi made vowing ``to attempt to split China will end 
in crushed bodies and shattered bones.'' That hardly sounds 
like a nation intent on a peaceful rise, especially when we are 
simply asking to adhere to the agreements that they had already 
agreed to when it comes to autonomy.
    And so, Secretary Stilwell, how is ARIA being implemented 
at the Department of State to address not only concerns and the 
treatment in Hong Kong as China pursues its, perhaps, different 
directions or treatments, human rights as it relates to the 
Uyghurs, the treatment of Taiwan and our relationship with 
Taiwan, and, of course, nations throughout the Indo-Pacific?
    Mr. Stilwell. I thank you for that question. And it is a 
pretty easy and straightforward response.
    You know, the resources that ARIA brings and produces for 
the State Department for the Secretary to then allocate against 
things like public diplomacy outreach at the U.N.--the Deputy 
Secretary hosted the Xinjiang Human Rights event--these are all 
things that can, some say, shine some sunlight on these issues, 
which I think is probably the best antidote to all these 
things, things that Beijing would prefer kept quiet, in the 
dark, in the shadows. By bringing those to light through things 
like congressional visits to Hong Kong recently, those things 
are huge.
    So, certainly there are things that require funding. And I 
think Secretary Steele can talk to those, for sure. And State 
Department obviously needs those sorts of funds, as well. And 
again, we appreciate the fact this is a reinforcing 
relationship with the Congress between the administration and 
the Hill. That is probably the bright spot in taking this job, 
is that we are working together on this. I can give many 
examples, if you like.
    Senator Gardner. Yeah, and Secretary Stilwell, if you 
could, please, maybe, cite some of the specific examples of 
ARIA implementation, if you could, just to detail the specific 
initiatives that Department of State is undertaking as a result 
of ARIA.
    Mr. Stilwell. I think you can look at the Indo-Pacific 
Strategy that focuses on economic engagement, such as the Indo-
Pacific Business Forum, coming up, right, the resources 
required to put something like that together. If you look at 
the strategy, again, focus on governance, economics and 
security, and as I read through the Act again last night, those 
things track perfectly. So, the resources are important, but 
the support from the Congress, as well, are extremely important 
as we deal with things like security issues, governance, and 
the rest. I can get you the specifics, but they pretty much 
deal with what we are executing right now. Outreach to ASEAN, 
so we have the ASEAN Outlook Strategy. It looks just like ARIA, 
which looks just like the Indo-Pacific Strategy, which looks 
like Korea's New Southern Policy. I will leave it at that.
    Senator Gardner. Mr. Secretary, one of the things that came 
to light as a result of this conversation the NBA has started 
in this country, more tension taking--being focused on 
treatment of people in Hong Kong and beyond in China as a 
result, do you think that the State Department--is it 
appropriate for the State Department to, perhaps, host or--
either on its website, its official website, or perhaps through 
a report--do you think it is a good idea that we should, in one 
place, keep track of all of China's efforts to suppress 
freedom, to bully those who object to China's treatment of 
people in Hong Kong or people in Taiwan? I mean, in the past 
years, we have seen, as Apple has removed, sort of, different 
icons from their platforms, we have seen Taiwan flags removed 
from Hollywood movies, we have seen entire countries be 
replaced in major Hollywood productions with another country 
because of worry that it would offend, we have seen suspension 
of people from gaming platforms, and firings from hotel chains, 
and airlines intimidated because they dare use the word 
``Taipei, Taiwan,'' in the same sentence--do you think that it 
would be helpful for the American people, in one spot, one 
source, to be able to identify and see all of the ways that 
China is using either economic or diplomatic power--force to 
bully people's behavior?
    Mr. Stilwell. Senator, I think anything we can do to shine 
a light on this is important. I think you saw that the 
Secretary gave a speech in L.A. to the Motion Picture Academy 
of America on exactly what you are talking about. These talking 
points--again, not only restricted to the administration--
highlighting these, you know, unthinkable approaches to what we 
consider free speech are readily available. These speeches are 
available on the State Department site. Compiling them into one 
place, again, would be helpful, for sure, but I do think that 
the civil sector has done that job for us quite well, as of 
late. You know, we have touched a nerve on some of these 
things, and Americans are responding, just like the Australians 
did about 3 years ago, they are responding to seeing that their 
assumed rights and, you know, things they took for granted are 
suddenly no longer available to them. And so, both public, 
State, and private approached, I think, would be very useful.
    Thank you, Mr. Secretary.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    As I mentioned in my opening statement, it is crucial that 
the United States Government espouse the principles it 
encourages overseas, especially in the Indo-Pacific. Our policy 
should be to lead with experts who advise the President well, 
and the President should heed that expert advice.
    The President has asked multiple foreign governments to 
investigate a domestic political rival. He asked the Chinese 
government to do so, on October 3rd, and asked the President of 
Ukraine, as well. I would like to understand if this 
administration and the State Department leadership believe 
asking foreign governments to look into a political rival is 
acceptable.
    Mr. Stilwell, is it appropriate for a President to ask a 
foreign government to investigate a domestic political rival?
    Mr. Stilwell.
    Senator Markey, thank you for that question.
    Other than--you know, for my region, other than offhand 
comment on that subject that you quoted, I have seen nothing in 
that regard, and I am not going to go past that.
    Senator Markey. Do you believe it is acceptable if the 
question--if the request was made?
    Mr. Stilwell. Senator, again, I do not know that the 
request was made, and that is what I would offer.
    Senator Markey. Well, it was made. It was made in public. 
President Trump's request to China to investigate a political 
rival has clear implications for the implementation of U.S. 
foreign policy, the jurisdiction of the committee reaches that 
issue. And that is why I actually sent a letter on this matter 
to Donald Trump today. It is a letter that I think is 
important, and should actually, you know, be something that 
people on this committee should be able to support, given the 
implications of the President's actions on the implementation 
of U.S. policy towards China and the broader region. I asked 
the members of the East Asia Subcommittee, both Democrats and 
Republicans, to join. I am disappointed that none of my 
Republican colleagues joined, as protecting American democracy 
should not be a partisan one. I think this issue goes right to 
the heart of our values and what we are supposed to advance 
across the rest of the world.
    So, Mr. Stilwell, are you aware of the President or anyone 
in the administration directly asking President Xi or other 
Chinese officials to investigate a political rival?
    Mr. Stilwell. Senator, other than that offhand comment that 
you cited, I am not aware.
    Senator Markey. So, do you know if there are any records at 
the State Department with regard to requests that were made by 
the administration to President Xi or other Chinese officials?
    Mr. Stilwell. Senator, I do not know of anything like that.
    Senator Markey. And again, I am not asking for anything 
that is outside of the jurisdiction of this committee. We have 
a right to know. It goes right to the issue of our foreign 
policymaking and what it is that we want to have the United 
States of America stand for.
    So, this committee takes seriously our oversight of foreign 
policy, the Department of State, and the confirmation process 
for Department appointees. I am disturbed at the news of 
private citizens conducting a shadow diplomacy instead of 
relying on our diplomatic professionals.
    Mr. Stilwell, is it appropriate for private U.S. citizens 
to engage with foreign governments on behalf of the United 
States President and without knowledge of the Department of 
State?
    Mr. Stilwell. Senator, again, I would need some specifics 
on that, because I am not aware of the point you are making.
    Senator Markey. Well, how would you react if you learned 
that a private citizen was dictating foreign policy to senior 
State Department officials in your region?
    Mr. Stilwell. Senator, again, I would have to see the 
details, specifics. And again, I am not going to speculate.
    Senator Markey. How would you tell your region's 
ambassadors to react if a foreign policy issue was being 
dictated by a private citizen inside of your region? Would you 
think that was appropriate?
    Mr. Stilwell. Senator, I would give direction to those 
ambassadors on this topic. They would take that from me. So.
    Senator Markey. Well, I am concerned that this 
administration undermined Senate-confirmed career ambassadors, 
the very experts who are sworn to lead foreign policy with the 
interests of the American people being first and foremost.
    Are you aware of the President or any private citizen 
seeking the removal of any career ambassadors in your region?
    Mr. Stilwell. No, Senator.
    Senator Markey. Do you agree employees of the Federal 
Government, including the Civil Service and the Foreign 
Service, are protected under Federal law when they file 
whistleblower complaints through proper procedures?
    Mr. Stilwell. Senator, I am aware of whistleblower 
regulations and rules, and I enforce those in EAP.
    Senator Markey. And those whistleblowers are protected 
under Federal law, is that correct?
    Mr. Stilwell. Under Federal law, there is a whistleblower 
law, it is true.
    Senator Markey. Okay. So, what have you done, personally, 
to ensure the State Department whistleblowers know and 
understand their rights? Do you think whistleblower protections 
is something that is important for the protection of the United 
States?
    Mr. Stilwell. Senator, I messaged all of my people that 
they--that we know what those laws, rules, regulations, 
guidance is from the--by law, by Congress, and by the 
administration, and we reinforce those with our people.
    Senator Markey. Okay. Well, I ask you and your colleagues--
to protect career officials so that they can continue to advise 
this administration without fearing reprisal. My fear is that 
just the opposite signal is now being sent out of the White 
House.
    The Chinese government's human rights abuses are of deep 
concern. In Hong Kong, China continues to intimidate those who 
exercise support for democratic rights. The Chinese government 
is indignant when the United States expresses support for human 
rights and democracy in Hong Kong. We can see the reach of 
China's efforts to suppress free expression even here on our 
shores. We saw that over the last week with China retaliating 
against the NBA and its fans because of support for legitimate 
demonstrations in Hong Kong. Do you think it is appropriate for 
China to attempt to use its marketplace power to curtail free 
expression in the United States?
    Mr. Stilwell. Senator, it certainly breaches, you know, 
what we consider a separation of diplomatic or political speech 
and economic, but it is theirs to do. They chose to take that 
path. I do not think it is the right path, and I think you are 
seeing what happens when American people see exactly what 
this--it has definite reputational costs for Beijing.
    Senator Markey. Are you troubled by the escalation of the 
actions by China against the NBA and what that means for other 
corporations inside of China?
    Mr. Stilwell. Senator, earlier, in opening statements, we 
noted that multiple companies, not just American companies, 
have felt the sting of the Chinese government using economic 
levers for political reasons, you know, for their own personal 
or small view of what free speech looks like. And so, I am 
disturbed, but I am also encouraged, in some ways, that it has 
brought to light these things to the greater American public, 
something that we talked of and understood and assumed was not 
well known, but is becoming very visible.
    Senator Markey. Do corporate officials tell you that they 
are afraid to actually express their views, for fear of losing 
business? Do those corporations express that in a way that 
actually makes this something that is not an exception, but 
perhaps the rule, in terms of the way in which our companies 
interact with the Chinese government on an ongoing basis?
    Mr. Stilwell. Senator, personally, I have not had that 
conversation, but it is all over the press. I mean, you can 
read that, you know, pretty much anywhere. Again, these 
responses seem excessive and counterproductive.
    Senator Markey. So, you are saying that you do not hear 
from corporations that their ability to speak freely is, in 
fact, curtailed because of their fear that their businesses 
would be impacted. No one says that to you?
    Mr. Stilwell. Senator, I interact with them infrequently, 
if at all. I have had some interaction with Chambers of 
Commerce in business communities while I am on the road, but 
most of the conversation has to do with things like ARIA, where 
we are encouraging public/private activities, such as in the 
BUILD Act and the rest of those activities.
    Senator Markey. Well, just last evening, the Chinese 
Foreign Ministry spokesperson said that the Hong Kong Human 
Rights and Democracy Act, of which I am a cosponsor, 
demonstrated, quote, ``a naked double standard which fully 
exposes the extreme hypocrisy of some people in the United 
States on the issue of human rights and democracy, and their 
sinister intentions to undermine Hong Kong's prosperity and 
stability and contain China's development.''
    Mr. Stilwell. should the United States bend to Chinese 
criticism of the Hong Kong Human Rights and Democracy Act?
    Mr. Stilwell. Senator, absolutely not. This is a good 
chance for us to stand up and be counted on exactly the things 
that we believe. You are seeing the collision of two systems, a 
system that looks for free, open, market-based, and another 
system that looks is more authoritarian. And these are the 
results.
    Senator Markey. Well, I am concerned that the 
administration is too easily swayed by criticism from foreign 
governments. China's actions against the Uyghurs and Central 
Asian communities in Xinjiang is abhorrent, and it continues 
Beijing's campaign of detention, mass surveillance, severe 
controls of religious and cultural expression is indeed, quote, 
``the stain of the century,'' as Secretary Pompeo has said, yet 
the administration refuses to apply global Magnitsky sanctions.
    Mr. Stilwell, given our--
    Senator Gardner. Senator Markey. I am going to interrupt 
you, if you do not mind. Trying to keep it--
    Senator Markey. No, fine.
    Senator Gardner.--even, here.
    Thank you for answering these questions. I want to follow 
up, too, because I want to see if you agree with me, or not, 
that President Xi represents perhaps the greatest long-term 
threat to U.S. security and interests and global stability. 
Would you agree with that?
    Mr. Stilwell. Senator, the approach he has taken, I mean, 
starts with the 18th Party Congress--most recently, 19th Party 
Congress, the--then 2018, naming himself and becoming President 
without a term. Those things are all troubling choices that 
deviated from a system that had been becoming more regularized. 
In some ways, that predictability brought stability. It is 
becoming less predictable.
    Senator Gardner. Secretary Schriver?
    Mr. Schriver. We clearly identify China as our long-term 
strategic competitor in the National Defense Strategy and in 
our Indo-Pacific Strategy report, and Chairman Xi's advocacy of 
the China Dream and Asia for Asians just simply underscores why 
we feel that way and why we need to be postured for that long-
term competition.
    Senator Gardner. Obviously, the United States, when we were 
attempting, decades ago, to build an open relations with China, 
whether it was trade opportunities or diplomatic overtures, we 
were hoping that the values that we, as a Western democracy, 
hold would, I guess, rub off on China in a way, that freedom, 
democracy, human rights would somehow prevail, that our 
interests would, I guess, appeal to the leadership in China in 
a way that could allow a nation of, you know, over 1 billion 
people eventually, to enjoy the same rights, the same 
opportunities, the same trajectory.
    Now, the trajectory has been significant, from an economic 
power, from the growing military power of China. But, 
obviously, the export of U.S. freedom, democracy, and values 
has failed to be adopted in China, those ideas of religious 
freedom, and freedom to protest, freedom to worship as you 
choose.
    If you look at what the United States has, in turn, 
imported, you go to a basketball game, and a sign that says 
``Google Uyghurs'' is removed from a U.S. sporting event, 
people are removed from a game because of a T-shirt they are 
wearing. It seems like we have now imported--as people and 
commentators have well noted, we have imported some of the 
totalitarian aspects of China as our exports of freedom, human 
rights, have failed. Would you agree with that, General--
Secretary Stilwell?
    Mr. Stilwell. Senator, that is an interesting way of 
putting it, and I definitely see the logic to that. The outcry, 
even to late-night talk shows, on these things, to me, again, 
is encouraging. This is not unusual. I mean, this sort of thing 
happens. You use cultural influence to your own benefit or 
detriment. You know, a wise way of doing--
    Senator Gardner. They are actually using our cultural 
sporting events and other things to their benefit.
    Mr. Stilwell. They do. But, the fact that the NBA is so 
popular in China, I think is a positive thing. The fact that so 
many Chinese people--this is not about the Chinese people, it 
is Chinese government decisions, and we always need to make 
that very clear, they are disappointed that they cannot watch 
NBA at home. It shows another poor decision on the part of 
their government.
    In the meantime, here in the U.S., like I said, I believe 
these are things that people are now recognizing, the fact that 
it is all over social media that people were asked to take down 
signs or told not to chant certain things at a basketball game. 
Those pressures on American businesses will have an effect, and 
I think it is going to wake a lot of people. We are finally 
aware of what Australia figured out 3 or 4 years ago.
    Senator Gardner. Secretary Schriver, getting back to a 
question that I asked Secretary Stilwell on implementation of 
ARIA, could you identify some of the initiatives that you are 
undertaking as a result of ARIA? I had a conversation with 
Secretary Esper several weeks ago, and in that conversation he 
said that the Department of Defense was, you know, gearing up 
toward a sort of whole-of-department approach toward ARIA. If 
you could talk about some of the specific initiatives you are 
pursuing, that would be great.
    Mr. Schriver. Sure. The Department of Defense is organizing 
itself for the long-term strategic competition with China. ARIA 
is a powerful tool for us in that regard. We are working 
internally. We have created a new position in my office, in my 
organization, to help with that alignment process throughout 
the defense enterprise that Secretary Esper spoke with you 
about.
    Outwardly-looking, ARIA has been a great tool for us. It is 
often mentioned to me from foreign interlocutors when I travel 
in the region, which is a sign that they do feel reassured, and 
they see that congressional and executive cooperation. But, I 
think some of the things that ARIA highlights that we have been 
working to implement, the capacity-building of our partners in 
Southeast Asia, maritime Southeast Asia, so that they have 
better awareness in their maritime territorial waters and 
through their EEZs, the work we are doing with Taiwan to engage 
and give them confidence in the lead-up to their election, to 
include providing sufficient weapon systems for their self-
defense, would be included. I think the work we are doing on 
the emerging partners that--ARIA speaks a lot about emerging 
partners such as India, Vietnam--I have traveled to Vietnam six 
times. I will be going back for a seventh time in less than 2 
years next month with Secretary Esper. It is a terrific 
partner. India, we have a new ``2+2'' process supported by what 
we call a ``mini 2+2'' at our level. We have had three of those 
this year, and we are building out our defense relationship. 
So, this has been a terrific tool for us, and very empowering 
for us.
    Senator Gardner. Thank you, Secretary Schriver.
    Senator Markey, for more questioning.
    Senator Markey. Thank you, Mr. Chairman.
    Thailand is one of our oldest allies, our closest friends. 
As I have stated many times, I hope to see our two countries 
further improve our relations. However, I have expressed 
serious concerns about the State Department's decision to label 
this year's election in Thailand as ``free and fair.'' 
Authoritarian behavior continues, including brutal attacks on 
Thai dissidents. Weeks ago, a judge made headlines after his 
impassioned plea against using the judicial system to scapegoat 
innocent people.
    Mr. Stilwell, in your view, what are the most important 
steps that Thailand can take to establish stronger democratic 
institutions?
    Mr. Stilwell. Senator, that is a great question.
    For one thing, the fact that we interact with them on a 
regular basis is a far better approach than isolating them and 
keeping them at arm's length. The most we can interact, and as 
we have done--in fact, this year, as the Chair for ASEAN, we 
have spent a lot of time with our Thai counterparts. I 
certainly have. And again, on 4 November, we are going to all 
go to Bangkok for the East Asia Summit and the Indo-Pacific 
Business Forum. And, in doing so, we have the chance to help 
them understand the benefits of, again, the sanctity of 
elections, the importance of democratic processes, and all 
those things. And I know they--
    Senator Markey. Should we ask them to make changes to their 
constitution so that they can, in fact, be promoting the 
democratic ideals that we would hope that their country would 
adopt?
    Mr. Stilwell. Senator, I have not read their constitution, 
and I do not know what I would change, but I would say that, 
over history--I will just tell you, my father lives there, and 
so I am pretty in tune to what goes on in Thailand. Their 
constitution, their process, their democracy is fine. Our job 
is to work with them to help them understand the benefits of 
enforcing and doing--
    Senator Markey. No, I understand what you are saying, but 
the military's influence on the 2017 constitution undermined 
the freedom of this year's elections, well before a single vote 
was cast. For example, the army appoints all 250 members of the 
senate, making it far easier for the army's favorite candidate 
to become Prime Minister. So, that is just the opposite, I 
would think, of the direction in which we should be going.
    Mr. Schriver, can you comment upon the direction of 
Thailand and the need to have constitutional reform?
    Mr. Schriver. Well, we do use our engagements with Thailand 
not only to address the security environment and the shared 
interests, particularly with respect to the pressure they face 
in their maritime spaces, but we use our engagement also to 
underscore the importance of the military's role in a 
democracy. If we are at a point where we can restore IMET, for 
example, a lot of that training goes to that effort so that 
they understand the appropriate role for a military in a 
democracy. So, we plug away at this. They do have a troubled 
history and a flawed system. We want to see them get in a 
better place, because the strategic challenges in the region 
will be much better off if Thailand stays onsides.
    Senator Markey. No, without question. You know, there have 
been 12 military coups since 1932, so I think that is just the 
case for us increasing our demands for constitutional reform 
for real democratic principles to be imbued into their 
political system.
    Now I want to turn to one particular tool that the United 
States could be using to press reform in Thailand. As you know, 
this administration has accelerated our arms sales to Thailand. 
Mr. Stilwell, I am interested in understanding the Government's 
approach to U.S. arms sales to Thailand. For instance, would 
you support an approach that withholds equipment that can be 
used to repress domestic opposition but otherwise provides the 
Thai military what it requests?
    Mr. Stilwell. Senator, I will take that one, but I would 
definitely defer to my Defense counterpart for that judgment.
    Again, Thailand has been a very strong security partner for 
many years. I mean, one of our longest allies in the region, 
150 years. The large majority of that time has been spent using 
those weapons, which can be used against any number of people--
you pick--appropriately. So, working with them through programs 
like IMET and other things, I think, will only highlight to 
them the importance of, you know, appropriate use, the 
importance of democratic processes, and the rest.
    Senator Markey. Well, from my perspective--I mean, that is 
why Senator Gardner and I worked on ARIA. It is to give you 
additional tools, on top of arms sales, that can be used as 
leverage, because otherwise the arms sales only further 
reinforce this military leadership within the country and its 
ability to, in fact, repress real democracy from emerging. 
Could you comment upon that, Mr. Schriver?
    Mr. Schriver. We do apply some scrutiny to the arms sales 
that we make, and we work with Congress through the 
notification process. They are certainly not intended for the 
types of use you are describing. We do have some end-use 
monitoring and some follow-on activities to try to enforce 
properties through the military systems. They do face 
legitimate external threats, and we do want them as a partner. 
So, I think exercising prudent judgment and scrutiny is 
important, and we are willing to continue to have that 
discussion with Congress on a case-by-case basis as we consider 
these systems.
    Senator Markey. Well, again, from my perspective, I see 
ARIA as a better approach than arms sales to this country in 
order to ensure that we are incentivizing the right parts of 
the country, the private sector, the civil society emerging, so 
that we just do not continue to see a repetition syndrome going 
back to 1932 with the military constantly interjecting itself 
where we should, in fact, have a different approach which takes 
place in that country.
    Thank you, Mr. Chairman.
    Senator Gardner. Secretary Steele, the implementation of 
ARIA, a question I have asked to both Secretaries Stilwell and 
Schriver, if you would like to make some comments on how USAID 
may be implementing various provisions of ARIA?
    Ms. Steele. Chairman Gardner, yes, the ARIA has really 
strengthened and provided the framework for us to implement our 
Indo-Pacific Strategy. As I mentioned earlier, using FY18 
funds, we have allocated $534 million to work on strengthening 
democratic institutions, working with civil societies, with 
private citizens, and with the government to make sure that 
their democratic systems are strong, and misinformation is 
prevented, and civil society is able to serve as watchdog to 
government and the private sector. At the same time, we are 
using the resources to level the playing field for legitimate 
actors so that they can trade and provide investment in the 
region, and help to increase the growth in the region.
    And finally, we are working with civil society and 
governments to make sure that international standards for 
environment and social safeguards are taken into account and 
enforced as infrastructure, in particular, are developed in 
these countries.
    Senator Gardner. Thank you.
    Secretary Stilwell, when you are talking in the region, 
what is the response have been to U.S. efforts through the 
BUILD Act, through ARIA, and other leadership initiatives?
    Mr. Stilwell. Senator, the track record of other proposed 
infrastructure and other initiatives has come home to roost. 
People understand that you cannot get something for nothing. 
They have come to understand the importance of high standards 
and, you know, market-based, true win-win arrangements. And so, 
we have seen a number of countries reconsider deals that they 
have made, and they have come to the U.S. and asked for help, 
both in renegotiating--that is one thing we do offer through 
the Transaction Assistance Fund, TAF--the ability to, you know, 
consider a contractor they are looking at.
    But, again, I think what you will see, in about 2 weeks, 
following the Indo-Pacific Business Forum--the second one, by 
the way, with a much larger number of attendees is the ribbon 
tying a bow on this thing to demonstrate--I mean these things 
do take time to develop interest, for us to message properly. 
And so, I do think this one will have some significant 
outcomes, and I definitely look forward to coming back and 
briefing those out to you.
    Senator Gardner. Thank you.
    Secretary Schriver?
    Mr. Schriver. The response has been overwhelmingly 
positive, and they do feel reassured, as the title of your 
legislation sought to do. As I said, it is often commented on, 
when I travel through the region, and they note the strong 
congressional/executive cooperation on implementing ARIA and 
the Indo-Pacific Strategy. So, overwhelmingly positive. And, as 
Secretary Stilwell said, countries are looking for an 
alternative OBOR and the relationship with China. There is a 
lot of buyer's remorse out there. Now we feel more empowered 
with the tools that you are helping to provide that 
alternative. So, it is been quite positive.
    Senator Gardner. Secretary Steele.
    Ms. Steele. Yes. Similarly, response has been very 
positive, I think, by now. As was mentioned earlier, countries 
have seen what happened in Sri Lanka, and that what we offer, 
what the United States offers, is long-term, sustainable 
development, one that takes advantage of people's labor in the 
countries to develop their capacity to be able to participate 
in the growth rather than putting them on a path of 
indebtedness, which they have seen in other countries.
    I believe that, with ARIA and the finances that the funding 
that we have been given through the Indo-Pacific Strategy and 
ARIA, we will be able to level the playing field and strengthen 
democratic rights in these countries.
    Senator Gardner. Thank you.
    Secretary Schriver, in Secretary Stilwell's opening 
comments, he states, ``President Xi Jinping has set forth an 
ambitious national strategy to break down all barriers between 
the civilian and military technological spheres by fusing the 
defense and civilian industrial bases through what Chinese 
officials call military/civil fusion.'' Could you talk about 
concerns from the Department of Defense for this approach?
    Mr. Schriver. We are concerned, because it means that 
normal commerce is oftentimes not normal and that their 
objectives in developing commercial relations relate to their 
military modernization goals. So, we look at their attempts to 
acquire dual-use technology, for example, in what, with another 
country, might be genuine interest in developing a commercial 
relationship, developing a product for commercial use, were 
highly suspicious in these cases, and believe that, in fact, 
the motivations are otherwise; in fact, related to military 
modernization. So, we keep a close eye on it, and we are trying 
to adjust, as a whole-of-government, to account for that 
development in China.
    Senator Gardner. Secretary Stilwell, how does the 
Department of State--or perhaps even Department of Defense--how 
do you reach out to U.S. businesses that may be unwittingly 
subjected to this fusion?
    Mr. Stilwell. Senator, I think, obviously, the best way is 
messaging. Again, that is my number-one priority. You can do 
that in formats like this. You can do that through the media. 
But, I think one of the best ways is to do it one-on-one. 
During the time in New York City, here recently for the General 
Assembly, we had an opportunity to do that. And visits to the 
region, we have done lots and lots of Chamber of Commerce 
events. And we do raise this issue about the risks raised--the 
risk you put yourself at. And we can use historical examples to 
show how these things are being used not only to deny them 
their intellectual property and the profits they so richly 
deserve, but also how these things can be turned and used from 
a civil to a very unhelpful military use.
    Senator Gardner. Thank you.
    Senator Coons.
    Senator Coons. Let me just briefly thank Senator Gardner 
and Senator Markey, who have worked so well together on such an 
important topic, and to express my gratitude to this strong 
panel. And my apologies. There are other committee hearings 
going on at the same time.
    A particular topic of interest to me that has been touched 
on but, I think, deserves a little more exploration--if I 
could, to Assistant Secretary Schriver--is on force 
modernization. China is, of course, rapidly modernizing all of 
its military capabilities. And I am concerned about steps that 
we could take that would better secure both U.S. and partner 
interests in the face of that. And, in particular, a concern I 
have about existing forces and the cost of sustaining 
longstanding, relatively slow, irreplaceable, large, legacy 
equipment--aircraft carriers--as compared to inexpensive, 
expendable, potentially autonomous systems. The new Marine 
Corps Commandant, General Berger, recently noted in his 
planning guidance, ``Military equipment that has served us well 
yesterday may not serve us well today.'' How will we get ahead 
of technology trends that are increasingly favoring low-cost, 
high-impact systems rather than high-cost, low-impact systems?
    Mr. Schriver. With leadership that is very focused on 
preparing for strategic competition with China. As I was saying 
earlier, we are doing unprecedented work to try to bring the 
whole defense enterprise into alignment in an appropriate way 
for the China challenge, and that includes the elements of our 
Department that are involved in research and development, 
acquisition, and talking about the future force.
    So, our National Defense Strategy makes a clear priority on 
the theater and the pacing threat, which is China. If you look 
at the resources that we have asked for in the three budgets in 
this administration, there is a movement towards investing more 
in the contested domains of cyber, space, hypersonics, AI. And 
so, I think we are moving in the right direction. It is a very 
dynamic environment. And the Chinese get a vote. As we say in 
the military, ``The enemy gets a vote.''
    Senator Coons. Let me just push back a little bit on that. 
I agree with you that there is increased investment in those 
areas, but the areas where there is traditionally the heaviest 
and most costly investment--take ships--is a platform like 
aircraft carriers, where, if I get my numbers roughly right, 
you know, a missile that is $10 million can take out something 
that costs literally billions to build and deploy and sustain. 
I am worried about legacy systems that are large and expensive, 
both in air and in space. I agree with you that there are new 
domains, like hypersonics, or well-known domains, but that 
relatively new, like cyber, where we have to invest more. But, 
the majority of what we are investing, what we have already 
got, and what we are building is in these very significant and 
costly legacy systems. How are we reexamining what we are 
doing, in terms of warfighting, not some future research 
project for 25 years from now, but today?
    Mr. Schriver. No, I understand. And what I can say is, that 
conversation is well underway, and it is at the direction of 
our leadership to make decisions that are appropriate for the 
competition with China and the threat that we face in China's 
approach in what many call the ``anti-access/area denial,'' 
which means we have got to think about dispersal, we have got 
to think about diversification. Lethality means survivability 
and sustainment.
    Senator Coons. Right.
    Mr. Schriver. We are bringing together the warfighters, the 
planners, those that are involved in R&D, those that are 
involved in acquisition, and having as sophisticated a 
conversation as we can have about that. And all I can tell you 
is, the leadership is focused on this. There are, obviously, 
legacy platforms that have advocates, and I see a need for 
continuing investment for some of the other mission sets. But, 
I am confident that we are going to come out in the right 
place, given the focus and the prioritization that the 
leadership has on this.
    Senator Coons. I appreciate your answer. I wish we had time 
for a more robust and broader engagement, but it is already 
4:20, and I suspect we are going to have votes called any 
second.
    Senator Gardner. Thank you, Senator Coons.
    Senator Coons. Thank you.
    Senator Gardner. Votes are now at 4:30, if you want to 
continue.
    We can continue. I will ask a question to follow up on what 
Senator Coons has to say.
    In terms of warfighting, force modernization efforts, could 
you maybe get into a little bit more specifics on ARIA and how 
that can play a role in force modernization efforts and weapon 
systems, those kinds of things? The very beginning stages of 
ARIA, we had a number of conversations, both with Senator 
McCain and the Asia-Pacific Security Initiative, as well as 
Ambassador--excuse me, I guess then-Admiral Harris at PACOM. 
Could you talk a little bit more how ARIA fits into that, and 
what can be used?
    Mr. Schriver. Well, I think it informs the process. It 
talks about our national security objectives, and gives us, 
really, a blueprint for the future. So, it really helps inform 
those discussions as they unfold. I think, again, there is no 
confusion over what our priority is and what the pacing element 
is, so it is another tool to help us keep that alignment as we 
go forward and as advocates for other ways try to emerge. It 
keeps us aligned and keeps us focused on what we need to be 
focused on.
    Senator Gardner. And can some of the funding from ARIA--I 
mean, that, obviously, can be used to help with this effort. Is 
that correct?
    Mr. Schriver. I am sorry, Senator?
    Senator Gardner. The funding through ARIA.
    Mr. Schriver. Yeah. I do not know that we have worked out 
exactly how it would be apportioned. Certainly we do see it as 
a potential tool for us, as long as we can work with our 
interagency colleagues on that.
    Senator Gardner. Okay, thank you.
    Secretary Stilwell, in your testimony you talk about ARIA 
calling for pursuing a peaceful denuclearization of the 
Democratic People's Republic of Korea through a policy of 
maximum pressure and engagement. Could you give us an update of 
where we are with that ARIA principle?
    Mr. Stilwell. Senator, I mentioned earlier, the engagement 
part is where we are best postured, where we are best suited. I 
think this chamber and all of us, you know, even in the best of 
times, the worst of times, we represent to many, to include 
North Korea, a model that I think many--certainly, the North 
Korean people would like to see, would definitely enjoy, if 
they could get there. And so, Special Representative Biegun, I 
know, is working on engagement and trying to get these folks to 
the table to reassure them that their security interests--we 
take those into consideration as we work through this problem. 
It has been 60-plus years of this process. And so, it is not 
going to go away right away, but we are certainly on a better 
track now than I think we were in the past. They have come out 
to talk. We need to encourage them to continue doing that. And 
I think ARIA does help. At least, the message is certainly, 
``We are here to engage.''
    Senator Gardner. You talking about North Korea's security 
interests, the issues that North Korea has brought up, in terms 
of their security interests. That is correct? Are you concerned 
that perhaps recent actions in Syria could influence the 
thought process as it relates to security-interest guarantees 
that North Korea may be making?
    Mr. Stilwell. Senator, as you mentioned during the intro, 
you know, I started this world in 1980, looking and tracking 
and trying to understand North Korea. There is only one thing 
that North Korea thinks about, and that is North Korea. A lot 
of these other things that they throw out there are 
distracters, something--leverage in some form. But, you know, 
in this security dilemma that we face, in somehow convincing 
them that a massively overpowering U.S. force truly, you know, 
will have their security interests, and they can successfully 
trade its nuclear program, which, frankly, makes them less 
secure, for U.S. assurances--that is where we make our money. 
And--yeah, I think that is where we should focus.
    Senator Gardner. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    As you may recognize, there is a consistent refrain. I want 
to see the United States and Asian countries develop stronger 
relationships. That is what ARIA is all about. But, this desire 
to keep a closer relationship with countries is always in the 
context of the history of the country that we are dealing with, 
and their own leadership right now. So, that is no different 
with the Philippines. However, my colleagues and I continue to 
call for the administration to hold the Government of the 
Philippines accountable for extrajudicial killings and unjust 
imprisonment of political rivals and journalists.
    The most recent State Department Human Rights Report raises 
numerous significant concerns, including persecution of human 
rights defenders and detention of political prisoners, 
including Senator Leila de Lima. I have introduced a resolution 
on that issue. Extrajudicial killings perpetuated by the 
Government of the Philippines under the cover of a government-
directed anti-drug campaign continue, yet President Trump says 
he has, quote, ``a great relationship with President Duterte.''
    Mr. Stilwell, in light of President Trump's ``great 
relationship with President Duterte,'' how is the State 
Department holding Duterte accountable for his human rights 
violations and those of his government?
    Mr. Stilwell. Senator, we do that by leading with, you 
know, our fundamental beliefs in human rights, by demonstrating 
those, and certainly by engaging. You have heard from their 
defense minister and from my counterpart, or--the person I work 
most with is Secretary Locsin. You know, we express these 
concerns. And I think you have heard from other parts of the 
Philippine government, the similar concern. So, the message is 
getting across.
    As far as the, you know, presidential decisions, I cannot 
speak to that. But, as far as my interactions with the foreign 
affairs side--and we have had significant progress in, 
certainly, communicating our message and getting them to read 
it back, demonstrating their concern, as well.
    Senator Markey. Okay. Well, what is the administration's 
strategy to exert more pressure on the government to release 
Senator de Lima from detention as soon as possible?
    Mr. Stilwell. Senator, we are aware of her continued 
detention, and, again, when we interact, we raise this. And to 
me, that demonstration of concern on a repeated, steady basis 
is the way that you convince sovereign governments to take 
decisions that benefit themselves and us, as well.
    Senator Markey. Well, I think that there is a mixed message 
that is being sent, obviously, when the President says that he 
has got a ``great relationship with Duterte.'' I think it makes 
it more difficult for you and others to hold Duterte 
accountable for extrajudicial killings and unjust 
imprisonments, which, in my opinion, is what we are talking 
about here, with Senator de Lima. So, I just think that there 
has to be some public statement by this administration with 
regard to the immediate release of Senator de Lima, to have it 
happen in a way that reflects our concern about the way in 
which Duterte is punishing those who are critical of his 
administration's policies. So, that would be my message to you.
    So, I thank you, Mr. Chairman. I could ask one more 
question, if you want, Mr. Chairman.
    [Laughter.]
    Senator Gardner. He just asked if I needed him, and I said, 
``I do not think so.'' Was that the right answer? Yeah, okay. 
Good.
    Well, thank you, Senator Markey.
    And I want to thank Senator Johnson for his willingness to 
come in at 4:30 and take over. We are going not start votes, I 
think, anytime now, so I am going to go ahead and wrap up the 
hearing, if that is all right with you, Senator Markey.
    So, I want to thank everyone for your time and testimony 
today, for providing the statements that you did.
    For the information of members, the record will remain open 
until the close of business on Friday, including for those 
members wishing to submit questions for the record. I would 
kindly ask that the witnesses would respond as quickly as 
possible, promptly as possible; and your responses will be made 
a part of the record.
    And so, with the thanks of this committee, the hearing is 
now adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

           Responses of Hon. David R. Stilwell to Questions 
                 Submitted by Senator Edward J. Markey

    Question. Were all funds Congress appropriated for human rights, 
civil society, and democracy programs in China in fiscal year 2019 
fully obligated before the end of the fiscal year?

    Answer. No, the Department was not able to obligate all FY 2018 
China funds for human rights and democracy programs by the end of 
fiscal year FY 2019.


    Question. Do delays in the obligation of program funds for 
important priorities risk the continuity of U.S. democracy and human 
rights programs in China? If no, why not?

    Answer. The Department is committed to finding the necessary 
funding to ensure the continuity of U.S. democracy and human rights 
programs in China. DRL is an important provider of such funding. DRL's 
China program portfolio currently consists of approximately $29 million 
across 30 multi-year human rights and democracy programs. Of those, 
eight will be completed by December and an additional thirteen by 
September 2020. We aim to find a solution to the current funding 
shortfalls to ensure the continuity of our overall China portfolio.


    Question. What is the State Department's plan to obligate human 
rights and democracy policy and program funds well before the fiscal 
year's end, moving forward?

    Answer. The State Department is committed to obligating all of its 
funding in a timely manner and in line with applicable requirements. 
Department officials are currently reviewing procedures associated with 
the obligation of funds, and will make adjustments as necessary to 
improve those procedures and avoid the expiration of funds. The 
Department will continue to keep Congress informed on these issues.


    Question. Even if the U.N. process is stalled, does the Trump 
administration have authority to add names of Kim-regime enablers to 
our own sanctions list?

    Answer. Sanctions will remain in full effect until North Korea 
denuclearizes. We will continue to go wherever the evidence leads and 
explore available sanctions on entities or individuals that engage in 
sanctionable activity involving North Korea, which could include 
providing support for North Korea's proscribed programs.


    Question. What is your plan to regularly add names to the U.S. 
sanctions list - for direct impact, to lead by example, and enhance 
U.S. diplomatic efforts to raise global pressure?

    Answer. It would be inappropriate to comment on internal 
deliberations on potential actions. I refer you to the Department of 
Treasury for further questions on sanctions designations. The 
Department of State will continue to work closely with the Department 
of Treasury to enhance economic pressure, including through 
implementing and enforcing our sanctions regime with respect to North 
Korea.

          Response of Hon. Randall G. Schriver to a Question 
                    Submitted by Senator Todd Young

    Question. ARIA strives to expand security and defense cooperation 
with our allies and partners in the region. We already have a long 
history and strong, comprehensive relations with Japan, Korea, 
Australia, and others in the region. How well does India fit into this 
broader regional strategy? What are we doing enough to cultivate that 
relationship?

    Answer. India shares a common vision with the United States and its 
allies and partners for an ``open, stable, secure, and prosperous Indo-
Pacific Region.'' Since taking office, Prime Minister Modi has 
prioritized engagement with major powers in the region and emphasized 
the transformation of India's ``Look East'' policy into a proactive 
``Act East'' policy that aims to strengthen economic ties in East and 
Southeast Asia. As part of its outreach, India is emphasizing the 
importance of protecting sea lines of communication in the Indian Ocean 
and beyond. This common vision of the Indo-Pacific region has formed 
the foundation of the U.S.-India strategic partnership and India's 
leadership as a net security provider in the Indo-Pacific region. Over 
the past few years, the United States and India have taken significant 
steps to cultivate the relationship and expand defense cooperation. In 
2016, the United States designated India as a ``Major Defense 
Partner,'' and in 2018, the United States granted India Strategic Trade 
Authorization-1 (STA-1) status, both of which have opened the door to 
increased defense trade and technological collaboration. Likewise, the 
United States and India signed the Communications, Compatibility, and 
Security Agreement (COMCASA) in 2018. With this agreement, the United 
States can provide advanced communications equipment to India, allowing 
for secure, real-time information and intelligence sharing between our 
militaries and enabling a level of cooperation and interoperability 
unprecedented to date. Finally, with the inauguration of the annual 
Ministerial-level 2+2 dialogue in September 2018, the United States and 
India have formalized high-level, strategic dialogue to promote and 
defend shared principles in the region. Moving forward, the United 
States will seek to build upon already strong military-to-military ties 
to enhance our interoperability, operational coordination, and 
readiness to address shared regional challenges.


                               __________


          Responses of Hon. Randall G. Schriver to Questions 
                 Submitted by Senator Edward J. Markey

    Question. This administration has accelerated U.S. arms sales to 
Thailand. The United States should opt to use these sales as a tool to 
press for democratic reform, and the U.S. should make sure our arms 
sales should not be used to discourage domestic protests or opposition. 
How should the U.S. structure arms sales to Thailand?

    Answer. In support of our broader strategy objectives in the Indo-
Pacific region, reinvigorating our defense cooperation with Thailand is 
a critical signal to both the Thais and competitors in the region that 
the United States remains the partner of choice. Although Thailand's 
modernization efforts with the United States currently give priority to 
the Royal Thai Army, we also hope to expand modernization efforts with 
the Royal Thai Air Force and Royal Thai Navy to enhance current 
operations and support contingency planning requirements in the region. 
At several points in this deliberative process we rely heavily on the 
State Department's foreign policy input and include senior stakeholders 
from both DoD and DoS regional and functional offices.
    Question. This administration has accelerated U.S. arms sales to 
Thailand. The United States should opt to use these sales as a tool to 
press for democratic reform, and the U.S. should make sure our arms 
sales should not be used to discourage domestic protests or opposition. 
Should the U.S. withhold equipment that can be used to repress domestic 
opposition?

    Answer. Appropriate mitigation measures are in place to avoid the 
misuse of U.S.-provided equipment. All foreign military sales cases are 
examined case-by-case among the relevant departments and agencies. This 
includes a mandatory country team review and assessment and concurrence 
from the U.S. Ambassador to Thailand. Rule of law training and human 
rights training are provided to Thailand, along with institution 
capacity-building efforts. Both the country team and non-governmental 
organizations conduct substantial monitoring to help ensure equipment 
is not used to repress domestic opponents. Although we want to remain a 
reliable partner in the region, DoD does retain the ability to cut 
sustainment packages, training and education activities, and future 
sales and grant assistance.


    Question. This administration has accelerated U.S. arms sales to 
Thailand. The United States should opt to use these sales as a tool to 
press for democratic reform, and the U.S. should make sure our arms 
sales should not be used to discourage domestic protests or opposition. 
Should the U.S. use arms sales as leverage for democratic reforms? 
Would the Thai government respond with structural changes if the U.S. 
withholds arms sales until they reform?

    Answer. No. Using a transactional model with our arms sales would 
create significant mistrust in our relationship with Thailand. Our best 
tools for influencing political reforms in Thailand fall within our 
diplomatic and economic lines of effort.


                               __________


            Responses of Hon. Gloria D. Steele to Questions 
                 Submitted by Senator Edward J. Markey

    Green and renewable energy is a critical part of our development 
policy in Asia. USAID has a number of renewable energy programs under 
the government wide ASIA EDGE--``Enhancing Development and Growth 
through Energy'' initiative. It appears USAID's related renewable 
energy programs are winding down, as many EDGE programs have not 
updated their websites or upcoming events, or only list programming 
through early 2020.

    Question. What is the state of USAID's renewable energy programs in 
Asia? Are the numbers increasing? Which have been added? Have any been 
discontinued? If so, why?

    Answer. The United States Agency for International Development 
(USAID) currently supports 12 programs with renewable energy activities 
in eight of our bilateral and regional operations in Asia.


    In keeping with the objectives of Asia EDGE, USAID has increased 
its support for modern energy programs that have been launched by USAID 
country and regional missions, most notably in Vietnam, India, and our 
Regional Development Mission for Asia (RDMA).We have not discontinued 
any of our renewable energy programs, and may begin new RE programs in 
countries such as Mongolia and Laos. In fact, with decreasing prices 
for solar and wind-based energy, interests in and requests for 
renewable energy-support from countries in the region have increased in 
recent years.

    Question. What is the value and the status of Asia EDGE programs 
obligated from FY 2019 funds? [No Response Received]

    Answer. The Fiscal Year 2019 funds have not yet been finalized. In 
FY 2018, the Department of State and USAID obligated $145 million and 
other expiring funds for EDGE.


    Question. How many renewable energy requests for proposals for FY 
2020 and beyond have been released under the auspices of ASIA EDGE, or 
when will they be released, if at all.

    Answer The United States Agency for International Development 
(USAID) has at least seven future projects with renewable energy 
components that will begin implementation in Fiscal Year (FY) 2020 and 
beyond. USAID has already announced 14 Asia EDGE programs whose life-
of-project timelines extend beyond FY 2020.


    Through USAID's programs, we should be empowering countries in Asia 
to produce their own renewable energy. Our policy should help our 
partners increase their resiliency and keep their development moving 
forward without sacrificing the goal of net zero greenhouse gas 
emissions, among other objectives set by the Intergovernmental Panel on 
Climate Change.

    Question. What are your plans to effectively advocate within the 
administration for USAID to implement comprehensive renewable energy 
solutions?

    Answer. The United States Agency for International Development 
(USAID) is an inter-agency leader in the implementation of the 
Administration's Asia EDGE initiative, which constitutes a whole-of-
government effort to leverage market-based policies to support energy 
security within the region. We have a strong history of establishing 
policy environments necessary to enable the cost-effective entry of 
renewables into countries' markets. For example, in India, USAID and 
the Government of India (GOI) co-chair two of the four pillars under 
the U.S.-India Strategic Energy Partnership: the renewable energy and 
sustainable growth pillars.
    In Vietnam, where the demand for energy is expected to more than 
double by 2030, USAID is working closely with the government to develop 
and implement policies that support scaling up the generation of 
renewable energy. This has contributed to a massive increase in solar 
energy production over the past two years--from less than 2 percent of 
the country's total power--generation to over 10 percent.
    During Fiscal Year 2018 in Indonesia, USAID provided technical 
advisory services in support of 11 renewable energy projects that have 
since ended after successfully mobilizing a combined $806 million in 
investments from the public and private sectors.


    Question. What percentage of USAID's energy solutions are renewable 
energy programs?

    Answer. Given that much of United States Agency for International 
Development's (USAID) work relates to the development of national 
energy plans, power-sector master plans, and optimization of generation 
and power systems, it can be difficult to separate our renewable 
energy-specific work from our more general sectoral interventions in 
energy or utility reform. However, across the region, renewable energy 
and energy efficiency are essential considerations in more than 90 
percent of our energy programming.



                               __________







                                  <all>
</pre></body></html>
